<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        WEDNESDAY, MAY 23, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Harkin, Durbin, Feinstein, 
Mikulski, Kohl, Murray, Johnson, Reed, Cochran, McConnell, 
Shelby, Hutchison, Alexander, Collins, Murkowski, Graham, and 
Coats.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF GENERAL CRAIG R. McKINLEY, CHIEF, NATIONAL 
            GUARD BUREAU


             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE


    Chairman Inouye. This morning, the subcommittee meets to 
receive testimony on fiscal year 2013 budget of the National 
Guard and the Reserve components.
    From the National Guard, I'd like to welcome Chief of the 
National Guard Bureau, General Craig R. McKinley; the Director 
of the Army National Guard, General William Ingram; and the 
Director of the Air National Guard, Lieutenant General Harry M. 
Wyatt, III.
    Our witnesses from the Reserve include the Chief of the 
Army Reserve, General Stultz; the Chief of the Navy Reserve, 
Admiral Dirk Debbink; the Commander of the Marine Corps 
Reserve, General Steven Hummer; and the Chief of the Air Force 
Reserve, General Charles Stenner.
    And I would like to thank all of you for joining us today 
as the subcommittee reviews the fiscal year 2013 budget for the 
Reserve components.
    This year's budget proposes significant force structure 
changes for the Air National Guard, reducing end-strength by 
5,100 billets and aircraft inventory of 134 aircraft.
    This proposal has come under intense scrutiny from the 
Members of Congress, the Council of Governors, and many 
adjutant generals.
    And I would like to hear from you on how involved you were 
in the deliberative process that preceded the force structure 
announcement and what input you were asked to give.
    In addition, over the last several years, the Guard and 
Reserve have made important changes as they transition from a 
Strategic to an Operational Reserve. This shift requires you to 
have deployment ready units available at all times.
    As we draw down our military forces in Afghanistan, the 
Department will need to figure out how to best utilize this new 
Operational Reserve. Many challenges remain for the Guard and 
Reserve. Reserves and their families lack the support network 
provided for Active-Duty installations, so it is important that 
our Reserve families get the support they need during the 
deployments, and as reservists transition back to civilian 
life.
    The Guard and Reserves still face significant equipment 
shortfalls. The Congress has provided additional equipment 
funding for the Guard and Reserve in each of the last 32 years 
because year after year, the President's budget fails to 
sufficiently fund Reserve components.
    I'm certain that the witnesses here this morning agree that 
without this additional funding, our Reserve components would 
be woefully underequipped.
    It is our duty to our men and women of the Guard and 
Reserves who are called on to deploy in harm's way, just like 
their Active-Duty counterparts, to make certain they are 
adequately trained and equipped.
    So, gentlemen, I look forward to hearing your perspective 
on these issues and working with you this year in support of 
our guardsmen and reservists.
    And I would like to thank all of you for this testimony 
this morning. Your full statements will be made part of the 
record.
    We will begin our hearing with the National Guard panel. 
But first, I would like to call upon Mr. Alexander because our 
Vice Chairman has been slightly delayed. He has just called to 
say he'll be coming in shortly.


                  STATEMENT OF SENATOR LAMAR ALEXANDER


    Senator Alexander. Thank you, Mr. Chairman. And I will 
condense my remarks.
    Welcome, gentlemen. We look forward to your comments.
    Re-equipping the Guard is one of the biggest challenges 
facing the Department of Defense. I think our Chairman has 
outlined that very adequately. And the President's proposed 
budget doesn't adequately support the Guard and Reserve.
    Each of us in our States are very proud of the role that 
our men and women have played. Our Army Guard, 278th Armored 
Calvary Regiment, about which I'll be asking some questions, 
has been deployed twice.
    Many are serving in Afghanistan and Iraq, flying C-5 
missions, running airfield operations, installing fiber-optic 
communications, and getting wounded out of harm's way. So we're 
grateful to them and we're grateful for the efforts that have 
been made to modernize the Guard.
    And we've seen great changes in what men and women who join 
the Guard expect to do over the last 10, 15 years. And we need 
to be responsive to the changed conditions and the changed 
expectations of Guard members.
    So I'll be listening closely to the testimony, and I 
appreciate very much your service and your being here today. 
Thank you, Mr. Chairman.
    Chairman Inouye. May I now call upon the Vice Chairman, 
Senator Cochran.


                   STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. Mr. Chairman, thank you very much for 
convening the hearing. I'm pleased to join you and other 
Senators in welcoming our panel of distinguished witnesses this 
morning.
    We thank you for your service to our Nation, helping 
protect the safety and security of our citizens and our 
interests around the world.
    Thank you.
    Chairman Inouye. May I recognize General McKinley.


             SUMMARY STATEMENT OF GENERAL CRAIG R. MCKINLEY


    General McKinley. Chairman Inouye, Ranking Member Cochran, 
and distinguished members of the subcommittee. Thank you.
    It's an honor and a privilege to be here today with my two 
directors, Bud Wyatt on my right and Bill Ingram on my left, as 
well as the other Reserve Chiefs.
    We have a very close affiliation with each other, and it's 
a pleasure and an honor again to testify before you.
    I wanted to take this opportunity, as I always do, to thank 
you all for your dedication to the soldiers and airmen that we 
represent.
    Bud and Bill will make some brief statements after I do. 
Both of them, distinguished former Adjutants General, Bud Wyatt 
from Oklahoma and Bill Ingram from North Carolina.
    So, they have unique perspectives on the issues and 
concerns of our soldiers in the State Active-Duty status and in 
title 32 status.
    And we find ourselves, obviously, in the midst of 
constraint budgets and tough decisions. No doubt we must all 
curb spending but should not at the expense of our security. 
That is why I must tell you that sequestration would hollow the 
force substantially and devastate our national security.
    It would result in further, severe reductions to the 
National Guard, Reserve, and the Active component. The National 
Guard is already facing difficult budget cuts, as you've 
alluded to, cuts that impact equipment and personnel.
    Further reductions would significantly limit the Guard's 
ability to function as an operational force, decrease the Total 
Forces' overall capability, and reduce the departments' 
capacity to protect the homeland and respond to emergencies.
    The National Guard is a more ready, more capable, and more 
rapidly deployable force than ever in our Nation's history, as 
all of you know so well from your visits back home.
    We have, and will continue to answer the call for 
mobilizations and volunteer support of our combatant 
commanders. Today, more than 50 percent of our guardsmen have 
combat experience.
    As a part-time force, the National Guard is a proven, 
affordable defense option for America. During a time of 
constrained budgets, we should continue to be used as an 
operational force to ensure the Nation is getting the most 
defense capability at the lowest cost.
    As an operational force, the National Guard is ideally 
suited to meet the new strategic guidance, to meet steady State 
demands, and act as a strategic hedge for unforeseen world 
events. At any time, the National Guard can and will augment 
the Active Duty, both the Army and the Air Force, to surge and 
regenerate forces.
    The Nation also counts on the National Guard to protect the 
homeland, your home States, commonwealths, territories, and the 
District of Columbia. The National Guard is the best and 
primary military force to respond to complex catastrophes and 
contributes to our security by protecting our air space and 
borders.
    While representing only a small portion of the Guard's 
response capability, last year Federal and State authorities 
called on one of our 57 Civil Support Teams to use their unique 
weapons of mass destruction assessment skills almost twice a 
day, every day in our hometowns.
    The National Guard is crucial to our Governors. Over the 
past 3 years, guardsmen and women responded to an unprecedented 
string of disasters. We are poised and ready to provide that 
support again.
    According to the Federal Emergency Management Agency (FEMA) 
Administrator Craig Fugate, speed is critical to domestic 
response. He has stated recently at the National Governors' 
Association Conference that aviation assets need to be organic 
to the National Guard. Other options, he added, may not provide 
the same speed and capacity.
    We're obviously located in more than 3,000 communities 
across the country, and the National Guard is positioned to 
respond quickly and efficiently and work very close with our 
civilian first responders to any domestic emergency.
    Our dual role requires that we continue to improve the 
quality and quantity of our equipment. The National Guard 
Reserve Equipment Account (NGREA) has been, and will continue 
to be, crucial to that endeavor.
    The NGREA is vital to the Guard as I'm sure it is to the 
other Reserve Chiefs, as it provides the ability to meet 
requirements including homeland defense needs and modernization 
of legacy equipment.
    After 11 years of war, we continue to work closely with the 
United States Army, and the United States Air Force, to re-set 
our force to ensure our equipment levels meet the defense 
strategy.
    As citizen soldiers and airmen, guardsmen are able to blend 
their unique combination of military training, civilian 
acquired skills, to provide innovative approaches to support 
our Nation's security strategy.
    The State partnership program is a cornerstone of the new 
strategic guidance and demonstrates the Guard's versatility. 
Our partnership with more than 60 foreign countries has 
strengthened their military capacity and competence as well as 
our alliance, most recently demonstrated in Chicago with our 
National Atlantic Treaty Organization (NATO) Summit.
    National Guard partner nations have reduced the demand on 
U.S. forces, 22 partner nations have provided 11,000 troops to 
Afghanistan, and 40 partner nations have provided more than 
31,000 personnel in support of United Nations peacekeeping 
operations.
    This year we will celebrate 20 years of the State 
partnership program, and we look forward to continuing to work 
with the Adjutants General, the Governors of our States, 
territories, commonwealths, and the District of Columbia to 
continue this innovative, low-cost, small footprint approach to 
security cooperation for the future.
    Each year, we continue to adapt our skills to better serve 
the Nation's strategy, and that is why this year we are 
instituting a threat-based resourcing model for our counterdrug 
activities. This will direct funding to States facing the most 
pressing narcotics threats to our communities. The breadth of 
our skills allows the Guard to take on new and emerging 
missions.
    I also would like to address our most important asset, as 
you have so aptly stated, our soldiers and airmen are the 
reason the National Guard has been so successful over the last 
decade. Indeed, for the last 375 years.
    Today, your National Guard is the most capable and 
competent in history, and that is because we are recruiting the 
highest quality soldiers and airmen.
    Our noteworthy enlistment and retention numbers since 
September 11, 2001, are proof that they join because they want 
to be used and expect to be used. This dedication would not be 
possible without the support of our families, communities, and 
the employers.


                           PREPARED STATEMENT


    That's why I'm dedicated to working closely with the Army 
and the Air Force to provide our servicemembers, their 
families, and employers with the best and most effective 
support available.
    Thanks for the opportunity, Mr. Chairman, to appear before 
you today. I'd like to ask my wingman, Bud Wyatt, to speak, 
followed by Bill Ingram.
    [The statement follows:]

            Prepared Statement of General Craig R. McKinley

                            OPENING REMARKS

    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the subcommittee: I am honored to appear before you today, 
representing more than 460,000 citizen-soldiers and airmen in the Army 
and Air National Guard, an organization that is historically part of 
the foundation of our great democracy. America's National Guard remains 
ready, reliable, and accessible. As members of an operational force 
that's a critical piece of our Nation's military response both overseas 
and here at home, the soldiers and airmen of the National Guard 
contribute daily to our Nation's overseas and domestic security 
objectives.

            THE NATIONAL GUARD: SECURITY AMERICA CAN AFFORD

    For 375 years, the National Guard has played a significant role in 
maintaining peace and security for our States, territories, the 
District of Columbia, and the Nation. I am very proud of our rich 
heritage and our present-day resolve as we continue our role preserving 
the ideals upon which our country was established.
    Today, we are faced with a historic opportunity as we stand at the 
confluence of a new fiscal environment, the transition from combat to 
stability operations and a new military strategy. This convergence is 
leading to new defense-wide budgetary realities and challenging our 
decisionmakers as they formulate difficult spending choices that are 
sustainable and keep America safe and secure.
    Today's global security environment is characterized as having 
asymmetric threats which pose danger to the United States. In light of 
this, we must remain vigilant and capable. The United States faces 
greater security challenges today than at the end of the cold war, the 
last time the military was significantly downsized. Therefore, we must 
look beyond simple cost accounting methods calling for across the board 
spending reductions. This method was used in the past, and it did not 
serve us well. The result was widely characterized as a hollow force. 
Our new military strategy ensures we will not risk a hollow National 
Guard in the future.

        AN OPERATIONAL FORCE FOR DOMESTIC AND OVERSEAS MISSIONS

    The National Guard is well-suited to provide support to our new 
military strategy. The past 10 years brought vast improvements in the 
overall training, equipping, and readiness of our force. This reality, 
combined with significant combat experience, has created a ``dividend'' 
in the National Guard. We have the most proficient, capable, 
accessible, and battle-tested National Guard in the history of the 
United States. Failure to continue the reliance on, and modernization 
of, the National Guard would squander a decade's worth of progress and 
result in an enormous loss of experience and capability.
    As a ready and rapidly deployable force, the National Guard has 
proven its value over the past decade. Both the Army and Air National 
Guard have contributed thousands of soldiers and airmen to Iraq, 
Afghanistan, the Balkans, Guantanamo Bay, Djibouti, the Sinai, and 
other locations across the globe. In 2011, more than 29,000 National 
Guardsmen were mobilized for operations around the world. An example of 
our ability to rapidly project United States power occurred on March 
17, 2011. As the United Nations Security Council debated the Libyan no-
fly zone resolution, Air National Guard aircraft and air crews were 
already en route to forward operating bases to await orders. The 
National Guard offers America not only affordable defense but also a 
``reversibility'' option--a strategic hedge for unforeseen world events 
which could dictate a change of course for our Nation's military 
strategy. At any time, the National Guard can augment the Active Duty 
to surge and regenerate forces.
    The National Guard is also a crucial component of the Department of 
Defense (DOD) primary mission to provide support to civil authorities 
and defend the homeland. Each year, the National Guard responds to a 
myriad of domestic emergencies. Last year alone, the Army National 
Guard performed more than 900,000 duty days (459,724 in State status 
and 447,461 in title 32 status) in response to wildfires, tornadoes, 
floods, Hurricane Irene, and other alerts and emergencies. Air National 
Guardsmen also fully participate in these missions including protecting 
American skies through the Aerospace Control Alert mission, critical 
infrastructure protection, and assisting their local communities with 
disaster recovery.
    The National Guard also brings innovative response capabilities to 
respond to major disasters including weapons of mass destruction 
incidents. The National Guard is home to 70 percent of the department's 
capability to respond to weapons of mass destruction. By the end of the 
2012, the National Guard will fully establish 10 Homeland Response 
Forces. These forces are part of an escalating capability that 
complements the National Guard's 17 Chemical, Biological, Radiological, 
Nuclear Enhanced Response Force Packages and 57 Weapons of Mass 
Destruction Civil Support Teams. Most importantly, time and distance 
equal lives saved. The National Guard is fully integrated into more 
than 3,000 communities across the country and the innovative response 
task forces are within 250 miles of 80 percent of the U.S. population.
    The National Guard Counter Drug Program (CDP) is leading the effort 
to engage in funding based on measurable metrics and threats. The 
implementation of the Threat Based Resource Model budget will 
strengthen the National Guard's national security capability by 
allocating resources to all States and territories based on the 
severity of the narcotics threat faced by each State. In an era of 
ever-changing global challenges, the CDP provides critical support to 
law enforcement agencies (LEAs) and combatant commanders with full-
spectrum capabilities that helps our Nation detect, interdict, and 
disrupt transnational criminal organizations. CDP personnel helped LEAs 
seize almost $18.5 billion in drugs, property, weapons, and cash in 
fiscal year 2011. The CDP also operates five Counterdrug Training 
Centers located in Florida, Iowa, Mississippi, Pennsylvania, and 
Washington; these centers trained 5,836 military personnel, 56,093 law 
enforcement officers, and 9,792 interagency partners in 2011.

           THE NATIONAL GUARD'S VALUE AND UNIQUE CAPABILITIES

    The National Guard provides a cost-effective, proven solution to 
our country's budgetary crisis while helping to ensure our security. 
The National Guard allows the Nation to maintain a robust military 
capability at the least possible cost to the taxpayer and is a viable 
resource for reducing the Department's cost of doing business. In the 
Army National Guard, more than 50 percent of our soldiers are now 
seasoned combat veterans. The Air National Guard is similarly filled 
with combat veterans. To ensure reversibility, the experience these 
soldiers and airmen have gained over the past decade of conflict cannot 
be lost.
    As the Nation looks for innovative, low-cost, and small-footprint 
approaches to achieving our security objectives, the National Guard is 
providing a blueprint of success. Celebrating nearly 20 years of 
enduring relationships with 63 countries, the National Guard's State 
Partnership Program (SPP) provides unique military-to-military 
activities with partner countries using National Guard expertise. 
Participation in SPP events is designed to enhance partner 
capabilities, advance defense reform efforts, and achieve greater 
military interoperability to support U.S. security cooperation efforts.
    Among other benefits, SPP alignments have resulted in joint 
National Guard and partner country deployments in support of 
multinational operations in Afghanistan. These critical partner-country 
deployments reduce pressure on U.S. forces worldwide and hedge against 
the need for more direct and costly U.S. military involvement in future 
contingencies.
    DOD is also currently refining its framework to thwart cyber 
attacks in the future while defending our critical military networks 
today. The National Guard has access to a wealth of information 
technology talent within its ranks, including guardsmen working in 
numerous information technology companies. These soldiers and airmen 
have a unique blend of civilian and military skills across the 
information technology spectrum, making the National Guard a ready 
defense asset in the national cybersecurity mission.

                 SUPPORT SOLDIERS, AIRMEN, AND FAMILIES

    Our soldiers and airmen are our greatest asset, and that is why we 
are committed to effectively responding to the needs of National 
Guardsmen and their families. The Army Guard currently has more than 
3,100 wounded warriors in Warrior Transition Units (WTUs) that are 
focused on healing each injured soldier as he or she either transitions 
back to military duty or leaves the military to assume a productive, 
responsible role in society. WTUs provide nonclinical support, complex 
case management, and transition assistance for soldiers of all 
components at medical treatment facilities on Active Army 
installations. The Air Guard's Wounded Warrior program provided 
awareness, identification, and information/referral to more than 160 
wounded airmen. The program's mission is to provide the best possible 
nonmedical care and professional support from the point of injury to 
life after separation or retirement.
    The National Guard has made suicide prevention a top priority by 
promoting resilience and risk reduction programs that will enhance 
coping skills in our soldiers, airmen, families, and civilians through 
leadership awareness, training, and intervention programs. As the 
foundation of each soldier's support network, Army Guard families and 
employers are being trained to assist in identifying high-risk 
individuals. States have capitalized on community-based resources and 
solutions to provide services outside of military installations.
    One of the many challenges that we face today is unemployment for 
our returning guardsmen. Based on the DOD Civilian Employment 
Information database, we estimate that 20 percent of returning National 
Guard soldiers and airmen are unemployed. The rate of unemployed gulf 
war era II veterans remains much higher than the national nonveteran 
rate. Gulf war era II veterans who have left military service in the 
past have an unemployment rate in January 2012 of 9.1 percent.
    The National Guard Bureau has been and remains deeply concerned 
with the employment status of our soldiers and airmen. They are our 
most important asset and their well-being and retention are essential 
for the National Guard as an operational force. As early as 2004, the 
National Guard Bureau funded a unique resource, titled ``Program 
Support Specialist,'' at each of the 54 State Joint Force Headquarters. 
This individual serves as the subject-matter expert for the Adjutant 
General regarding local issues with employers of Air and Army National 
Guard members.
    While initially focused on specific employer support issues and 
complaint resolution, the duties of the Program Support Specialist 
expanded to include employment facilitation. In addition to 
coordinating employment opportunity events and linking unemployed 
guardsmen with available resources, Program Support Specialists are 
serving as case managers for unemployed guardsmen by connecting them 
with local resources, the Department of Veterans Affairs, and the 
Department of Labor. Last year, Program Support Specialists 
participated in more than 1,000 ``Yellow Ribbon Reintegration'' events 
nationwide--supporting units throughout the country returning from 
deployment by identifying employment opportunities and providing other 
requested assistance. We continue to develop metrics to measure the 
effectiveness of our program.
    The Program Support Specialists also work closely with our 
Transition Assistance Advisors in the State Joint Force Headquarters to 
ensure our Guard members are registered with Veterans' Affairs (VA) and 
can access their VA benefits, to include vocational and job training. 
Both of these programs are essential when developing and establishing 
community-based program networks in support of veterans, 
servicemembers, and families.
    The Army National Guard Directorate offers several national 
programs to assist the States with their local employment programs. The 
``Job Connection Education Program'' (JCEP) is a Web-based program that 
interfaces with Facebook and provides the ability for guardsmen and 
their families to research, obtain, and retain civilian employment. The 
``Guard Apprentice Program Initiative,'' in partnership with the 
Department of Labor and the Department of Veterans' Affairs, continues 
to build relationships with employers and colleges to facilitate 
civilian apprenticeship and employment opportunities for National Guard 
and other Reserve component members. ``Drive the Guard'' is a 
collaborative effort with the Commercial Driver Training Foundation, 
Inc. which links guardsmen with training and certification programs in 
their communities. Once completed, the guardsman has the potential to 
begin a career in the truck driving industry.
                            closing remarks
    Thank you for the opportunity to be here today, I look forward to 
your questions.

    Chairman Inouye. Thank you very much.
    General Wyatt.

STATEMENT OF LIEUTENANT GENERAL HARRY M. WYATT, III, 
            DIRECTOR, AIR NATIONAL GUARD
    General Wyatt. Chairman Inouye and Senator Cochran, thank 
you and the subcommittee very much for your support for the 
extraordinary men and women of the Air National Guard's, some 
106,700 strong.
    I'd like to open with a brief review of the events of 2011 
before looking to the future of the Air National Guard. Your 
Guard airmen continue to make significant contributions to our 
Nation's defense, both here at home and around the globe.
    Last year, Guard airmen filled approximately 54,000 
requests for manpower; 91 percent of these requests were filled 
by volunteers. Air National Guard's responsiveness and 
adaptability was clearly demonstrated a year ago when on March 
17, 2011, as the U.N. Security Council passed Resolution 1973 
authorizing a no-fly zone over Libya, Air National Guard KC-
135s, from the 134th Aerial Refueling Wing, Tennessee, and the 
168th Aerial Refueling Wing, Alaska, were diverted enroute to 
forward operating bases.
    These Guard airmen began flying operational missions in 
support of Operation Odyssey Dawn 48 hours later, clearly 
demonstrating that the Air National Guard is both accessible 
and ready to serve.
    Last year, National Guard airmen spent more than 500,000 
man-days performing domestic, civil support missions, one-third 
of it on State Active Duty.
    This included assisting local authorities with explosive 
ordinance disposal, helping with security at special events, 
such as the Arkansas Governor's inauguration, and the Boston 
Marathon, done at State expense, not Federal expense, and 
helping victims of floods and other natural disasters and 
helping to save lives by assisting in search and rescue 
efforts.
    In addition to supporting civil authorities, Guard airmen 
spent an additional 1 million man-days in homeland defense. 
This included helping to defend U.S. air space and aerospace 
control alert missions, assisting U.S. Customs and Border 
Protection on our Southwest border and supporting America's 
counterdrug program.
    Your National Guard airmen and soldiers have spent 
countless volunteer hours in their local communities, aiding 
their fellow airmen, soldiers, sailors, and marines through 
Yellow Ribbon and Wounded Warrior projects and volunteering for 
public service projects such as Youth Challenge and Habitat for 
Humanity.
    Congressional funding through the National Guard and 
Reserve Equipment Account (NGREA) has been essential to the Air 
National Guard fulfilling both its Federal and State missions.
    Air National Guard F-16 and A-10 Squadrons deployed to 
Afghanistan with Litening Generation 4 Targeting Pods for the 
first time as a direct result of NGREA funding.
    Fiscal year 2011 NGREA funds were also used to procure and 
install equipment for a cyber critical infrastructure range 
allowing Air National Guard cyber units to train and develop 
tactics, techniques, and procedures for cyber warfare without 
disrupting networks used to accomplish day-to-day missions.
    While the fiscal year 2013 budget has challenges for the 
Air National Guard, it also has opportunities, and we adjusted 
our priorities to take full advantage of those opportunities.

                           PREPARED STATEMENT

    The Air National Guard's priorities in preparing this 
budget were, number one, posture the Air National Guard by 
aligning for size and composition to be flexible, agile, and 
ready with special attention to new missions such as the MC-12 
and remotely piloted aircraft.
    Number two, maintaining a combat ready force able to 
quickly surge and integrate seamlessly into joint operations. 
And, number three, repairing units broken by the previous base 
closure and realignment process and recent programming changes.
    In conclusion, Mr. Chairman, thank you. I'm grateful to be 
here, and I look forward to answering any questions that you 
and the subcommittee may have for me.
    Thank you very much, Sir.
    [The statement follows:]

      Prepared Statement of Lieutenant General Harry M. Wyatt, III

    Chairman Inouye, Ranking Member Cochran, and members of the 
subcommittee: I am honored to appear before you today, representing the 
nearly 106,000 men and women of our Nation's Air National Guard.
    Every year at this time, I look back on the accomplishments of our 
Air National Guard and every year I am humbled by professionalism, 
dedication, patriotism, and hard work of the men and women who make up 
the Air National Guard family, including the Guard airmen, their 
families, and their civilian employers. This past year was no 
exception, as our Guard airmen--supported by their families and 
employers--have continued to defend and protect our Nation and its 
citizens both at home and abroad.

        AN OPERATIONAL FORCE FOR OVERSEAS AND DOMESTIC MISSIONS

    The men and women of the Air National Guard continue to work as 
both an operational force, augmenting the Active Duty Air Force on 
operational missions, and a Reserve Force, providing combat-ready surge 
capabilities to respond to increased demands. The Air National Guard 
also continues to fulfill its dual-role as both a Reserve component to 
the U.S. Air Force (Federal mission) and Air component to the National 
Guard (State mission).

Federal Mission
    The men and women of the Air National Guard continued to serve 
their Nation in record numbers--primarily as volunteers. Last year the 
Air National Guard filled 54,000 requests for Active service in support 
of the Air National Guard's Federal mission. Of those Guard airmen 
filling the requests, 91 percent volunteered to service on Active Duty. 
This makes a total of 510,408 filled mobilization requests since 9/11.
    Air National Guard responsiveness and adaptability was clearly 
demonstrated a year ago. On March 17, 2011, as the United Nations 
Security Council passed Resolution 1973 authorizing a no-fly-zone over 
Libya, Air National Guard KC-135s from the 134th Aerial Refueling Wing 
(Tennessee) and 168th Aerial Refueling Wing (Alaska) were diverted en 
route to forward operating bases and began flying operational missions 
in support of Operation Odyssey Dawn 48 hours later.
    In addition to those serving in support of overseas contingency 
operations, Guard airmen continue to serve the Nation on nearly every 
continent around the globe including Antarctica.

Homeland Defense and Support to Civil Authorities
    Last year, National Guard airmen spent more than one-half million 
man-days performing domestic civil support missions, one-third of it on 
State Active Duty. This included assisting local authorities with 
explosive ordinance disposal, helping with security at special events 
such as the Arkansas Governor's Inauguration and the Boston Marathon, 
helping victims of floods and other natural disasters, and helping to 
save lives by assisting in search and rescue efforts. Air National 
Guard C-130s equipped with Aerial Modular Fire Fighting Systems dropped 
more than 675,000 gallons of fire suppressant assisting the U.S. 
Forestry Service in fighting wild fires across the country. Whether it 
is something small such as four Guard airmen helping local officials 
responding to a major car accident in remote Wyoming or 30,000 man-days 
assisting flood victims last April, the men and women of the Air 
National Guard prove their value to America every day.
    In addition to supporting civil authorities, Guard airmen spent an 
additional million man-days in Homeland Defense. This includes helping 
to defend U.S. airspace in aerospace control alert, assisting U.S. 
Customs and Border Protection on our Southwest border, and supporting 
America's counterdrug program.
    The Air National Guard's accomplishment of its Homeland Defense and 
Support of Civil Authorities missions continue to be accomplished 
primarily on the ``dual-use'' assumption, i.e., using equipment and 
training for its Federal mission, thus avoiding additional costs for 
the States or Air Force. However, this also means that changes in 
equipment or manpower for the Air National Guard's Federal mission may 
affect the Air Guard's homeland defense and civil support capabilities.

National Guard and Reserve Equipment Account
    The Air Guard has used National Guard and Reserve Equipment Account 
(NGREA) funding to fulfill its Federal and State missions. Air National 
Guard F-16 and A-10 squadrons deployed to Afghanistan with LITERNING 
Gen4 targeting pods for the first time as a direct result of NGREA 
funding. Fiscal year 2011 NGREA funds were also used to procure and 
install equipment for a Cyber Critical Infrastructure Range allowing 
Air National Guard cyber units to train and develop tactics, 
techniques, and procedures for cyber warfare without disrupting 
networks used to accomplish day-to-day missions.
    In response to congressional concerns about management of the 
NGREA, the Air National Guard developed process improvements to enable 
longer-term, higher-confidence planning by Program Management Offices 
(PMOs), thus helping the Air Guard meet the Office of the Secretary of 
Defense (OSD) obligation rate standards for procurement funds. Each 
fall, 3-year investment plans are developed using ranges of potential 
funding levels, based on NGREA appropriations in recent years. 
Prioritizing procurement requirements in funding bands (highest 
likelihood of funding, significant likelihood of funding, and potential 
likelihood of funding) will enable program management offices to 
accomplish advanced planning to incorporate NGREA into planned 
contracts and separate NGREA-funded equipment purchases. Specifically, 
procurements with the longest contractual lead times will be 
prioritized in the band with the highest likelihood of funding. In this 
way, PMOs will plan for NGREA as if it was budgeted, and they can have 
confidence that resources invested in advance planning and preparation 
will not be wasted

                    SUPPORT FOR AIRMEN AND FAMILIES

    The men and women of the Air National Guard serve with pride and 
distinction, but 20 years of combat have taken a toll on our airmen and 
their families. In 2011, the Air National Guard had 17 members die by 
suicide. While a lower rate than in 2010, the overall rate has been 
slightly upward since 1992. The Air National Guard launched its 
Psychological Health Program last year by placing licensed mental 
health professionals in each wing, a peer-to-peer ``Wingman Project,'' 
and other suicide awareness and prevention initiatives. The goal of the 
Wingman Project is multifaceted. First, the Air National Guard will 
ensure our airmen and their families are prepared psychologically for 
the traumas and stress of combat deployments. Following their 
deployments, we need to ensure our Guard airmen are welcomed home as 
the heroes they are and received the appropriate recognition for a job 
well done. Finally, we must make sure that the member and their 
families are aware of the potential after affects and the resources 
available to help them cope.

                  THE FUTURE OF THE AIR NATIONAL GUARD

    I have seen two major post-war draw-downs in my career. The first 
occurred in the 1970s as the Vietnam War was drawing to a close. The 
second was in the 1990s at the end of the cold war. In 1970, Secretary 
of Defense Melvin B. Laird put his faith in the Reserve components and 
created the Total Force that served the Nation through the end of the 
cold war.
    In 1990, our Air Force faced challenges not unlike those of today. 
And, the threats to national security and interest had not gone away 
with the fall of the Berlin Wall, in fact, the future looked just as 
unknown and ominous as it does today. First, there was a new strategy 
shifting focus from the Soviet Union to major regional conflicts. There 
was growing concern about the security implications of a possible 
breakup of the Soviet Union; economic, political, and geographic 
expansion of China; and new challenges in the Middle East. The United 
States was trying to get the budget deficit under control--at that time 
it was sequestration under the Gramm-Rudman-Hollings Balanced Budget 
and Emergency Deficit Control Act of 1985. Faced with significant 
budget cuts and amorphous but growing threats abroad, Secretary of the 
Air Force Donald Rice decided to follow Secretary Laird's lead from the 
1970s. As Secretary Rice wrote in his 1990 Report to Congress:

    ``The Air Force Total Force policy, formalized in 1973, has evolved 
to the current policy for a mix of Active and Reserve component forces, 
using all available assets, to ensure that maximum military capability 
is achieved at minimum cost. We intend to allow as much force structure 
growth in the Air Reserve Component (ARC) as possible while maintaining 
a realistic balance between the ability of the Guard and Reserve to 
absorb that growth and the ability of the Active Force to meet 
peacetime and contingency tasking.'' \1\
---------------------------------------------------------------------------
    \1\ The United States Air Force Report to the 101st Congress of the 
United States, fiscal year 1991.

    It was the Air Force that Secretary Rice built that maintained 
Northern and Southern Watch after Operation Desert Storm. This Air 
Force, built upon heavy reliance on the Air Force Reserve and Air 
National Guard, also responded to the crisis in Bosnia and Kosovo, 
fought Operation Enduring Freedom and Operation Iraqi Freedom. Air 
Guard KC-135s were the first on the scene for Operation Odyssey Dawn 
protecting Libyan civilians. Secretary Rice's Total Air Force also 
responded to numerous humanitarian crises around the world including 
Pakistan, Japan, Haiti, and here at home.
    The Air National Guard's priorities in preparing the fiscal year 
2013 budget were:
  --Funding readiness accounts to include flying hours and Depot 
        Purchased Equipment Maintenance;
  --Mission conversions included in the fiscal year 2013 President's 
        budget; and
  --Modernization.

                            CLOSING REMARKS

    I believe that working together we can emerge from these times a 
stronger, more capable Total Air Force. Thank you for the opportunity 
to be here today, I look forward to your questions.

    Chairman Inouye. Thank you very much, General.
    General Ingram.

STATEMENT OF LIEUTENANT GENERAL WILLIAM E. INGRAM, JR., 
            DIRECTOR, ARMY NATIONAL GUARD
    General Ingram. Chairman Inouye, Ranking Member Cochran, 
and members of the subcommittee. It's an honor to be with you 
today representing the 358,000 citizen soldiers of the Army 
National Guard.
    The patriotism and sacrifice of these soldiers, their 
families, and their employers is a source of great pride for 
all Americans. We're now the best-manned, best-led, best-
trained, best-equipped, and most-experienced force in our 375-
year history.
    And it's congressional support for the Army National Guard 
that has contributed to our transformation and enhanced our 
readiness. As a result, the Army National Guard is a ready and 
reliable force, fully accessible for contingencies both at home 
and abroad.
    We provide equipped, trained soldiers, giving the President 
and the Governors maximum flexibility in times of crisis. We're 
an operational force and a full partner with the Active Army.
    Since September 11, 2011, the Army National Guard has 
completed more than 500,000 soldier mobilizations in support of 
domestic operations and overseas missions. We currently have 
29,000 Army National Guard soldiers mobilized.
    Last year, in fiscal year 2011, 45,000 Army Guardsmen were 
deployed in support of ongoing missions around the world. As an 
operational force, the Army National Guard provides a cost-
effective solution to meet the new strategic guidance.
    For 12.3 percent of the Army's base budget, the Army 
National Guard provides 39 percent of the Army's operating 
forces. Our soldiers represent nearly every ZIP Code in the 
Nation. They play a vital role as the Department of Defense 
(DOD) first responder for natural disasters and terrorist 
attacks on our soil.
    Today's Army National Guard soldiers continue the proud 
tradition of service to their States and to our Nation. In 2011 
alone, it was the citizen soldiers who provided 900,000 duty 
days of support to communities across our Nation. That's the 
second largest domestic response since 9/11, since Hurricane 
Katrina.
    We are attracting skilled soldiers and future leaders. With 
the Nation at war as a backdrop, our year-to-date enlistment 
rate for fiscal year 2012 is in excess of 95 percent, but our 
retention rate exceeds 130 percent. So we are meeting our 
authorized end-strength of 358,000.
    The Army National Guard is equipping to meet 21st century 
challenges through your support of the necessary resourcing for 
modernization. Our 28 brigade combat teams that include 1 
Stryker brigade, our 8 combat aviation brigades, and our 2 
special forces groups are well-equipped.
    We understand our readiness level, however, is dependent on 
the level of resourcing that we receive. The overall Army 
National Guard equipment on hand for our deployable units is 
currently at 88 percent, an increase of more than 2 years ago 
when we were at 85 percent.
    Our critical dual-use equipment on hand is at 92 percent, 
an increase from 86 percent 2 years ago, and a significant 
increase from the 65 percent it was during Hurricane Katrina.
    From December 2011 through June 2013, the Army National 
Guard is programmed to receive more than 120,000 pieces of 
equipment from Army procurement funding.
    Army National Guard armories are actually the foundation of 
our readiness. We have facilities in 2,899 communities across 
the 50 States, the territories, and the District. Providing 
quality facilities, however, is an ongoing challenge.
    More than 46 percent of our armories are more than 50 years 
old. Many are unable to meet the needs of the 21st century 
operational force while failing to meet modern building 
standards and especially in terms of energy efficiency.
    The Army National Guard continues to make suicide 
prevention a top priority. Our soldiers are our most precious 
resource. We are addressing high-risk behaviors and suicidal 
tendencies through preventive measures, comprehensive training, 
and a range of intervention programs.
    In addition, we are addressing sexual harassment, and 
assault response and prevention through an aggressive training 
program executed at the State level. It's crucial that these 
behavioral health programs receive funding in our base budget.

                           PREPARED STATEMENT

    In closing, I acknowledge the continued support that you've 
demonstrated through the budget process in program planning for 
an operational National Guard through 2015.
    I want to express the Army National Guard's sincere 
appreciation of the critical role your subcommittee plays in 
resourcing and sustaining the most capable National Guard that 
our Nation has ever had.
    I appreciate the privilege of being here and invite your 
questions.
    [The statement follows:]

      Prepared Statement of Lieutenant General William Ingram, Jr.

                            OPENING REMARKS

    Chairman Inouye, Ranking Member Cochran, and members of the 
subcommittee: I am honored to appear before you today, representing the 
nearly 360,000 citizen soldiers in the Army National Guard (ARNG). For 
375 years, ARNG has been central to how the Nation defends itself at 
home and abroad. Through resolve and readiness, our citizen soldiers 
deliver essential value to our Nation and its communities and 
contribute immeasurably to our national security. Since September 11, 
2001, through the end of fiscal year 2011, ARNG has completed more than 
495,000 soldier mobilizations in support of domestic operations and 
overseas missions.
    The Army National Guard of 2012 is the best-manned, best-trained, 
best-equipped, and most-experienced force in our history. We are an 
operational force and a full partner with the Active component. More 
than 50 percent of our soldiers are seasoned combat veterans. That 
statistic speaks to our overseas credentials. But we have been given a 
dual mission. Domestically, our soldiers represent every ZIP Code where 
they play a vital role and have earned the respect of hometown America.

        AN OPERATIONAL FORCE FOR DOMESTIC AND OVERSEAS MISSIONS

    Our Nation has endured a decade at war relying upon an All-
Volunteer Force. Despite the challenges this has presented, our young 
people still want to join the ARNG. Our recruitment rate for 2012 is 
93.7 percent of goal (as of January 31, 2012).
    Along with this positive trend is an impressive retention rate 
among those who are already serving. ARNG retention rate stands at 
131.2 percent of goal as of January 31, 2012. Today's Army Guard 
soldiers continue the proud tradition of meeting the needs of our local 
communities and our Nation at home and around the world. In 2011 alone, 
citizen soldiers responded to floods, wildfires, tornadoes, and 
hurricanes as well as providing key security forces along our Nation's 
Southwest border. Concurrent with these critical missions, ARNG 
continues to deploy overseas in support of peacekeeping, humanitarian 
disasters, and combat operations.
    For years, ARNG was viewed as a ``Strategic'' Reserve. The events 
of September 11, 2001, and the subsequent hostilities in Iraq and 
Afghanistan challenged all previous troop strength and deployment 
assumptions.
    The Army had to consider--and utilize--our citizen soldiers as an 
operational force. Now, when the Department of Defense (DOD) formulates 
war plans, ARNG is integral to the overall design and operations tempo 
(OPTEMPO). We realize this inclusion makes ARNG responsible for 
maintaining units trained to the highest standard of readiness. Funding 
is required to maintain this level of readiness. The result is that for 
the first time in 2013 the operational force is partially funded in the 
base budget request which supports additional duty days and OPTEMPO to 
facilitate rapid deployment of functional and multifunctional units 
required to deploy on a compressed timeline.

      READY AND RELIABLE DEPLOYMENTS: THE ACCESSIBILITY ADVANTAGE

    In fiscal year 2011, ARNG soldiers were deployed for a total of 
58,903 tours in support of a multitude of ongoing missions around the 
world.
    The breakdown, by tour, includes the following:
  --32,752 tours in support of Operation Enduring Freedom;
  --24,552 tours in support of Operation Iraqi Freedom/New Dawn;
  --877 tours in support of Operation Joint Guardian in Kosovo;
  --45 tours in support of Operation Noble Eagle;
  --2 tours in support of Operation Joint Endeavor in Bosnia; and
  --675 tours as part of Deployment Support Cell (DSC) operations.
    ARNG has continuously proven to be a ready and reliable force for 
both domestic and overseas missions. A determining factor in ARNG 
global deployments has been the change to title 10, U.S.C. section 
12304, which may have a direct impact on increasing the accessibility 
and rotational possibilities for the ARNG. ARNG has developed into a 
responsive, operational force, contributing to ``boots-on-the-ground'' 
requirement for deployments. A change in the law (National Defense 
Authorization Act of 2011) has made ARNG more accessible for 
predictable, operational missions. With the implementation of the Army 
Force Generation (ARFORGEN) cycle as well as the new law, our leaders 
now have greater flexibility, predictability, and choice in how they 
deploy forces. Our soldiers and their families will now have the same 
type of predictability with more dwell time between deployments and 
additional time for training.
    Closer to home, ARNG provided more than 907,185 duty-days of 
support to communities across the Nation in 2011. This figure 
represents our commitment to the Nation in response to natural 
disasters and fulfills our enduring pledge to sustain local, State, and 
Federal law enforcement agencies. Notably, that number of duty-days 
nearly doubles that of 2010--and is three times greater than 2009. The 
Southwest border security mission along with an active year of flood, 
tornado, wildfire, and hurricane response operations accounts for the 
majority of this increase. However, I want to emphasize that the nearly 
1 million duty-days performed last year clearly exemplifies the unique 
capability of ARNG forces and the dedication of citizen soldiers who 
serve in our ranks.

          EQUIPPING AN OPERATIONAL FORCE FOR THE 21ST CENTURY

    In 2012, ARNG is better equipped than ever. We understand our 
readiness level is entirely dependent on our level of resourcing. So 
the challenge, as always, is to do everything efficiently.
    ARNG equipment on-hand (EOH) posture is evaluated and published 
twice a year. This important review process informs senior leaders and 
policymakers of ARNG fill levels for equipment supporting every 
mission. Modification table of organization and equipment (MTOE) 
authorizations and on-hand inventory are used to determine EOH for both 
contingency operations and domestic missions. In collaboration with 
Headquarters, Department of the Army (HQDA), the ARNG identifies 
specific equipment on MTOE documents as critical to domestic response 
missions. This equipment is identified as critical dual use (CDU). The 
Department of the Army considers CDU items when prioritizing equipment 
procurement.
    The overall ARNG equipment on-hand (EOH) for MTOE units is 
currently at 88 percent, an increase from 85 percent 2 years ago. 
Overall CDU EOH is 92 percent, an increase from 86 percent 2 years ago 
and a significant increase from 65 percent during Army National Guard 
operations supporting the Hurricane Katrina response. From December 
2011 through June 2013 ARNG is programmed to receive more than 120,000 
pieces of equipment from Army procurement funding.
    Equipment modernization remains an area of concern. Despite 
significant progress improving EOH levels, ARNG continues to have 
critical shortfalls in UH-60 A-A-L modernization, CH-47F, HMMWV 
Recapitalization, and General Engineering Equipment.
    We are working closely with the Army to minimize any shortages with 
priority going to deploying units. ARNG continues to pursue equipment 
modernization, greater efficiencies and economies-of-scale through 
Department of the Army procurement and National Guard and Reserve 
Equipment Appropriation (NGREA) funding.
    Sustaining ARNG as an Operational Force depends upon having the 
same equipment as the Active component, including rotary wing aircraft. 
ARNG currently has 1,277 rotary wing aircraft against an authorized 
fleet of 1,394 aircraft; 85 percent of ARNG aircraft authorizations are 
filled with the same modern and capable aircraft as the Active Army 
fleet. The inventory includes a mix of the most modern capabilities 
(AH-64D Block II Longbow Apaches, CH-47F Chinooks, UH/HH-60M Black 
Hawks and UH-72A Lakotas), older but capable airframes (AH-46D Block I 
Apaches, CH-47D Chinooks, UH-60A/L Black Hawks, and OH-58D Kiowa 
Warriors) and 98 legacy aircraft (OH-58A/C Kiowas and AH-64A Apaches).
    Programmed Army procurements will ensure ARNG fleets are modernized 
on pace with the other components, except in the case of the Black Hawk 
fleet. Even in 2020, only 25 percent of the ARNG Black Hawk fleet will 
be equipped with the new UH/HH-60M. Rotary wing aircraft remain a 
critical dual-use asset whether mobilizing for the warfight or 
responding to domestic emergencies.

                          DOMESTIC OPERATIONS

    In 2011, citizen soldiers' support of the Southwest border mission 
spanned the 1,933-mile border of California, Arizona, New Mexico, and 
Texas. This critical mission called upon three ARNG capabilities. 
First, observation and reporting of border activities to U.S. Customs 
and Border Protection. The second capability is our analytical 
expertise which augments Immigrations and Customs Enforcement agents. 
Finally, the command and control of personnel within the ARNG of each 
Southwest border State ensures cohesive action and coordinated 
operations.
    In February 2012, the Southwest border mission transitioned from a 
ground-based force to an air-based force. The Southwest border 
transition reduced manpower requirements from 1,200 to no more than 
300. The continued Southwest border mission for calendar year 2012 will 
cost $60 million. The current Southwest border support focuses on 
criminal analysis and aerial detection and monitoring.
    During 2011, ARNG also provided support to law enforcement and 
special events. The law enforcement support required 60,636 duty-days 
of assistance and special events required another 2,685 duty-days of 
assistance.
    ARNG actively supported several environmental requests during 2011. 
Our winter storm response included 24 events in 18 States. The full 
scope of these actions required 11,152 duty-days of support. 
Firefighting support required 10,920 duty-days of support. Our flood 
response during 2011 totaled 201,866 duty-days of support. Hurricane 
and tropical storms demanded 67,795 duty-days of support. When twisters 
made their way across our Nation in 2011 ARNG responded with 14,775 
duty-days of support to devastated communities.

                 AVIATION'S ROLE IN DOMESTIC OPERATIONS

    ARNG Aviation flew more than 3,000 hours in response to domestic 
disasters in 2011. Domestic operations (DOMOPS) missions included 
response to hurricanes, wildfires, tornados, and floods; civil search 
and rescue (SAR) missions; and counterdrug support. Our Hurricane Irene 
response in August was a major domestic operation that included 37 
aircraft from seven States. These aircraft flew 540 hours in support of 
SAR, evacuation, commodity distributions, and support to local law 
enforcement agencies.

           THE NATIONAL GUARD'S VALUE AND UNIQUE CAPABILITIES

    ARNG, with its unique range of skills, expertise, and experience 
level has structured itself for the future. As an operational force, 
our citizen soldiers are the most cost-effective means of calibrating 
capabilities in response to ever-changing demand from conventional and 
unconventional threats.
    The National Guard has the only DOD network that reaches all 54 
States and territories. GuardNet is a Nationwide information systems 
and mission command network that spans 10 time zones, 54 States, 3 
territories, and the District of Columbia, serving the Adjutants 
General of the States and the national capital region. GuardNet is the 
functional channel of communications for the National Guard Bureau 
(NGB) and is the mission command capability for the Adjutants General 
of the several States for non-federalized units in generating force and 
defense support for civil authorities. GuardNet reaches all of ARNG 
readiness centers in all of the States and territories and is a model 
of information technology efficiency and services.
    ARNG possesses the largest military intelligence force structure of 
any of the Reserve components of any of the services. This force 
includes all of the intelligence disciplines and more than 3,000 
linguists and cultural experts, provides the Nation with a robust, 
agile, and cost-effective responsive capability.

     ARMY NATIONAL GUARD INSTALLATIONS--THE FOUNDATION OF READINESS

    ARNG transformed from a Strategic Reserve to an Operational Force 
during a decade of deployments. This significant organizational shift 
has changed facility requirements. ARNG has facilities in more than 
3,000 communities; however, providing quality facilities across 54 
States and territories is an on-going challenge. Currently, more than 
46 percent of our readiness centers are more than 50 years old. Many 
fail to meet the needs of a 21st century operational force and the 
standards for modern buildings to include energy efficiency. Facilities 
are critical to readiness and support unit administration, training, 
equipment maintenance, and storage. They serve as platforms for 
mobilization during times of war and as command centers and often as 
shelters during domestic emergencies.
    This wide array of use makes military construction (MILCON) and 
sustainment, restoration, and modernization (SRM) funding a critical 
issue directly impacting unit readiness and morale, continuity of 
operations and interagency partnership, community awareness, and family 
and employer involvement.

       INNOVATIVE PROGRAMS LEVERAGE OUR RANGE OF CIVILIAN SKILLS

    Our State mission, combined with grass-roots community-based 
support of today's ARNG, position us to play a significant role in 
global security cooperation (SC). We are partner to creating an 
enduring stability presence in scores of countries. ARNG soldiers 
possess a wide variety of civilian, professional, and education 
experiences that are helpful when the soldiers are engaged in security 
cooperation activities.
    In 2011, the ARNG provided approximately 18,575 soldiers to support 
69 military exercises in 104 partner countries. The ARNG global 
presence for security cooperation expanded in the 1980s through 
overseas duty training opportunities.
    ARNG Security Cooperation programs are unique because of Guard 
soldiers' ability to forge these enduring relationships with key 
individuals over long periods of time. In some cases, the crucial bonds 
with foreign countries have been cultivated and maintained for more 
than two decades.
    ARNG partnership capacity-building activities serve to deepen and 
strengthen a foreign country or region's positive perception of the 
United States as a valued partner, which can serve to prevent future 
conflicts; one of our key objectives in the 2010 Quadrennial Defense 
Review (QDR).
    In 2011, 4,200 ARNG soldiers participated in the State Partnership 
Program that included 63 partnerships and 2 bilateral agreements with 
63 partner countries. This program promotes security cooperation 
activities such as emergency management, disaster response, border and 
port security, medical, and peacekeeping operations.
    Citizen soldiers exercise soft power. Each possesses a range of 
valuable professional skills and expertise acquired as civilians. 
Within the ranks of ARNG are 5,798 first responders (firefighters, law 
enforcement, emergency medical technicians, analysts); 3,655 medical 
professionals; 778 legal professionals; 2,655 engineers; 1,119 
agricultural specialists; 5,186 educators; 2,296 mechanics; 511 
plumbers; and 34,309 students (in a wide array of disciplines). That 
explains why guardsmen are frequently called upon to conduct soft power 
across the range of conflict. A prime example is the innovative 
Agribusiness Development Teams (ADTs) in Afghanistan.
    ADTs provide training and advice aimed at supplementing current 
Afghan farming practices by introducing advanced techniques and new, 
profitable crops. These teams are making significant contributions to 
Afghanistan's economy and achieving sustainable, yearly growth of the 
Nation's economic output.
    One of our most relevant National Guard missions is to impart 
knowledge and transplant economic recovery to the Afghan people. The 
Agribusiness Development Team combines 58 soldiers and airmen with 
backgrounds and expertise in various sectors of the agribusiness field. 
ADTs ensure that improvements are sustainable with local assets and 
within the context of the Ministry of Agriculture, Irrigation, and 
Livestock (MAIL) abilities. ADTs conduct stability operations by 
building agricultural capacity, establishing a safe and secure 
environment, enhancing the rule of law, sustaining economic 
development, developing sustained governance, and fostering social 
well-being.
    Nine ADTs are deployed to Regional Command East and Regional 
Command South in Afghanistan. Deployed teams hail from Texas, Missouri, 
Kentucky, Kansas, Indiana, Oklahoma, Nevada, Iowa, and Arkansas. To 
date 28 teams operated in 15 provinces and contributed to more than 578 
agriculture projects generating more than $31 million in economic 
impacts for the people of Afghanistan. ADT soldiers bring their 
military capabilities and their civilian skills and education to work 
directly with the farmers of Afghanistan. These citizen soldiers 
leverage the assets and expertise of land-grant universities and 
cooperative services within their home States.

                 SUPPORT OF SOLDIERS AND THEIR FAMILIES

    ARNG continues to make suicide prevention a top priority. 
Mitigating high-risk behaviors and reducing suicidal urges ensures a 
ready and resilient force. Increased resilience and risk reduction 
leadership awareness, training, and intervention programs continue to 
enhance coping skills in our soldiers, families, and DA civilians. Due 
to limited comprehensive soldier fitness training seat allocations, and 
to better support the needs of Guard soldiers and families, ARNG 
established a Master Resilience Trainer Course (MRT-C) in Fort McCoy, 
Wisconsin in July 2011. By doing so, the number of Army National Guard 
Master Resilience Trainers are expected to exceed 1,000 by the in early 
fiscal year 2012. The Army National Guard also trained 334 Applied 
Suicide Intervention Skills Training (ASIST) program trainers in fiscal 
year 2011. An additional 150 ASIST trainers are being trained in fiscal 
year 2012. These trainers will train approximately 35,000 gatekeepers 
in advanced intervention skills.
    ARNG recently teamed with the Office of the Secretary of Defense of 
Reserve Affairs, as well as the Air National Guard, to launch a highly 
successful peer-support line, Vets4Warriors. The peer-support line is 
designed to serve all ARNG and Reserve component members nationwide. As 
the foundation of each soldier's support network, ARNG families and 
employers are being trained to assist in identifying high-risk 
individuals. States have capitalized on community-based resources and 
solutions to provide services outside of military installations.
    The ARNG has been, and remains, deeply concerned with the 
employment status of our soldiers. They are our most important asset 
and their well-being is essential for the ARNG as an operational force. 
Furthermore, the ARNG's employment challenges extend beyond returning 
mobilized soldiers and we continue to work diligently to find solutions 
to assist our geographically dispersed population.
    New legislation was recently enacted to assist unemployed veterans. 
The Veterans Opportunity to Work (VOW) Act of 2011, to Hire Our Heroes, 
mandates the Transition Assistance Program (TAP) for all soldiers 
separating from a title 10 Active Duty tour of more than 180 days. The 
ARNG is working closely with the Department of the Army and OSD to 
implement the transition mandates set forth in the legislation. The 
ARNG seeks to utilize these expanded transition services as a platform 
to enhance and increase participation in the myriad of employment 
assistance programs currently managed by the ARNG.
    The ARNG Directorate offers several national programs to assist the 
States with their local employment programs. The Job Connection 
Education Program (JCEP) is a high-touch employment approach assisting 
our soldiers and their family members in researching, obtaining, and 
retaining civilian employment.
    The Job Connection Education Program, a pilot program in Texas, 
provides support services such as job skills training, workshops, and 
job search assistance which expose soldiers and family members to jobs 
offered by more than 480 established business partners. To date, more 
than 720 soldiers and family members have connected to employment 
opportunities, earning an average hourly wage of $16.57.
    The Guard Apprentice Program Initiative (GAPI), in partnership with 
the Department of Labor and the Department of Veterans' Affairs, 
continues to build relationships with employers and colleges to 
facilitate civilian apprenticeship and employment opportunities for the 
ARNG and other Reserve components. As a pilot State, Maryland has six 
ARNG soldiers hired in the Independent Electrical Contractors 
Chesapeake (IECC) Apprenticeship Program. The IECC has progressive 
wages starting at $18 per hour with medical benefits. By the end of the 
5-year program commitment, participants will earn $23 per hour with 
benefits along with receiving a national certification as journeymen 
electricians. Drive the Guard (DTG) is a collaborative effort with the 
Commercial Driver Training Foundation, Inc. which links Army National 
Guard soldiers with training and certification programs in their 
communities. Once completed, the soldier has the potential to begin a 
career in the truck driving industry. Applicants seeking their 
Commercial Driver's License (CDL) are assisted through our DTG program. 
Upon completion, the soldier can begin a career in the trucking 
industry, with a salary varying between $35,000 and $45,000 annually. 
This is above the national starting salary of most college graduates 
with a bachelor degree.

                            CLOSING REMARKS

    As the Nation enters an era of budgetary pressure, the ARNG has 
already structured itself for success in the future. We are an 
operational force; highly trained, experienced, and professional. We 
represent a scalable Army component that is far less expensive to 
engage and deploy than a full-time force. We are flexible and adaptable 
so we are ready to meet the wide array of 21st century security 
challenges.
    With committed citizen soldiers, our State and national leaders 
have the advantage of complete access to our forces and facilities. 
When employed judiciously, the Army National Guard presents cost-
effective value to American communities where guardsmen live, work, and 
serve. This makes the Army National Guard not only trained, equipped, 
and ready defenders of our freedoms but also good stewards of taxpayer 
dollars.
    We stand ready, as always, to take on any mission. After all, 
America's minutemen have been successfully completing missions for 375 
years.
    Thank you for the opportunity to be here today. I welcome your 
questions.

    Chairman Inouye. Thank you very much, General Ingram.

                            AIR FORCE BUDGET

    General McKinley and General Wyatt, as I indicated in my 
opening remarks, this past March the Air Force announced four 
structure changes and end-strength reductions. The greatest 
reductions were in the Air Guard, 5,100 billets lost. My 
question is, were you involved in reaching this final decision? 
Were you consulted? What was your involvement?
    General McKinley. Senator, I think I'll let Bud talk to the 
tactical process by which the Air Force works its corporate 
process. And, traditionally, in the National Guard, the two 
directors have been totally involved with their services in how 
the budgets are built and how they're briefed.
    I will tell you that, as Chief, I was involved in the final 
deliberations, discussions, in the December timeframe, at which 
time I expressed, certainly, our corporate view on behalf of 
the Adjutants General, on the outcome that the Air Force was 
pursuing.
    And then following the holidays, a number of meetings with 
both Secretary Panetta, Chairman Dempsey, General Schwartz, and 
Secretary Donley, to continue to work out the end-game 
strategies.
    I think you've had General Schwartz and Secretary Donley 
here to talk about their overall views of the size of the Air 
Force, that it's the smallest Air Force in history. 
Recapitalization is a major issue for our Air Force.
    And, as General Wyatt will tell you, and I'm sure General 
Stenner will tell you, that our Air Force and its strength 
cascades to its Reserve component, both the Air National Guard 
and the Air Force Reserve.
    So I'll let General Wyatt cover the corporate process that 
you're alluding to with your question, and then take any follow 
up questions you may have about our involvement.
    Bud.
    Chairman Inouye. General Wyatt.
    General Wyatt. Mr. Chairman, the Air Force decisionmaking 
process, as we put together budgets, is commonly referred to as 
the Air Force corporate process. And has several different 
steps along the way, beginning at the action officer, going up 
through the one-star, two-star level, which is the board level.
    The Council level is a three star, and then recommendations 
are presented to the Chief and the Secretary at the four-star 
level.
    I was able to participate. My staff was able to participate 
all along the way. We were encouraged to make our inputs, and 
we did so. In fact, we exercised that encouragement rather 
vociferously inside the Air Force corporate process.
    We did present alternatives to the Air Force, alternatives 
to the fiscal year 2013 President's budget (PB-13) as it 
officially came out. I think General Schwartz has accurately 
described the process when he said that there were very 
difficult decisions for the Air Force to make.
    He encouraged open debate. I engaged openly in that debate 
and made my inputs, but in the end, the final decision is left 
to the Chief and the Secretary. And many of the recommendations 
and alternatives that we proposed were not adopted.
    But we respect the difficult decisions that the Chief and 
the Secretary had to make. And once those decisions are made, 
as title 10 officers, we need to recognize that fact and salute 
and proceed forward.
    Chairman Inouye. But you were able to make an input?
    General Wyatt. We made several inputs, Sir, several 
alternatives, different ways of meeting the budget, and the 
operational demands of the Air Force, some of which were 
accepted, a lot of which were not.

                                SUICIDE

    Chairman Inouye. Thank you very much.
    General Ingram, during calendar year 2011, we were told 
that 98 guardsmen took their own lives. Can you tell us what's 
happening?
    General Ingram. Chairman, any soldier, or any person that 
takes their own life is a tragic experience.
    In the case of the Army National Guard, we're citizen 
soldiers. And I don't have the exact statistics of how many of 
the soldiers in the Army National Guard that committed suicide 
had never deployed, but there were quite a few.
    I'm not sure whether the citizen or the soldier committed 
suicide. In some cases, and we do a very thorough after-action 
look at each case, and in those cases, we take steps to prevent 
that from happening again.
    We use that in our training, and we've increased the level 
of training in suicide prevention. But it's an American problem 
as well as an Army problem, as well as an Army National Guard 
problem.
    And we're going to great lengths to prevent our soldiers, 
either having suicidal tendencies or actually committing the 
act.

                      RESERVE COMPONENT EQUIPMENT

    Chairman Inouye. Thank you very much. May I call upon 
Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    General McKinley, the Air Force's restructure plan suggests 
that reductions in personnel and aircraft ought to be 
undertaken.
    You describe in your testimony the enhanced use of Guard 
forces that would provide capability in overseas missions. 
Looking at our recent experience in Libya, there were Air Force 
personnel and aircraft involved in the no-fly zone strategy.
    Tell us what your impressions were of those who were 
engaged in that operation. What changes, if any, need to be 
made in terms of support for funding of different activities or 
equipment, acquisition, in light of those experiences?
    General McKinley. You rightfully point out, Senator 
Cochran, that the Air Force is uniquely positioned to utilize 
its Reserve component effectively and efficiently.
    For the entire period of time that I've been in the 
National Guard, there's always been a close personal 
relationship between our Active Force and its Guard and its 
Reserve.
    That led to the capability that General Wyatt may want to 
discuss a little more intimately involved in the tanker mission 
and the mission that supported the no-fly zone in Libya.
    To rapidly get volunteers in our communities who are 
associated with the requirement, out of their civilian jobs, to 
their units, in a voluntary status so we didn't need to 
mobilize, and we got them overseas in record time. And they 
participated in the full unified protector mission as you 
allude to.
    And that's been a tradition. It's been a core competency of 
our Air Force, its relationship with its Guard and Reserve, for 
the last four decades. So I'm very proud of that.
    I don't think our Air Force can survive without the close 
cooperation and collaboration of its Reserve component. I've 
heard both Secretary Donley and General Schwartz make those 
statements in public.
    I'll let General Wyatt talk about the numbers, types of 
equipment that actually deployed, how quickly they deployed, 
and how effectively they were used by the North Atlantic Treaty 
Organization (NATO) command in the successful prosecution of 
the Libyan operation.
    Bud.
    Senator Cochran. General Wyatt.
    General Wyatt. Senator Cochran, I mentioned a little bit 
about the timeframe of the response early on. I will tell you, 
especially in the refueling portion of Odyssey Dawn, it was a 
joint effort with the Active component, the Guard and the 
Reserve.
    The Guard and Reserve actually had more than 50 percent of 
the refueling capability in theater. The expeditionary wing was 
commanded by an Air Guardsman out of Pennsylvania. The 
integration of the three components in the Air Force, I think 
is a model, primarily because we're trained to the same 
standards.
    We use the same equipment. That's the way we fight. That's 
the way we train and fight. As we go forward in the future, I 
think the key for the Air Force to maintain the capacity and 
capability and continue reliance upon the Reserve component, 
Guard, and Reserve, is a couple of things.
    Number one is, the Guard and Reserve have to be fielded the 
new equipment, at the same time, concurrently with the Active 
component and in representative numbers, so that we can 
continue to be an operational force that can be called upon on 
a moment's notice.
    I would remind everyone that there was no mobilization 
authority available for Odyssey Dawn for the Libya no-fly zone. 
One hundred percent of the guardsmen and reservists that showed 
up for that engagement were volunteers.
    The key, besides new equipment, fielded concurrently and in 
a balanced fashion, a proportional fashion across the Reserve 
components, the other key is in the baseline budget of the Air 
Force, there has to be sufficient military personnel 
appropriation (MPA) days to allow the operational use of the 
Guard and the Reserve.
    As an organize, train, and equip organization, I think 
General Stenner would back me up on this, the Air Force 
adequately funds us to organize, train, and equip. But to be 
able to use us in operational missions around the world, the 
Air Force needs to baseline budget sufficient MPA days so that 
we can continue to be the operational force that's available on 
a moment's call.

                             FUNDING LEVELS

    Senator Cochran. Does the dollar amount requested for this 
subcommittee's approval meet those requirements?
    General Wyatt. Yes, Sir, I think it does in PB-13 for the 
title 10 fight. I'm a little bit concerned when I take a look 
at some of the domestic requirements for the Air National 
Guard.
    There is, you know, some pressures. Obviously, as the Air 
Force tries to do its part in reducing the deficit, I think the 
key is that as we go forward and we look at the number of 
required MPA days, that would allow the Air Guard and the 
Reserve to continue functioning, that we take a ``no kidding'' 
look at what are the requirements, what are the demands that 
the combatant commands (COCOMs) are telling us would be 
forward, and then adequately budget for that, rather than just 
pick an arbitrary number and try to cut.
    Senator Cochran. General Ingram, Camp Shelby, Mississippi, 
Hattiesburg has been a site for Army Guardsmen, Reservists, 
others to mobilize and be deployed to areas of need.
    What is your impression of the funding requests for that 
facility, if there is money in there for any activities and 
programs there? And what needs exist that should be brought to 
our attention if they're not requested?
    General Ingram. Senator Cochran, Camp Shelby has been a 
very viable force projection platform for most of the war 
fight. There's been some improvements that have been made 
there. The Army funds those improvements out of the base 
budget.
    And as we continue down the road, I think the appropriate 
needs will be met by the Army budget for Camp Shelby and 
several other predominately Army National Guard post camps and 
stations that are used as power projection platforms.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Alexander.

                              C-5 AND C-17

    Senator Alexander. Thanks, Mr. Chairman. Thank you for 
being here.
    I want to ask about the announcement in February about 
replacing C-5As with C-17s, which was part of the comprehensive 
reorganization of Air Force resources.
    The House Defense Authorization bill includes a provision 
that would put that restructuring plan on hold for a year, so I 
understand.
    And I want to try to understand from you, General Wyatt, if 
I can, what the consequences of that are?
    Specifically, I mean, the idea as you went through these 
difficult budget decisions, was to replace the C-5As, which are 
expensive to maintain and which are not, which aren't mission 
ready much of the time, with C-17s.
    The idea would be that would save a lot of money and 
produce a more efficient operation. Now, what does this 1-year 
delay do?
    What does it do in terms of the cost of maintenance, for 
example, of these C-5As that you know you're going to get rid 
of?
    What does it do to the schedule for retraining personnel? 
What does it do to the Guards' mission readiness?
    General Wyatt. Sir, those are great questions that what 
we're wrestling with right now.
    The transition at Memphis out of C-5s into C-17s was 
actually a fiscal year 2012 action, that is supposed to begin, 
but it continues into fiscal year 2013 as we retire C-5As out 
of Memphis, the C-17s come in. That requires training dollars 
to be spent to make the conversion.
    And you're correct. The reason, and I applaud that move on 
behalf of the Air Force, because it does bring the Air National 
Guard more into the relevant aircraft of the future. It's 
something we've been pushing for quite a long time in the Air 
National Guard.
    Senator Alexander. Well, we know, don't we, we're going to 
get rid of the C-5As, right?
    General Wyatt. Yes, Sir. We are.
    Senator Alexander. So why would we delay it a year?
    General Wyatt. I hope we don't.
    But that particular movement is one of the things in PB-13 
that I think is in the best interests of the country, and 
certainly, the Air Force and the Air National Guard, that we 
continue with that part of it.
    If the prohibition is to spend any fiscal year 2013 funds 
on fiscal year 2012 actions that need to be completed in 2013, 
then the dilemma is exactly as you have expressed. It would 
cause us to go back and take a look at what is the cost of 
maintaining the C-5As?
    Is there appropriations in the 2013 continuing resolution 
(CR) to do so, if that's where we're going? And it does cause 
us some uncertainty as we go forward, Sir.
    Senator Alexander. So at a time when dollars are short, and 
tight, and many of your recommendations weren't able to be 
accepted, you're saluting them.
    Maybe, say to Senator Coats, maybe we need a title 10 
salute in the United States Senate, we might get things done a 
little more quickly, if we did.
    But, so you're going to have to be spending money 
maintaining planes that you know you're going to get rid of, 
when you could be spending it on retraining Guard personnel. 
You could be spending it on other aspects of mission readiness. 
Is that not correct?

                       AIR FORCE FORCE STRUCTURE

    General Wyatt. Yes, Sir.
    The situation at Memphis is exactly as you have described 
it. That's one of the inputs in the Air Force corporate process 
that the Air National Guard made that was accepted by the 
United States Air Force.
    And I applauded that because it made a whole lot of sense. 
It still does make a whole lot of sense.
    But the dilemma that we're in right now, is how do you make 
that transition that we start this year, in fiscal year 2012, 
with the prohibitions on spending monies in 2013 to complete 
those actions.
    Senator Alexander. Well, I hope as we move through the 
process, and we're trying to respect your stewardship of scarce 
dollars, that we see what that delay would do is really waste 
money, or take money for planes that we know we're going to get 
rid of, to maintain them, and money that could be used in other 
places.
    In the same light, in Nashville, the Guard's preparing for 
a new unmanned aerial vehicle mission, which I understand the 
Air Force needs for that facility to assume.
    Now, how will this 1-year delay affect our military 
capabilities in the timeline for moving unmanned aerial 
vehicles (UAVs) into Nashville?
    General Wyatt. A very similar situation.
    Again, this was a fiscal year 2012 action that is 
beginning. Part of it involves the movement of C-130s from 
Nashville to the Puerto Rico Air National Guard which is losing 
C-130Es. So there's kind of a ripple effect that we're facing.
    I have to applaud General Haston, the Adjutant General for 
Tennessee, very forward looking, volunteered early on to 
transition into the remotely piloted aircraft (RPA) mission 
which we see as a sunrise mission in the Air National Guard, 
the one that will be around and keep the Tennessee Air Guard 
relevant well into the future.
    But we face the same challenges there as we need to 
continue on down that path toward transition. Delays do make 
the transition a little bit smoother, I mean, a little bit more 
difficult, and costly.
    Senator Alexander. And costly.
    General Wyatt. And costly.
    You know, the cost of maintaining those aircraft would move 
to Puerto Rico. But, if we're required to hold the Puerto Rico 
divestiture of C-130s, the E models, then we could have that 
expense that we would not normally have.
    Senator Alexander. I don't have much time left, but if I 
could ask, General Ingram.
    Toward the end of President Bush's administration, our 
National Guardsmen were deployed along the border to assist 
with immigration issues. You made a slight reference to that I 
believe.
    And I wonder if you could tell me how successful that was, 
whether some of that is still going on or not in terms of our 
border control activities. I think it was in support of those 
whose job it is to secure the border.

                   SOUTHWEST BORDER AND A-10 AIRCRAFT

    General Ingram. Senator, you are correct. It's in support 
of the Customs and Border Patrol. That mission has changed 
slightly.
    This year, that mission changed from 1,200 people to 300 
people. And it moved from a ground mission to an aerial mission 
where we're using 300 soldiers flying 19 helicopters and one 
fixed-wing aircraft along with analysts on the ground that help 
interpret the data for the Border Patrol from the information 
that's gained from those aircraft.
    Senator Alexander. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Coats.
    Senator Coats. Mr. Chairman, thank you.
    I just want to followup on Senator Alexander's question 
relative to the A-10. I mean, it's really a similar situation 
here where a decision has been made to retire a certain model 
of aircraft, and replace it with others.
    And I know there have been negotiations going on between 
the Guard and the Air Force, and then referencing the action 
that the House recently took to delay all this for a year.
    If you could apply that now back down to the A-10 
situation, what is the status of those negotiations? Is this a 
done deal? Has a final decision been made? Is there more 
consideration to be undertaken, General Wyatt?
    General Wyatt. A very similar situation to Tennessee, as 
with all the States, but a little bit different, well, 
significantly different input, from the Air National Guard.
    Our input in the corporate process was to suggest 
alternative ways to meet the emerging strategy with A-10s, 
which as you know, play a crucial role in close air support in 
Iraq and Afghanistan. In fact, we have Air Guard A-10s in 
theater right now as we speak.
    But some of those suggestions were not accepted by the Air 
Force as we went forward. Alternative missions were proposed 
for the unit at Fort Wayne, Indiana, and those are included in 
PB-13.
    The status of the negotiations between the Council of 
Governors and Secretary Panetta, I think have concluded, 
although at any point in time, obviously, the Secretary has a 
prerogative with the Council of Governors, a dialog, to re-
engage.
    But I think that a counterproposal was made. It did not 
include anything related to the Indiana Air Guard or the A-10s. 
And my understanding is that the Council of Governors have 
respectfully declined the offer of Secretary Panetta to reach a 
compromise.
    So we're waiting to see what happens with PB-13, but, in 
the meantime, as I indicated, we need to start moving toward at 
least taking a look at implementing the PB as it has been 
proposed, unless we're told something different by the 
Congress.
    Senator Coats. Well, again, to follow on Senator 
Alexander's question. If what the House passed becomes law, 
what do you anticipate the status of current A-10 fleets being?
    I mean, are they going to be hangar queens and just sit 
there, and they have cost of maintenance, but no mission for 
them, just waiting out the year? Or, will they, what's your 
take on what will happen?
    General Wyatt. My take is that if that happens, we would 
hope there would be sufficient funds to continue operating 
because that's a great unit in Fort Wayne. They're already 
trained.
    As I've said, they've rendered great support to the 
operations in Iraq and Afghanistan. And our intention would be 
to continue with continuation training, keeping that unit 
operational for as long as possible.
    We may have to dial back or dial down the level of 
continuation training which would be very difficult to do and 
maintain our combat status, ready to go.
    So it would be a difficult thing to do, but we would give 
it our best shot depending upon the level of funding that came 
along with the House proposal.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Senator Coats. But again, that's something that's going to 
have to be decided by the Secretary and the Chief of the Air 
Force.
    So I guess there's a possibility that they wouldn't be 
operational during that 1-year holding period. That would be my 
concern.
    General Wyatt. That is a possibility, Sir.
    Senator Coats. And then I wonder what effect that might 
have on the planned follow on for the intelligence, 
surveillance, and reconnaissance (ISR) aircraft.
    General Wyatt. It would be, obviously, delayed.
    The part that I'm concerned about is the people, because as 
I go out and visit units, the thing that I'm hearing is concern 
about an indefinite future, about what, you know, what is the 
future of my unit?
    What is the future of my job? Is it going to be the same? 
Is it going to be different? Is it going to be here at all?
    And, you know, I mentioned a little bit about the 
volunteerism that we have in the Air National Guard. Our 
recruiting and retention continues to be strong even in spite 
of PB-13 and the operations tempo (OPTEMPO).
    But where I'm starting to see some stress on my folks is at 
our retention numbers. You know, we have great volunteerism, 
and our people stick with us a long time. But our retention 
numbers are beginning to drop. And I attribute that to the Air 
Force's PB-13.
    It has had a more detrimental effect on our retention 
numbers than 20 years of high operational combat has had. So I 
think that uncertainty is beginning to take a toll on our 
people wondering about their futures and, you know, do we have 
time to invest in a unit that may not be here next year or 
maybe changing to a mission that we don't know what that might 
be.

               HIGH-MOBILITY MULTIPURPOSE WHEELED VEHICLE

    Senator Coats. Thank you.
    If I could shift to a ground vehicle. The humvee was 
mentioned, General McKinley, I think in your opening statement, 
60 percent, 20 years old or more.
    What is the take on what you need? I think you mentioned 
modernization. Some have mentioned upgrading existing fleet. 
Others say the cost, it's more cost effective to just go to the 
more modernized vehicle.
    I'm not sure if General Ingram, you, or General McKinley is 
the best one to answer this. But what's the story on this?
    General McKinley. Well, first of all, thanks for the 
question, Senator.
    I'm in receipt of letters from 17 Adjutants General in 
support of purchasing new humvees. I am the channel of 
communication between the States and the Department, so we have 
forwarded those letters of support.
    General Ingram can talk about the percentages. I would say, 
strategically, across both Air and Army Guard, this generation 
of soldier and airmen have joined our services and joined the 
Guard specifically to be used, to operate first-line equipment, 
to be part of the team that goes forward, either here at home 
for domestic emergencies, or to support our Army and our Air 
Force.
    And so recapitalization across our fleet to include ground 
vehicles, has got to be factored in, and we've got to fight 
hard with our services to make sure that the balance and the 
proportions are right.
    Or, some of these young men and women who've joined us 
since September 11, 2001, they're just not going to be as 
excited about their role in the National Guard.
    But I'll let Bill comment specifically on your question.
    General Ingram. Senator, on the humvee fleet. We have some 
of the oldest humvees in the inventory for the Army.
    And I guess the question at this moment is, do we 
recapitalize the ones that we have, or do we, as the Army buys 
the joint light tactical vehicle (JLTV), the next generation, 
we should get a proportional share of those vehicles?
    So the question is, do we keep a number of humvees 
unrecapitalized to trade in, or to turn in, as we gain the 
JLTV?
    And it's a balance. Obviously, we'd like to upgrade the 
fleet, but we want to be frugal with our resources and do the 
right thing.
    So, at the moment, there's a bit of a tradeoff there. The 
longer we wait, the older the vehicles become, and the more 
need there is for new vehicles or for recap.

                           SPORTS SPONSORSHIP

    Senator Coats. Just one last quick question, Mr. Chairman, 
if I could.
    My preference has always been that we direct money for 
recruiting to you, and you decide how best to utilize that 
money. There have been some efforts, I know you're sponsoring 
Indy cars and NASCARs and so forth.
    You see, you know, you tune in, you see the Air National 
Guard or Air Guard or Army Guard on the side of the car. And 
you do that in areas I think where the potential for recruiting 
is very high and a lot of attention to that sport.
    I don't like to micromanage and tell you, you should spend 
this here and that there. But, is this still of a value to you 
in terms of recruiting and whatever other gains that you might 
get from it, or is this something that its time has come and 
gone?
    General Ingram. Senator, it's really a matter of branding 
and being associated with a national brand. We do get recruits 
and we do run recruiting booths at sporting events, both motor 
sports and other sports.
    People don't necessarily buy Tide laundry detergent because 
of the race car that sports the Tide hood, but they do 
associate that product at a national level. And the Army 
National Guard, because of the target audience that we're 
looking at for our band of recruits, that is an interest to 
those people.
    And they see, when they watch sports on television, and 
they see Army National Guard, it's a national branding 
opportunity that is of great value.
    And the fact that the teams that the Army National Guard 
sponsors do some very, very good things for the Nation, and 
they are held in high esteem by that group of people, it does 
lead to recruits for the Army National Guard.
    Senator Coats. Well, Mr. Chairman, I would hope that we 
wouldn't micro-manage that process. Let the Guard decide how 
best to utilize whatever we give them for the branding, for the 
recruiting and so forth.
    But I think attempts to say, do this, or put on that 
commercial and not this commercial, or put it on this car and 
not on that car, ought to be left up to the people who are 
involved in the process and not those of us who have a 
preference.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    And now I'd like to recognize the chairman of the Senate 
National Guard Caucus, Senator Leahy.

                            AEROSPACE ALERT

    Senator Leahy. Thank you.
    General Wyatt, we saw on the news where a plane diverted, a 
commercial jet had to land in Bangor, it was on its way to 
Charlotte.
    It said fighter jets were deployed. Were those Guard jets?
    General Wyatt. Yes, Senator, they were.
    Senator Leahy. Well, that sort of leads into a question I 
have. There's a couple of lesser-known cuts, not lesser cuts, 
but lesser-known cuts, that were proposed for the Air National 
Guard, an issue that concerned me deeply.
    Specifically, cuts to air controller alert locations and 
Air National Guard explosive ordinance. The air controller, I 
think it's safe to say from everything we've learned without 
going into anything in the classified briefings we get, it's 
safe to say that commercial airlines are still a target of 
terrorists. Is that not a fair statement?
    General Wyatt. That's correct, Senator.
    Senator Leahy. And, it would be one thing if we could say 
that our strategy for dealing with threats to the United States 
had changed, and thus would drive reductions. But I'm worried 
that we're just seeing a budget trail.
    I don't see the threat going down. I think we should have 
our air control alert locations, and the Air National Guard 
explosive ordinance disposal, I don't know if that falls into 
your purview, it looks to me like what they did was just hand 
you a bill to pay.
    And then you had to make State and local cuts, including 
bomb squad cuts, to meet those targets. Do you think the Air 
Force considered the State and local impact of getting rid of 
our Air Guard bomb squads which I know Governors all over the 
country use when they need bomb squads.
    I've certainly seen that in my own State of Vermont. Do you 
think that they thought that it impacts the States pretty 
badly?
    General Wyatt. I'll try to address the aerospace control 
alert (ACA) question first.
    Senator, you're correct. That threat is still there, and I 
think that probably the discussion was, you know, according to 
studies that you've referenced that are classified, you know, 
could the Nation assume a little additional risk by cutting two 
of the ACA units?
    That's a discussion I'd like to have with you in a 
classified----
    Senator Leahy. Well, what I worry about, General, is that 
the discussion is driven more by budgetary issues and not by 
reality.
    General Wyatt. Certainly, the budget does come into play.
    I mean, we have to talk about what we can afford to provide 
and, you know, are there opportunities or places where we could 
take additional risk. And whether this additional risk is worth 
the money, is a debate.

                              BOMB SQUADS

    Senator Leahy. And I think you're going to find that on the 
question of bomb squads.
    General Wyatt. Yes, Sir.
    The bomb squads, what we did there is, we looked at the 
situation in Iraq and Afghanistan, recognizing that we would be 
coming home from those wars.
    We did have some budget bogeys to meet. We tried to take a 
look at those mission sets and capabilities that the United 
States needed, that could be supplied by the Air National 
Guard, and certainly, that's one of those capabilities that is 
a dual use.
    It has a function in title 10, but also for the Governors. 
I think the issue that has been highlighted with the Council of 
Governors involvement under the new process is that we have 
inside the Department of Defense (DOD), highlights the fact 
that we need to do a better job of communicating with the 
Adjutants Generals and the Governors to get the effect of title 
10 decisions on the Governors ability to respond to things like 
explosive ordinance disposal.

                     ROLE OF GOVERNORS AND ANALYSIS

    Senator Leahy. We also have the Air Force, considering cuts 
into the Guard and Reserves far more than the Army or the Navy. 
I worry that they're not listening to some of the concerns of 
the Governors.
    Certainly, I get that from Governors of both parties. 
Senator Graham, Lindsey Graham, does too. It makes me wonder, 
have you seen any analysis that persuades you that relying more 
on the Active component is going to save money, or provide the 
Air Force with more capability?
    General Wyatt. No, Sir, I'm not seeing that analysis.
    Senator Leahy. Have you asked to see that sort of analysis?
    General Wyatt. Yes, Sir, I have.
    Senator Leahy. Well, that kind of bothers me.
    You're the Air Guard Director. I think you should have been 
allowed to see analysis during budget preparation before the 
Air Force presented the budget proposal that substantially cuts 
your force based on the claims that they have, and they haven't 
shown you.
    General Wyatt. I agree, Sir.
    And, you know, as we've kind of gone through this process, 
the thing that I've, I guess, come to the conclusion is, that 
the analysis that I have been able to see, the answer is 
sometimes, I guess the answer is important, or the conclusion 
is important.
    But as important as the answer and the conclusion, are the 
initial going-in assumptions, and the methodology used in 
reaching that answer, and the metrics or what it is that you're 
trying to measure.
    And I don't think that just an answer is sufficient. I 
think you need to go back and you need to take a look at the 
processes, the methodology, the assumptions. And that's the 
thing that concerns me, not only is not seeing all the 
analysis, but how we got to some of that analysis.

                      FUTURE OF THE NATIONAL GUARD

    Senator Leahy. I agree with you.
    I don't think that these cuts in the Air Guard and the 
Reserves are going to save us money. I think, in the long run, 
it's going to cost us a lot more.
    We saw how important they were to us during Iraq and 
Afghanistan. That's not a capability you can turn on and off 
like a switch. And that's without even going into the 
continental U.S. aspect required by that protection.
    And I share the concern of a lot of the Governors. They 
weren't listened to. But, we'll talk about that more, and I 
should note, you've always been very available to me and my 
staff when we have had questions.
    And, General McKinley, I thank you for your distinguished 
service as Chief of the National Guard Bureau. I think this is 
going to be our last hearing of this nature before your 
retirement.
    You and I have been good friends. We've visited both in 
Vermont and here. You're going to be the first Chief to wear 
four stars. A Chief who fought to get your folks a voice on the 
Joint Chiefs of Staff.
    And I know Senator Graham and I and the very large 
bipartisan coalition of Senators take pleasure in that, along 
with General Blum who made history by transforming the Guard 
into an operational force.
    I have the sense that since you're leaving, you can say 
whatever you want to say. And General Ingram is kind of 
smiling. I think he probably knows what my question is going to 
be.
    Do you think the Guard would be in a very good position if 
we in the Congress didn't keep the pressure on the way we do?
    You don't have to answer that, General Ingram, but I see 
the grin. Go ahead.
    General McKinley. Most of us in this room prefer not to 
build our own gallows. So, in order not to do that, I will 
reserve some of my comments for my meeting with you before I 
leave, Senator.
    But thanks to you and Senator Graham for steadfastly 
supporting the National Guard through the Senate Guard Caucus.
    Quite frankly, 375 years of history have seen the 
effectiveness of the National Guard ebb and flow. And I can 
only say to you, Senator, because you know it so well by 
visiting your members of the National Guard, as you all do, how 
capable and competent these folks are.
    And how well led they are by their Governors in State 
status, their Adjutants General. And quite frankly, the support 
we've had over decades from our two services, the Air Force and 
the Army.
    What I worry about most, to get to your specific question 
is, will the title 10 world find a way as it has not over past 
involvement in contingencies to include World War II, find a 
way to maintain a balance to keep the National Guard.
    And I would add probably the Reserve component in this, but 
they'll speak for themselves. How do we keep this magnificent 
capability, this low-cost, high-impact force of citizen 
soldiers and airmen, in our case, in the game?
    To keep their head in the game. To keep us viable. To keep 
the investment in our competency at a level that the Nation may 
need and sustain as a hedge for future operations.
    We have to find a way, all of us do, to convince our 
services and the Department that this investment has been a 
wise investment.
    And that this Nation, with less than 1 percent of its 
citizens serving its United States military, deserve to have a 
National Guard that's trained, equipped and well-led, because 
there will be significant challenges to our Nation in the 
future.
    But, Senator, to you and your colleagues, I can't thank you 
enough for what you've done to make us who we are today and 
we're very proud to serve the Nation. Thank you.
    Senator Leahy. Well, I can assure you, as long as I'm the 
co-chair of the National Guard Caucus, you're not going to be 
ignored, none of you will. And I applaud all three of you for 
the service you've given the country.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murkowski.

                    ALASKA AIR NATIONAL GUARD UNITS

    Senator Murkowski. Thank you, Mr. Chairman.
    And, Generals, I join the rest of my colleagues in thanking 
you for your leadership on so many different issues in 
different areas.
    General Wyatt, I want to ask you about the recent Air Force 
proposal which would move the 18th Aggressor Squadron from 
Eielson down to Joint Base Elmendorf-Richardson.
    Right now, this proposal looks like it will have an impact 
on the 168th Air Refueling Wing to the extent that an operation 
that is currently a 24-hour-a-day operation, 365-days-a-year, 
that with this proposal, it may result in operations being 
diminished to effectively a 12-hour day, 5-days-a-week.
    Not necessarily banker's hours, but certainly not the kind 
of hours that will be required, that are required, for this 
pretty incredible, intensive refueling wing up there at 
Eielson.
    General Schwartz keeps reminding me of the significance of 
Eielson and the fact that we got 23 million gallons of gas up 
there. It's pretty important to the overall mission.
    My question to you is, how would this proposal, which would 
effectively reduce the operations there at Eielson, how will 
this impact the Guard's mission there?
    General Wyatt. Senator, I've asked that same question.
    You know, when you stop and think about the importance of 
that air refueling wing, its strategic location, when you think 
about some of the other activity that's happening over the 
Arctic, and as we look westward from Alaska, you can very 
quickly recognize the strategic importance of the 168th, and 
the role that it plays in the air control alert mission for 
Pacific Air Forces (PACAF) and that theater.
    That's one of the first questions I asked was, if the F-16s 
are moved, and the level of support at the airbase goes down, 
will there be sufficient capability at that airbase for the Air 
National Guard to continue functioning at the level that it is 
now?
    Because a lot of the dollar bills that are controlled for 
some of the base support that is required for my Air National 
Guard unit there, are not in my budget. So I don't get to make 
that call. They're in the Air Force budget.
    I have been assured that there will remain sufficient funds 
and sufficient services to keep the 168th playing the vital 
role that it does.
    The decision to, whether to go from a 24-hour alert, which 
they're currently on, to something less than that, is a call 
that is left to General North PACAF in consultation with NORAD 
and NORTHCOM.
    So I can't really get into the operational decisions. But 
my concern would be that we have in the future as competent and 
capable a wing as we do right now.
    And so I watch very closely any attempts that would 
diminish their ability to perform their mission. I wish I had a 
better answer for you than that.
    Senator Murkowski. Let me perhaps rephrase it.
    If, in fact, you did have to go to a reduced-hours 
operation, 12 hours, could you do the mission that you believe 
you have to do, or that you're required to do there in the 
Arctic, in the North Pacific?
    General Wyatt. Again, the mission requirements are set by 
the warfighters. If they were to make that conclusion that the 
12-hour alert would be sufficient for mission accomplishments, 
we could do that.
    But that's a judgment call again that will need to be made 
by the combatant commander that obviously would take into 
consideration the additional risk that not having that unit on 
alert for 12 hours out of a day might pose to the ACA mission.
    Senator Murkowski. Let me ask you another, then.
    Because the 168th I think is, we recognize, is operating at 
its capacity. They've reported having to decline certain 
missions even within the 24-hour-a-day period that they're 
operating now.
    The 168th has asked for additional aircraft and an active 
association. They've been doing so for several years now, so 
that it can effectively do more for the mission.
    Can you give me the status of any of these requests?
    General Wyatt. Ma'am, part of the recent KC-46A basing 
criteria that was released to the Congress, evolved from what 
we call the Force Composition Analysis (FCA), for the entire 
refueling enterprise, not just KC-46s, but KC-135s and KC-10s.
    And one of the recommendations that came out of that study 
was that, as we go forward in the refueling enterprise, that 
all of the units, at some point in time, transition to either 
active associations, in the case of the 168th, or classic 
associations, where the Guard or Reserve would play the 
supporting role.
    So I think the future looks good for an active association 
there. The question will be the timing, and how robust that 
association would be.
    Would it bring additional airplanes as part of the active 
association, or would it bring additional Active Duty pilots, 
maintainers, to help robust the capabilities of the wing with 
the existing eight airplanes?
    Those are questions yet to be answered.
    Senator Murkowski. And no timeline within which to, that we 
might expect those answers?
    General Wyatt. No timeline that I'm aware of other than a 
push to go to active associations and classic associations 
across the air mobility fleet and PACAF.

                                  C-23

    Senator Murkowski. Let me ask you, General Ingram, about 
the C-23s, or Sherpas.
    Last year, the Army proposed the elimination of the Sherpas 
with the belief that the C-27Js would replace that capability.
    Those C-27Js are now proposed to go away. Are we 
reconsidering the future of the C-23s?
    General Ingram. The Army has taken the funding away for the 
OPTEMPO, for the C-23 and the intent is to divest those 
airplanes by the end of fiscal year 2014.
    And, to my knowledge, there's no reconsideration of that.
    Senator Murkowski. What I'm told is that there's a wide 
number of Adjutant Generals that feel that the C-23 is 
important to the domestic missions. Air Force is looking at the 
C-130s to fill that mission.
    Are you satisfied that, in fact, that mission can be served 
with the C-130? Basically, is this the right thing to be doing?
    General Ingram. I feel that domestic airlift is a concern 
that should be addressed. I'm not sure that it's been 
adequately addressed for the domestic mission.
    For the away game mission, I know that the Army has taken 
the Air Force's position that the Air Force will support inter-
theater airlift, which is the mission that the C-23 and the C-
27 airframes were designed to do.
    Senator Murkowski. Any ideas or suggestions as to how we 
can address the domestic airlift?
    General Ingram. NORTHCOM is, in a recent discussion with 
General Jacoby, the commander of U.S. Northern Command, he 
views looking at the homeland as a theater of operations.
    And I think his perspective will be very important in 
determining requirements for all homeland defense, or homeland 
operations, inter-theater airlift in the homeland being one of 
those parameters.
    Senator Murkowski. Mr. Chairman, thank you.
    Chairman Inouye. Thank you very much.
    Gentlemen, I thank you for your testimony this morning, and 
I thank you for your service to our Nation. Do you have further 
questions?
    Senator Cochran. No, Mr. Chairman, I have no further 
questions. I do want to congratulate our panel for the 
leadership you're providing for our Armed Forces.
    Thank you very much.
    Chairman Inouye. I will be submitting some questions and 
ask for your response.

                                Reserves

STATEMENT OF VICE ADMIRAL DIRK J. DEBBINK, CHIEF, NAVY 
            RESERVE, UNITED STATES NAVY
    Chairman Inouye. And, now, the subcommittee asks General 
Stultz, Admiral Debbink, General Hummer, and General Stenner to 
come forward and present their testimony.
    Gentlemen, I thank you for joining us this morning. And may 
I advise you that your full statements will be made part of the 
record. And so, we shall start with Admiral Debbink.
    Admiral Debbink. Chairman Inouye, Vice Chairman Cochran, 
thank you for the privilege to speak with you again this 
morning about the capabilities, the capacities and the 
readiness of our now 63,988 dedicated men and women who are 
serving in our Navy Reserve today.
    In the decade since 9/11, the Navy Reserve has performed 
nearly 64,000 year-long mobilizations to Active Duty, truly on 
the front lines of freedom. The Navy Reserve sailors exemplify 
our Navy core values of honor, courage, and commitment.
    As our motto and our sailors both proudly claim, we are 
ready now, anytime, anywhere.
    In his Sailing Directions, the Chief of Naval Operations 
(CNO) Admiral Greenert, established three tenets for the Navy: 
Warfighting First, Operate Forward, and Be Ready.
    Today's Navy Reserve is fully aligned with the CNO's 
Sailing Directions, and our sailors are eager to do their part 
to ensure the Navy remains the world's premier maritime 
service.
    Reserve sailors provide both full- and part-time 
operational capabilities and, importantly, also provide 
strategic depth for maritime missions to ensure the Navy is 
always ready to respond globally to crisis situations while 
maintaining fiscal efficiency across our whole spectrum of 
operations.
    Thanks to the work of this Congress in the National Defense 
Authorization Act for fiscal year 2012, Service Secretaries now 
have assured access to Reserve component units. This will allow 
the Navy to confidently assign missions to the Navy Reserve 
from peace to war.
    While we'll first have the opportunity to budget for such 
use of assured access in fiscal year 2014, I wanted you all to 
know how important your efforts were to our future force while 
I had the opportunity to do so.
    I'm also appreciative of your support for the purchase of 
our 14th C-40A this year for our Navy Unique Fleet Essential 
Airlift (NUFEA). Congressional support for our Navy Reserve C-
40A program is enabling our critical intra-theater lift 
capability today to be more cost effective and flexible and 
thus more operationally relevant well into the future.
    Our fiscal year 2013 budget request will enable the Navy 
Reserve to continue supporting current operations while 
maximizing the strategic value of the Navy Reserve, a force 
valued for its readiness, innovation, agility, and 
accessibility.
    The true prize for our sailors and the Navy alike will be 
the real and meaningful work as part of America's Navy: A 
Global Force for Good.
    And, as an example of this work, the Navy Reserve has once 
again assumed 100 percent of the Navy's Individual Augmentee 
commitment to the overseas contingency operations (OCO) for 
fiscal year 2013 and beyond.
    I believe the Reserve components, all of us in the National 
Guard, must be asked and even required to do those missions we 
are able to do so that the Active component can focus on the 
missions that they must do for our national security.

                           PREPARED STATEMENT

    As you know, this is my fourth and final year appearing 
before your subcommittee. I'm proud of the accomplishments of 
our sailors and the Navy Reserve and the Navy, and I'm truly 
thankful for the support of this Congress in providing our 
quest to become a true, Total Force.
    On behalf of our sailors and their families and civilians 
of our Navy Reserve, thank you for your continued support and 
your commitment to our Navy Reserve.
    [The statement follows:]

           Prepared Statement of Vice Admiral Dirk J. Debbink

                              INTRODUCTION

    Chairman Inouye, Senator Cochran, and distinguished members of the 
Defense Subcommittee of the Senate Appropriations Committee: thank you 
for the opportunity to speak with you today about the capabilities, 
capacity, and readiness of the 63,988 dedicated men and women who serve 
in our Navy's Reserve component (RC). I offer my heartfelt thanks for 
all of the support you have provided these great sailors.
    The U.S. Navy is globally deployed, persistently forward, and 
actively engaged. America's Navy, year after year, in peace and war, 
carries out the core capabilities of forward presence, deterrence, sea 
control, power projection, maritime security, and humanitarian 
assistance and disaster response. Defense strategy establishes naval 
power as an enduring concept, and Navy leadership recognizes the Force 
must constantly evolve and innovate to face emerging and future 
challenges. These two concepts inform our efforts as we review where we 
have been and consider our future.
    The Navy is critical to our national security and this Nation's 
economic prosperity. With a global economy and global responsibilities, 
the United States of America is and must remain a maritime Nation. Some 
facts will not change:
  --70 percent of the globe is covered by water;
  --80 percent of the world's population lives on or near the coast; 
        and
  --90 percent of our commerce travels via the oceans.
    The Navy will continue protecting the interconnected systems of 
trade, information, and security that underpin American prosperity and 
global stability. We will continue to be at the front line of our 
Nation's efforts in war and peace with a proud heritage of success in 
battle on, above, and below the sea.
    This Nation's Navy derives its strength from the Active and Reserve 
sailors and Navy civilians who comprise our Total Force. We operate as 
America's Navy, a Global Force for Good, one Navy force with an Active 
component (AC) and Reserve component seamlessly integrated in pursuit 
of the most effective and efficient way to deliver naval capabilities 
to deter foreign aggression and, if deterrence fails, win our Nation's 
wars.
    A capable Navy Reserve is an operational and warfighting necessity. 
As stated in the 2010 Quadrennial Defense Review (QDR) Report, 
``prevailing in today's wars requires a Reserve component that can 
serve in an operational capacity--available, trained, and equipped for 
predictable routine deployment. Preventing and deterring conflict will 
likely necessitate the continued use of some elements of the RC--
especially those that possess high-demand skill sets--in an operational 
capacity well into the future.'' The Navy--Active and Reserve--will 
work together to ensure the right capabilities are available to the 
Nation at the best value to the taxpayer.

                            FIRST PRINCIPLES

    In his CNO's Sailing Directions, the new CNO, Admiral Jonathan 
Greenert, established these first principles for the Navy:
    Warfighting First.--Be ready to fight and win today, while building 
    the ability to win tomorrow.
    Operate Forward.--Provide offshore options to deter, influence, and 
    win in an era of uncertainty.
    Be Ready.--Harness the teamwork, talent, and imagination of our 
    diverse force to be ready to fight and responsibly employ our 
    resources.
    Today's Navy Reserve is fully aligned with the CNO's Sailing 
Directions, and we are ready to accept new missions as necessary. The 
Navy is organized, trained, and equipped to deter, fight, and 
decisively win wars; the Navy Reserve is eager to do our duty to ensure 
our Navy remains the world's preeminent maritime force.
    Navy missions are executed by the AC, the RC, or a combination of 
both. As the CNO stated, ``capabilities and missions can be assigned to 
the Navy Reserve with confidence because the Navy Reserve is ready, 
innovative, and agile and is fully aligned with Navy mission 
requirements.'' Depending on the mission, the Navy RC can mirror or 
complement the AC. We mirror the AC and provide additional rotational 
forces for those missions where it makes operational and fiscal sense. 
We complement the AC by providing unique capabilities in other areas, 
such as in the Intra-Theater Fleet Logistics Support, Naval Cooperation 
and Guidance for Shipping, and Navy Special Warfare Helicopter Support 
missions. The correct AC/RC force allocation varies with each of Navy's 
wide variety of missions and required capabilities. As new missions 
emerge and current missions evolve, AC/RC mix solutions are carefully 
and continually examined. RC sailors provide full- and part-time 
operational capabilities, and strategic depth, for maritime missions to 
ensure the Navy is always ready to respond globally to crisis 
situations while maintaining fiscal efficiency across the spectrum of 
operations. These broad missions are not mutually exclusive; the Navy 
Reserve can operate anywhere across the full spectrum of operations. 
Thanks to the work of this Congress in the National Defense 
Authorization Act for fiscal year 2012, Service Secretaries have 
assured access to RC units which allow the Navy to confidently assign 
missions to the Navy Reserve anytime from peace to war.
    While Reserve support for ongoing operations is vital to the Navy's 
success, about two-thirds of the Reserve Force performs an equally 
important role--building and maintaining our capacity through its part-
time service. Capacity held in the RC provides our Nation a wide range 
of options at an affordable cost. Risk is no longer an all-or-nothing 
proposition. Rather than completely abandoning a capability, the part-
time service of our sailors preserves capabilities at a lower cost in 
exchange for a calculated level of risk. The value of these sailors is 
a function of readiness, accessibility, and capacity. It is not enough 
for our sailors to be trained; we must be able to deliver the right 
amount of required naval warfighting capabilities when and where needed 
by the combatant commanders, including the option to restore or revert 
them to full-time status if and when needed. This ``reversibility''--
the ability to regenerate capabilities that might be needed to meet 
future demands (maintaining intellectual capital and rank structure 
that could be called upon to expand elements of the force)--is a key 
part of Department of Defense (DOD) decision calculus.
    The Navy Reserve is, as our motto states, ``Ready Now, Anytime, 
Anywhere.'' We have made great strides in improving the planning and 
notification process for sailors selected to mobilize in support of 
Navy or Joint requirements. Every year, our Ready Mobilization Pool 
(RMP) is published to identify sailors and units with the potential to 
mobilize. This allows commanders to focus our resources on the 
readiness levels of the right sailors and units. Those RC sailors not 
on the list can be fairly confident that they will not mobilize in the 
next 12-18 months. Our Volunteer Portal helps identify those sailors 
who desire to be mobilized, and to match qualified volunteers with 
validated mobilization requirements. Feedback from the Force has been 
very positive regarding both the RMP and the Volunteer Portal.
    Longer notification time directly translates into readiness. Our 
Navy families can plan for impending mobilizations, and our sailors can 
prepare themselves medically, physically, and administratively. It also 
allows employers more time to prepare for the absence of mobilized 
employees and eases tension in the workplace.
    Through improvements to our procedures, policies, and systems, we 
have reduced the time it takes for a RC sailor to transition to Active 
Duty from weeks to days. Longer lead time plus shorter processing time 
results in ready sailors, ready families, supportive employers, and 
capability quickly delivered.

                                SAILORS

    The mission of the Navy Reserve is to provide strategic depth and 
deliver operational capabilities to our Navy and Marine Corps team and 
Joint forces, from peace to war. Our Navy Reserve is relevant and 
capable today because we have invested in our people and our equipment, 
we have assigned them real and meaningful work, and we have honored the 
support of our families and our employers.
    The success of the Navy Reserve Force is due first and foremost to 
the professionalism of the sailors who volunteer to serve in a wide 
array of environments. The Navy Reserve is a healthy force, manned with 
sailors of diverse backgrounds that are dedicated to providing for the 
defense of the Nation's citizens and the global good. As a workforce, 
we are becoming leaner and more versatile, utilizing new technologies 
adapted to the Defense environment. The success of the Force is due to 
the dedication, sacrifices, and service of our sailors, and the support 
they receive from their families and employers, and I believe Navy 
policies reflect that same level of commitment from Department 
leadership to our sailors.
    Navy Reserve leadership continually reviews policies and laws, 
ensuring our sailors are afforded the greatest opportunity to 
participate in Navy's Total Force while also ensuring each sailor's 
family and employer are appropriately recognized for their sacrifices 
on behalf of the servicemember. The fiscal year 2013 budget request of 
$1.938 billion (including overseas contingency operations (OCO) 
funding) for Reserve personnel, Navy will continue to support the 
manpower needs and policies of the Navy Reserve. I thank you for your 
support of our many programs, several of which will be described in 
this testimony.
    In the decade since 9/11, the Navy Reserve has performed nearly 
64,000 mobilizations to Active Duty. Today, more than 3,000 Reserve 
sailors are forward, combating terrorism around the globe--truly on the 
front lines of freedom. Mobilized Navy Reserve Hospital Corpsmen are 
embedded with ground units in Afghanistan with their Marine platoons. 
Reserve Seabees are building critical infrastructure to stabilize 
Afghanistan's fragile but determined democracy, as well as 
participating in Southern Partnership Station activities in South 
America. And many sailors are Individual Augmentees (IAs) bringing 
their expertise to Army, Joint, and Combined commands. These IAs are 
performing intelligence, information technology, logistics, and other 
specialized missions.
    Our mobilized sailors are not only talented, they are motivated. 
When I visit our deployed and returning sailors, they state that while 
the work is hard and separation from family is challenging, they are 
proud to serve and the capabilities they bring are essential. We cannot 
thank them enough for their honorable and faithful service.
    I am particularly humbled by the fact that every Navy Reserve 
sailor serving today has enlisted, reenlisted, or reaffirmed their oath 
of office in the decade since 9/11. They make this commitment knowing 
mobilization is not only possible but probable. Our Navy Reserve 
sailors exemplify our Navy core values of Honor, Courage, and 
Commitment.
    One of the Navy Reserve's strategic focus areas is to enable the 
Continuum of Service (CoS). CoS is not a program but a concept that 
will enable us to increase the return on investment in our people, and 
give our sailors more opportunities for a lifetime of Service. CoS is a 
transformational approach to personnel management that provides 
opportunities for seamless transition across service status categories 
to meet mission requirements and encourage a lifetime of service. 
Enabling the CoS philosophy by fully incorporating opportunities unique 
to the Reserve, we recruit sailors once and retain them for life 
through variable and flexible service options that provide a career 
continuum of meaningful and valued work.
    There were many important accomplishments associated with our CoS 
efforts in fiscal year 2011. Our Continuum of Service Working Group 
(CoSWG) is fully engaged, with representation by all key stakeholders 
of Navy uniformed personnel. The purpose of the CoSWG is to provide 
policy, managerial, and technical advice to the Chief of Navy Personnel 
(CNP) and the Chief of Navy Reserve (CNR) on all matters related to the 
development and implementation of a true Continuum of Service for the 
Navy. The CoSWG Charter was signed by CNP and CNR in February 2011. The 
CoSWG meets via teleconference every 2 weeks to facilitate the exchange 
and leveraging of information, ideas, expertise, and capabilities; 
share technological solutions and jointly participate in CoS planning 
efforts. The CoSWG engages DOD and the other Services to socialize 
initiatives and to achieve support and leverage for programs needing 
joint concurrence and legislative changes in order to implement.
    The Career Transition Office (CTO) in the Navy Personnel Command 
continues to be one of the most exciting developments for CoS. The goal 
of the CTO is to counsel sailors before they leave Active Duty and help 
them to take advantage of the opportunities in the Navy Reserve. By 
engaging with our fully qualified, world-wide assignable personnel 
before leaving Active Duty, this becomes a retention transaction that 
complements Navy recruiting efforts. In September 2011, the CTO 
completed Spiral 3, a pilot program that developed and tested 
Indefinite Recall processes and procedures for sailors to transition 
from RC to AC. The CTO transitioned five sailors from RC to AC during 
the pilot, thoroughly validating the process.
    To transition sailors from RC to AC, we have developed policy that 
will allow temporary Active Duty recalls for enlisted Reserve sailors, 
increasing their opportunities to serve and allowing AC greater access 
to RC capabilities and resources. An effective enlisted recall policy 
will increase Navy Reserve operational mission support and enhance 
overall manpower utilization. It will also provide our Reserve sailors 
with meaningful work as they take on challenging operational AC 
assignments in support of the Navy Total Force.
    To provide our Reserve sailors with more efficient workforce 
support tools, Navy Reserve became the first of all the Reserve and 
Guard components to integrate the Defense Travel System (DTS) with the 
Reserve Order Writing System. This system integration shortens time to 
book and modify travel when Reserve sailors request orders to perform 
Active Duty. The integration accelerates processing and payment of 
travel claims (5-6 days vs. 30-45 days), reduces the number of orders 
and claims manually processed by Personnel Support Detachments and 
NOSCs by up to 120,000 annually (thereby eliminating backlogs), 
improves Government Travel Credit Card repayment rates reducing bad 
debt and the need for related disciplinary action.
    The new Variable Participation Unit (VPU) allows sailors in key 
specialties to perform fewer drills than traditional Reserve sailors 
while remaining engaged with the Navy and available for duty. This 
gives the Navy access to individuals whose circumstances wouldn't allow 
them to serve otherwise.
    Building on our CoS efforts is one of our enduring priorities. We 
are currently engaged in a project to develop and introduce Fleet 
Rating Identification Engine (Fleet RIDE), a Web-based program that 
electronically pairs a sailor's career interests and qualifications 
with the needs and requirements of the Navy, into the Selected Reserve 
(SELRES) to support the CoS for the Navy by providing RC sailors with 
the same career counseling capability that is available to their AC 
shipmates. Fleet RIDE will provide SELRES sailors with comprehensive 
rating information as well as both RC and AC career opportunities based 
on the Navy demand signal balanced with the sailors interest and 
aptitude. This integrated information will help sailors make better 
informed career decisions regarding rating conversions and RC to AC 
lane change options. Fleet RIDE will optimize Force Fit by improving 
rating manning and will enhance individual sailors' career progression 
by streamlining RC to RC rating conversion processes and facilitating 
timely RC to AC transition requests and approvals.
    The Navy Reserve has strengthened all phases of the deployment 
cycle to take the best possible care of sailors and their families. 
Deployment Readiness Training, Command Individual Augmentee Coordinator 
Program, Returning Warrior Workshops, the Psychological Health Outreach 
Program, and the Navy's Family Readiness programs, all minimize risk to 
Navy missions assigned to Navy Reserve sailors. These programs reassure 
servicemembers that their families will be cared for while they are 
away. Through advance preparation they also allow servicemembers to 
focus on the mission while deployed, and then assist with reintegration 
after deployment.
    The Navy Reserve is committed to providing world-class care for our 
sailors; especially, for those wounded in support of OCO. We continue 
to provide exceptional service to sailors assigned to Navy's Medical 
Hold (MEDHOLD) units. These units provide necessary medical case 
management and administrative support to Navy's RC wounded, ill, and 
injured (WII) population. Also in support of WII sailors, the Navy Safe 
Harbor program is Navy's lead organization for coordinating nonmedical 
care for seriously WII sailors and Coast Guardsmen and their families. 
Safe Harbor provides individually tailored assistance designed to 
optimize the successful recovery, rehabilitation, and reintegration of 
our shipmates.
    All sailors returning from overseas mobilizations are encouraged to 
attend a Returning Warrior Workshop (RWW), Navy's ``signature event'' 
within the DOD's Yellow Ribbon Reintegration Program (YRRP), supported 
by the Bureau of Navy Medicine and Surgery (BUMED) as part of 
psychological health services for RC sailors. The RWW is a dedicated 
weekend designed to facilitate reintegration of sailors returning from 
combat zones with their designated representatives. Staged at a high-
quality location at no cost to the participants, the RWW employs 
trained facilitators to lead Warriors and their families/guests through 
a series of presentations and tailored break-out group discussions to 
address postcombat stress and the challenges of transitioning back to 
civilian life. Defining resilience as more than just simply returning 
to former levels of functioning, these events help servicemembers 
recognize what is called ``post-traumatic growth''--positive changes 
made as a result of going through the deployment experience. A total of 
87 RWWs have been held to date, attended by 5,937 military personnel 
(including members of other Services) and 4,758 guests, with 12 
additional events scheduled in fiscal year 2012. Pioneered by the Navy 
Reserve, these workshops are available for all Navy Individual 
Augmentees, AC and RC. RWWs are a true success story in honoring our 
sailors and their families. It is important to ensure this program 
continues to have both the full support of Navy leadership and the 
widest possible participation by all returning sailors.
    RWWs serve as a key venue for utilization of the BUMED Navy Reserve 
Psychological Health Outreach Program (PHOP). The PHOP employs 
dedicated teams of mental health professionals to provide psychological 
health assessments, outreach, and education, including Operational 
Stress Control and Suicide Prevention training for the Navy and Marine 
Corps Reserve Communities. Regularly scheduled encounters are held at 
Deployment Readiness Training (DRT) events to screen servicemembers 
prior to and after deployment. The program is designed to identify 
potential stress disorders, facilitate early intervention, and provide 
access to psychological health support resources. The availability, 
quality, and effectiveness of psychological services utilized by Navy/
Marine Corps Reserve sailors and marines and their families are closely 
monitored. In fiscal year 2011, the Navy Reserve deployed a user-
friendly Webpage providing both sailors and their family members an 
easy-to-access database of PHOP points of contact.
    During fiscal year 2011, 714 RC sailors were referred for PHOP 
services; 668 of these sailors became ongoing clients. The PHOP teams 
also attempted calling 3,815 recently demobilized Reserve sailors. Of 
these 2,173 were successfully contacted and given the support they 
needed. PHOP team members also made 193 visits to NOSCs and 129 visits 
to NMPS sites in Norfolk, Virginia and San Diego, California, where 
they received referrals and conducted mental health screenings. They 
also provided briefings to 30,246 Navy Reserve sailors, unit staff/
leadership and family members during DRT events.
    PHOP continually reviews the delivery mechanism for their audience 
to increase exposure to the program. The Northwest Region PHOP team is 
participating in a pilot project supporting case management for our 
wounded warriors. If effective, the project will expand to all Navy 
Regions.
    Navy continues sexual assault prevention programs while providing 
compassionate support for victims. A cornerstone of this program is the 
clear and consistent message from leadership at all levels that sexual 
assault will not be tolerated in the United States Navy--and I thank 
you for your emphasis on sexual assault prevention programs in the 
fiscal year 2012 National Defense Authorization Act that help amplify 
this message.
    Navy has a comprehensive strategy to combat suicide, incorporating 
four pillars--education and awareness; operational stress control; 
intervention; and postintervention support. Navy's Suicide prevention 
approach builds combined sailor, family, and command resilience with a 
goal of changing behavior through personal resilience; peer to peer 
support; leadership intervention throughout the chain of command; 
enhancing family support; and fostering a command climate where help-
seeking behaviors, when required, are expected in order to restore 
personal readiness.
    Programs focused on enhancing the quality of life for Navy Reserve 
sailors have paid dividends with regards to the end strength of the 
Force. Fiscal year 2011 ended with a Navy Reserve inventory of 64,792, 
or 98.9 percent of congressional end-strength (65,500). Most of the 
shortages were confined to SELRES officer inventory due to our 
increased focus on fit rather than fill, and a reduction in potential 
recruiting population due to high-Active component retention. FTS 
enlisted also under executed with historically low, though higher-than-
planned losses. The Navy Reserve continues to focus on fit and a 
positive tone of force while applying policies to remain within 
strength and fiscal controls.
    For enlisted sailors the Selective Reenlistment Bonus is used to 
affect retention in targeted specialties, while the affiliation and/or 
enlistment bonuses are used to recruit targeted ratings.
    The Officer Accession Bonus, Affiliation Bonus, and Special Pays 
(to include Special Pay for the Retention of Healthcare Professionals) 
are used to maintain/increase inventory by targeting undermanned pay 
grades in critical and undermanned skill sets. Additionally, Navy is 
requesting additional SELRES Officer skills receive ``critical'' 
designation from Principal Deputy Under Secretary of Defense (Personnel 
and Readiness), allowing for a Critical Skills Retention Bonus to begin 
in fiscal year 2012 in an effort to further reduce attrition.
    In fiscal year 2012, the Navy Reserve expects high-retention and 
low-attrition rates to continue, due to our ``Stay Navy'' campaign, the 
ability to provide real and meaningful work, as well as the effects of 
the current economy. Our close management of planned accessions and 
losses, coupled with current force-shaping and personnel policies, will 
ensure we retain the most qualified capable sailors while adjusting our 
force towards the fiscal year 2013 end-strength of 62,500 sailors.

                     READY NOW--AND INTO THE FUTURE

    The administration recently published ``Sustaining Global 
Leadership: Defense Priorities in the 21st Century'', in which the 
requirements of the Joint Force of 2020 are described. The document 
explicitly makes clear that the RC will be a valued participant of that 
Joint Force in stating ``Over the past decade, the National Guard and 
Reserves have consistently demonstrated their readiness and ability to 
make sustained contributions to national security. The challenges 
facing the United States today and in the future will require that we 
continue to employ National Guard and Reserve forces.'' The Force of 
the future is described as versatile, reversible, ready, and cost-
efficient--all traits of today's RCs generally and the Navy Reserve 
specifically. The document speaks to an opportunity for the RC to 
leverage the gains of the last decade in capability and readiness and 
apply them to a Defense environment where agility, on-demand expertise, 
and innovation are placed at a premium. Navy Reserve leadership must 
provide a Force ready to perform those missions it is able to do, as 
efficiently and effectively as possible, in order for the AC to focus 
on those missions where the AC must provide the solution. At the same 
time, Navy must plan and program for RC use of the ``Assured Access'' 
authority to ensure the best Total Force Navy response and support of 
combatant commander mission sets.
    Our Navy Reserve is relevant and capable today because we made 
conscious decisions to invest in our people and our equipment, we have 
assigned them real and meaningful work, and we have honored the support 
of our families and our employers. In the future, we need to ensure our 
sailors continue to have the training and equipment they need to 
maintain their readiness, and that our families have the tools needed 
to remain resilient.
    Upon assuming the office of Chief of Navy Reserve, I authored a 
memo to Navy leadership detailing how I thought the Navy Reserve would 
look when the Navy Total Force is ``winning.'' Some of the concepts I 
envisioned included:
  --There would be seamless transitions (to include pay and personnel 
        records) from AC to RC and back again;
  --There would be expanded service options to allow sailors to ``stay 
        Navy'' while achieving true life/work balance;
  --Navy Reserve sailors would continually have real and meaningful 
        work to be performed during Active-Duty periods;
  --Navy Reserve would be known for world-class customer care and 
        support for all members and their families;
  --Navy Reserve would be valued by Navy leadership for efficiently and 
        expeditiously providing expert capabilities for new Navy 
        requirements;
  --Navy Reserve would establish and maintain a high state of 
        readiness;
  --Navy would implement RC-to-AC transition policies and use our 
        presence throughout the country to assist Navy in meeting 
        recruiting goals;
  --The Navy Reserve would be recognized as an integral part of the 
        Navy Total Force by all sailors and AC leaders; and
  --Navy Reserve would become leaders in distributive work using 
        technology and best practices.
    These initial ideas served as a roadmap for success in supporting 
and improving the Total Force, and were the impetus for developing 
Ready Now: The Navy Reserve Strategic Plan. The strategic plan has 
driven process improvements in each of the past 3 years that have 
enabled our sailors to serve more effectively while ensuring a more 
seamless integration of the Navy Reserve with the Navy as a whole. The 
Strategic Plan is updated every year with new ``strategic initiatives'' 
that help prioritize and coordinate the efforts of key stakeholders 
throughout the Force. We have achieved many successes with our 
strategic initiatives--as a Navy Reserve Force, as a Navy Total Force, 
and as a DOD force.
    The Navy Reserve's fiscal year 2013 Operations and Maintenance 
(OMNR) budget request of $1.303 billion (including OCO funding) will 
continue to provide the Joint Force with the readiness, innovation, and 
agility to respond to any situation. In doing so, the true prize for 
our sailors and the Navy alike will be real and meaningful work as part 
of ``America's Navy: A Global Force for Good.''
    The Navy Reserve is a force for innovation across all spectrums, 
but it is especially evident in the area of information technology 
(IT). IT is critical to everything we do as a Navy, and the Navy 
Reserve has led the Navy in several IT efficiency initiatives. For 
example, the cost-per-sailor for IT support for the Reserve Force has 
been reduced by 43 percent since 2008--a total cost savings of $62 
million. The Navy Reserve executed these efficiencies while leading the 
Navy in legacy network reduction, data center consolidation, and 
account management.
    The Navy Reserve is progressing with the first DOD/DON-approved 
wide-scale commercial Wi-Fi access deployment to all Navy Reserve 
facilities. This project provides SELRES the capability to complete 
their Navy Reserve training and readiness requirements at a fraction of 
the expense of equipping each member with hardware workstations while 
simultaneously improving sailor satisfaction. The updated technology 
employed in the new Navy Reserve Homeport will maximize the efficiency 
and effectiveness of the force through easier and more secure 
information management and sharing. As a result of previous efforts to 
explore new network access methodologies, Secure Remote Access is now 
available to the entire Navy. This initiative empowers the workforce to 
quickly and securely access their digital resources from any location, 
using any computer, at any time. Also, to mitigate mission degradation 
due to budget marks, cost-saving measures have been maximized in 
several areas, including contracted network services. These measures 
enabled Navy Reserve to successfully operate under the substantially 
decreased budget with minimal impact to the mission effectiveness of 
the Reserve Forces.
    The Navy Reserve continues to modernize the Navy Reserve Data 
Warehouse. To date, requirements analysis have optimized and 
streamlined 191 existing reports in the current system to 23 reports in 
the new system, while the technology modernization effort will expand 
the number of connections to authoritative data sources from 4 to 12 
systems. This will increase the breadth and depth of data available to 
support headquarters comparative and predictive analysis needed to more 
efficiently and effectively support readiness efforts for our Reserve 
sailors.
    Ensuring our Reserve Force has the proper equipment to bring our 
military acumen to bear is one of my ongoing priorities. I thank the 
Congress for the support they provide the Navy Reserve in the many 
appropriations for the Force. In particular, the Navy and the Joint 
Forces benefit greatly from the Congress's support for recapitalizing 
Fleet Logistics aircraft by procuring C-40A airframes. The C-40A 
``Clipper'' is a Navy Unique Fleet Essential Airlift (NUFEA) aircraft 
that provides flexible, time-critical inter- and intra-theater air 
logistics support to Navy Fleet and Component Commanders as well as 
providing logistical support for the Navy Fleet Response Plan. The C-
40A is a medium lift cargo aircraft, equipped with a cargo door and 
capable of transporting up to 36,000 pounds of cargo, 121 passengers, 
or a combination of each. The C-40A is the designated replacement for 
the Navy Reserve's legacy C-9B and C-20G aircraft. Aircraft 
recapitalization of the C-9B and C-20G is necessary due to increasing 
operating and depot costs, decreasing availability, inability to meet 
future avionics/engine mandates required to operate worldwide, and 
continued long-term use of the C-20G in the harsh desert environment. 
The C-40A has significantly increased range, payload, and days of 
availability compared to the C-9B and C-20G, and has the unique 
capability of carrying hazardous cargo and passengers simultaneously. 
Navy C-40A detachments are forward-deployed 12 months per year to 
provide around-the-clock support to the U.S. Pacific Command, U.S. 
Central Command, and U.S. European Command Areas of Responsibility. 
Additionally, these cargo airplanes are an integral first-responder in 
emerging Humanitarian Assistance/Disaster Relief core mission sets. 
Three additional aircraft are required to complete the minimum, risk-
adjusted C-40A procurement plan of 17 aircraft which will complete the 
divestiture of the C-9Bs and C-20Gs. I am greatly appreciative of this 
Congress's support for the purchase of a 14th C-40A for the NUFEA 
Fleet. Congressional support for the Navy Reserve C-40A program has 
placed the VR fleet closer to realizing a more robust and cost-
efficient NUFEA capability.
    The National Guard and Reserve Equipment Appropriation (NGREA) also 
funds equipment for the Navy Reserve. Unlike most other appropriations, 
NGREA provides important, in-execution year flexibility to address 
equipment needs of the Force. NGREA has allowed us to purchase 
expeditionary warfighting equipment for the Naval Expeditionary Combat 
Enterprise in support of operations in Iraq and Afghanistan, essential 
training upgrades in support of the adversary mission, and warfighting 
and personal protection equipment for Navy Special Warfare units. For 
example, NGREA funding allowed for the procurement of 10 Surface 
Amphibious Navy maritime prepositioning force utility boats (MPFUBs). 
These boats replaced the LCM-8s utilized for Joint Logistics Over the 
Shore (JLOTS) Navy Beach Group Surface Reserve training missions, 
providing an essential training upgrade. We augmented these purchases 
with additional OMNR funding to provide for spare parts, etc., for the 
boats life-cycle maintenance.
    While Navy Reserve recognizes recent challenges regarding the 
execution of NGREA funding, we pledge continued emphasis to utilize 
this valuable appropriation to address the needs of the Force. We will 
continue to demonstrate a superior level of stewardship of these 
important taxpayer dollars. I thank you for all the support you have 
provided to the Navy Reserve through this appropriation in the past.
    The readiness, innovation, and agility of the Navy Reserve keep RC 
sailors at the leading edge of Fleet operations. For example, Selected 
Reserve sailors are literally writing the book on the shipboard 
operation and tactical employment of the MQ-8B Fire Scout, a vertical 
takeoff and landing unmanned aerial vehicle (VTUAV). In 2011, Reserve 
sailors took part in the Fire Scout deployment with helicopter 
antisubmarine squadron light (HSL) 42 aboard USS Halyburton (FFG 40), a 
dynamic and successful deployment from start to finish. Currently, 
Reserve sailors from HSL-60 are participating in a Fire Scout 
Deployment with USS Simpson. Also, sailors from HSL-60 are deployed 
with USS Elrod to provide a Navy ``proof of concept'' for Night 
Airborne Use of Force, a law enforcement mission under tactical control 
of the United States Coast Guard. As more capabilities are brought to 
the fleet for employment, Navy Reserves' ``can-do'' attitude and legacy 
provide Navy leadership with important options for critical force 
allocation decisions.

                               CONCLUSION

    This is my fourth year appearing before your subcommittee. I am 
humbled by the accomplishments of the sailors in our Navy Reserve and 
the Navy, and I am truly thankful for the support the Congress has 
provided in our quest to achieve a true Total Force. On behalf of the 
sailors, civilians, and families of our Navy Reserve, thank you for the 
continued support within the Congress and your commitment to the Navy 
Reserve.

    Chairman Inouye. Thank you, Admiral.
    General Stultz.

STATEMENT OF LIEUTENANT GENERAL JACK STULTZ, CHIEF, 
            ARMY RESERVE, UNITED STATES ARMY
    General Stultz. Mr. Chairman, Senator Cochran.
    First of all, it's an honor to be here, and thank you for 
all the support that you continue to give our soldiers and our 
families and our Nation.
    On behalf of the 205,000 soldiers in the Army Reserve that 
are serving our Nation, what I refer to as a national treasure. 
And I think what epitomizes what those soldiers are all about 
is a young soldier that I brought with me today.
    So, instead of being very eloquent in an opening statement 
and everything, I just wanted to introduce him to you. Seated 
to my left is Sergeant Daniel Burgess and his wife, Jeanette.
    Sergeant Burgess is from Twinsburg, Ohio, which is in the 
Cleveland area, and belongs to a psychological operations unit 
up there. Sergeant Burgess was in Afghanistan last year, and he 
was in southern Afghanistan attached to the Marines.
    Out on a mission as a psychological operations (PSYOPS) 
sergeant, helping work with the local Afghans to get them to 
show the Marines locations of improvised explosive devices 
(IEDs) and other dangers to protect them, while doing that, he 
himself stepped on an IED and he lost his leg with severe 
wounds to the rest of his body and mild traumatic brain injury 
(TBI).
    And Jeanette said the first thing he said when she 
contacted him when he got to Germany was, I'm not getting out. 
I'm staying in.
    And today, he is down in Fort Sam Houston, at the warrior 
training brigade rehabbing, so he can get back in the force. 
That epitomizes what, why we're here. We're here because of 
them.
    And we're here to say, we've got to make sure we're doing 
everything within our power, in an era where we are looking to 
save money and reduce debt, but we cannot afford to shortchange 
these great soldiers. Because they are protecting our Nation 
and they are our first line of defense.

                           PREPARED STATEMENT

    And as Admiral Debbink said, they are indispensable because 
our Army can't do what it does without our Army Reserve. We are 
an indispensable force for them.
    And so, I just use him as the symbol of why I'm here, and I 
look forward to your questions, Sir.
    [The information follows:]

         The United States Army Reserve 2012 Posture Statement

    The annual Army Reserve Posture Statement is an unclassified 
summary of Army Reserve roles, missions, accomplishments, plans, and 
programs. The 2012 Army Reserve Posture Statement also addresses the 
support required by the Army Reserve to continue its transition to an 
operational force during fiscal year 2013.
    Unless otherwise noted, all statistics and facts are current 
through March 2012.
    This document is available on the Army Reserve Web site at: 
www.usar.army.mil.

                                                        March 2012.

        PROVIDING INDISPENSABLE CAPABILITIES TO THE TOTAL FORCE

    Never before in the history of our Nation has the United States 
Army Reserve been more indispensable to the Army than it is today. 
Forged through 10 years of persistent conflict across the globe, the 
Army Reserve has out of necessity evolved into an indispensable part of 
the operational force. Steady demands for Army Reserve enabler 
capabilities introduced a new paradigm of interdependence within the 
Total Force that changed the structure of our defense strategy, 
ushering in an era of reliance on an Operational Reserve as part of our 
national security architecture.
    The Army Reserve is a foundational element providing operational 
and strategic depth to our military. As a key component of the Total 
Force, the Army Reserve provides key enabler capabilities to the Army; 
including 100 percent of the Army's Theater Engineer and Civil Affairs 
Commands, Training Divisions, Biological Detection Companies, Railway 
Units, and Replacement Companies. Our professional men and women 
support Army needs in many other fields such as transportation, 
logistics, supply chain management, law enforcement and public safety, 
healthcare, telecommunications, information technology, finance, legal 
services, and human resources.
    Continued investment in the Army Reserve as an enduring operational 
force places it on a solid path to support combat operations and 
theater security cooperation missions worldwide. As operations draw 
down in Iraq and Afghanistan, it is essential that we maintain the 
right mix of forces and professional personnel with operational 
experience and relevant skill sets. The Army Reserve Forces provide 
critical enablers to the Active component (AC) as a complementary and 
essential capability--not a redundant force--allowing the AC structure 
to focus around more complex formations.
    In years past, we allowed our most seasoned and best-trained 
soldiers to leave the Army during postconflict drawdowns. In the 
current security environment this is not an option. One of our key 
initiatives this year is to work with the Army to create a continuum of 
service program to retain this pool of experienced, talented soldiers 
through continued service in the Reserve components. Our goal is to 
inspire soldiers to a lifetime of military service, which includes 
seamless transitions between Active and Reserve statuses, as well as 
between Reserve categories and civilian service, providing variable and 
flexible service options and levels of participation consistent with 
Department of Defense manpower requirements.
    Everything we do within the operational and institutional Army 
Reserve supports the Army Force Generation (ARFORGEN) model. We 
progressed from a demand-based, theater-request dependent, reactive 
ARFORGEN, to a 5-year supply-based ARFORGEN, providing much needed 
predictability to our soldiers, their families, and their employers. 
Today, every soldier knows his unit's available force pool date and has 
the expectation that they will be used to support ongoing operations or 
theater security cooperation missions worldwide.
    Our biggest challenge is manning. We need the Congress's support 
for our fiscal year 2013 budget request for recruitment and retention 
incentives, and transition incentives for soldiers leaving the Active 
component during the drawdown, to allow us to shape the force with less 
reliance on cross-leveling to offset our mid-grade strength imbalances. 
Our current full-time support model remains a Strategic Reserve legacy. 
We need the support of the Congress for key policy modifications to 
change personnel support processes. We are currently working with the 
Army to create additional full-time support capability to provide much 
needed continuity in operational units and generating force units. 
These policy modifications will allow eligibility for enlistment and 
reenlistment bonuses, education loan repayment, and other incentives.
    One area where our focus will remain steadfast is our support 
programs for soldiers and family members, especially in remote 
locations without access to installation-based support. The past decade 
has taught us a lot about the physical and emotional needs of soldiers 
and families, and we have taken steps to reduce stress on the force. 
We've implemented a Comprehensive Soldier Fitness program to train our 
soldiers, civilians, and family members to both maximize their 
potential, and prepare them for the physical and psychological 
challenges of sustained operations. We have taken a holistic approach 
to suicide prevention Army-wide, integrating educating the force with 
efforts to reduce the stigma of seeking behavioral healthcare.
    We are also reaching out and providing resources to geographically 
dispersed soldiers and family members and involving family members in 
suicide prevention training. Not only have we established the Fort 
Family 24/7 hotline for soldiers and family members to access services 
at remote locations, we continue to establish Army Strong Community 
Centers (ASCC) in remote locations to allow soldiers, family members, 
retirees, and veterans access to installation-like support at remote 
locations.
    Working together, with the continued support of the Congress, we 
can meet the challenges we face in implementing a continuum of service 
and ``Soldier for Life'' concept, a sustainable ARFORGEN cycle for the 
Army Reserve, and demonstrate the positive investment that our Nation 
makes in its Army Reserve. A relatively small investment in the Army 
Reserve provides security to the homeland and supports the full range 
of military operations at home and abroad. The value added of the Army 
Reserve and its critical enabler capabilities is that the Nation pays 
the full cost for a Reserve component soldier only when he/she is 
mobilized.
    As we look to the future, our commitment is steadfast and the focus 
is clear: the Army Reserve is an essential part of the Total Force, and 
we will do all we can to ensure this combat seasoned, highly skilled 
force of warrior citizens remains ready to support a full range of 
military operations well into the future. We provide a solid, 
experienced foundation for expansibility. The strategic decisions and 
direction chosen now will set the framework for the next decade. With 
your help and the help of those who support America's operational Army 
Reserve, we will put this organization on a solid path to success for 
our soldiers, civilians, and family members; our future leaders; and 
our national security.

                         Lieutenant General Jack C. Stultz,
                                 Chief, United States Army Reserve.
                 Command Sergeant Major Michael D. Schultz,
                Command Sergeant Major, United States Army Reserve.

                              ACHIEVEMENTS

Human Capital
    Personnel.--A new Automated Senior Enlisted Promotion Board Process 
that uses standardized criteria ensures the best-qualified soldiers are 
selected for Master Sergeant, First Sergeant, and Sergeant Major 
positions. Implementation of the Army Reserve Theater Individual 
Replacement Operations policy and procedures more effectively achieves 
the Army Reserve goal for individual replacements to report to theater 
within 60 days of the initial request. Army Force Generation (ARFORGEN) 
Manning Strategy focuses on ``unit'' rather than individual manning, 
thereby allowing a unit to train and proceed through the ARFORGEN cycle 
as a cohesive unit. This shift in strategy allows commanders and 
noncommissioned officers to focus on leading and developing their 
organizations without the distraction of constant cross-leveling. Since 
force structure defines the needs of individual units, this approach 
brings personnel and force structure closer to one another.
    Surgeon.--The Medical Management Activity in 2011 reviewed more 
than 6,000 medical profiles, of which 50 percent were amended and 20 
percent were sent for an administrative retention board, allowing these 
soldiers to remain in the Army Reserve. Since the establishment of the 
Reserve component Medical Support Center in 2011, the Army Reserve now 
has better visibility of soldiers progressing through the Medical 
Evaluation Board process, with more than 540 packets submitted for 
review and adjudication.
    Chaplain.--The Army Reserve Strong Bonds program continues to be a 
success story as 12,500 individuals participated in more than 300 
events. The curricula expanded to provide more skills training to 
soldiers, their spouses, and their children. The program provides the 
tools to enable families to not just survive but thrive in the current 
environment of high operations tempo and multiple deployments.
    Employer Partnership of the Armed Forces Program.--Launched a 
state-of- the-art Career Portal in November 2010. The portal grew from 
zero to nearly 30,000 registered users and the number of Employer 
Partners more than doubled to 2,500 through September. The Army Reserve 
has also launched a partnered soldier training program with GE 
Healthcare.
    Family Programs.--Opened a fourth Army Strong Community Center 
pilot site in conjunction with Clackamas Community College in Oregon 
City, Oregon. The Fort Family Support and Outreach Center responded to 
multiple crisis and disaster situations while maintaining contact with 
the families of deployed Army Reserve soldiers. During fiscal year 
2011, Fort Family had 28,340 successful contacts with soldiers and 
families, providing information and assistance for many issues, 
including TRICARE, legal matters, retirement, the GI Bill, and child 
and youth programs.

Materiel
    New Equipment Fielding Facilities enabled the Army Reserve to issue 
more than 3,800 trucks/trailers and 63,700 support items, allowing the 
Army Reserve to have 91 percent of equipment on hand, with 67 percent 
modernized, putting us on par with the Active component. In support of 
equipping missions, the Army Reserve has executed more than 19,500 
commercial movements of more than 340,000 pieces of equipment. The Army 
Reserve combined its Fleet Management System and its Logistics 
Information Systems Support Contract into one product, thereby reducing 
costs from $18.4 million to $14.4 million--a 22-percent savings. 
Additional savings were achieved by relocating the tactical computers 
system for new equipment fielding in a leased facility from Hopewell, 
Virginia, to Gaithersburg, Maryland, in a Government-owned facility--
realizing an additional savings of $288,000 a year.
    In addition, we equipped the first unit in the Army with the new 
Palletized Load System and the new M915A5 Line Haul Tractors and 
executed Operation Clean Sweep to improve the inventory of equipment 
through the Army Reserve, re-establishing property book control of $105 
million of equipment.

Readiness
    The Army Reserve has transitioned to an Operational Force within 
the Army by implementing a Supply Based Army Force Generation process 
in order to provide needed capabilities to the Army's Mission Force 
each year, while providing predictability to soldiers, families, and 
employers. The result is an integrated, rotational force that achieves 
cyclic unit readiness for all Army Reserve rotational units over a 
defined, predictable planning horizon.
    A wide array of missions in the unit's available year can include 
deployments in support of named operations, theater security 
cooperation (TSC) missions, humanitarian assistance, or domestic 
response missions. The Army Reserve continues to provide approximately 
19,000 soldiers annually in organized units to the Army for worldwide 
named operations as well as contingencies. Many of these units satisfy 
joint capability requirements for types of organizations only found in 
the Army Reserve. One such unit is an aviation task force established 
in October 2011 from the 11th Theater Aviation Command to provide the 
medium lift, heavy lift, and MEDEVAC capability required to support 
NORTHCOM in the Defense CBRN Response Force mission.
    The Army Reserve continues to stand ready to provide forces on an 
as-required basis in support of the Nation. As we continue to sharpen 
our focus on providing the proper force, appropriately trained, at the 
right time and place throughout the world, we will move ever closer to 
our strategic vision--the Army Reserve as a cost effective, trained, 
ready, and relevant enabling security force for the Nation.

Services and Infrastructure
    Services and Infrastructure Core Enterprise (SICE) is the Core 
Enterprise that underpins all of the platforms and provides the support 
services that enable an operationalized Army Reserve. The fiscal year 
2011 focus centered on the completion of all assigned 2005 Base 
Realignment and Closure (BRAC) tasks to construct 125 facilities and 
close and consolidate 176. Through this significant effort, the Army 
Reserve facilities portfolio achieved a 17-percent improvement in 
facility age, modernization, and operational capability that directly 
supports training, equipping, and manning strategies in support of 
ARFORGEN.
    To achieve efficiencies in Army Reserve funded training 
installations (Fort McCoy, Fort Hunter Liggett, Fort Buchanan, Army 
Support Activity--Dix) the Army Reserve consolidated Director of 
Logistics activities under Army Materiel Command, as well as the 
consolidating and transferring Information Management activities under 
NETCOM.
    All challenges to our infrastructure (Army Reserve Centers, 
Installations, and Communications Networks) to include tornadoes, 
hurricanes, and flooding were met with a determination that restored 
facilities and communications quickly and ensured mission 
accomplishment. As a participating partner at the Department level, the 
Army Reserve is very close to achieving a developed and synchronized 
Facility Investment Strategy and is a leader in environmental 
conservation and energy sustainability. The Army Reserve continues to 
maintain Military Technician strength at levels mandated by law and is 
actively working toward transforming the civilian workforce to support 
the Operational Army Reserve.

    ----------------------------------------------------------------

                        ARMY RESERVE PRIORITIES

  --Create an enduring operational force.
  --Sustain readiness in our deployable units to ensure they are ready 
        to deploy as part of the Army's Mission Force.
  --Continue to provide the best trained, best led, best equipped 
        soldiers and units to Combatant commanders to achieve U.S. 
        objectives and ensure national security.
  --Grow an integrated Human Capital Strategy (Continuum of Service) 
        that facilitates the movement of soldiers between Active and 
        Reserve service, and civilian employment over a lifetime of 
        service.
  --Recruit and retain the best and brightest warrior-citizens; 
        transition the same from the Active component during the Army 
        drawdown; sustain a robust and capable operational Army 
        Reserve.
  --Provide citizen-soldiers and their families with the best care, 
        support, and services to ensure the best quality of life, 
        health, and vitality of the All Volunteer Force.
  --Build and maintain partnerships with industry to facilitate 
        warrior-citizen contributions to both a prosperous economy and 
        a skilled, experienced, and capable Army.
    To advance these priorities the Army Reserve must: Obtain from the 
Congress full support and necessary authorities, in accordance with the 
Army Reserve fiscal year 2012 budget request.

    ----------------------------------------------------------------

    ----------------------------------------------------------------

                         THE PRESIDENT'S BUDGET

    The President's budget will allow the Army Reserve to:
  --Continue Army Reserve Internal Transformation to an Enduring 
        Operational Force.
  --Shape Army Reserve end-strength by recruiting new soldiers, 
        retaining the best and brightest, and transitioning Active 
        component soldiers into an Operational Army Reserve Force.
  --Equip units and soldiers to train and fight in a full range of 
        military operations to achieve U.S. objectives and ensure 
        national security.
  --Provide quality medical and dental services and support to soldiers 
        and their families.
  --Sustain quality Army Reserve installations and facilities.

    ----------------------------------------------------------------

                    THE POSTURE OF THE ARMY RESERVE:
                 TODAY'S READINESS AND STRATEGIC AGENDA

    The Army Reserve is a trained, experienced, resilient force of 
warrior-citizens supported by strong families and employer 
partnerships. Forged through the persistent conflicts across Iraq and 
Afghanistan, the Army Reserve is an indispensable provider of essential 
enabler capabilities to the Total Force. The Army Reserve is prepared 
to provide the Nation with both versatile support to the Joint Fight 
and flexible response options to contingencies at home and abroad. The 
Operational Reserve is essential for building expansibility within the 
Total Force. The Army Reserve's 205,000 citizen soldiers across the 
Nation form the Army's best connection to hometown America. These 
warrior-citizens are the best ambassadors for the Army in their 
communities across this great country.
    Having reconfigured organizationally and functionally to adapt to 
the demands of sustained operational deployment, the Army Reserve must 
now focus on sustaining its operational capacity to meet diverse and 
unpredictable threats--while operating in an era of fiscal austerity. 
Together, the Army and the Army Reserve will leverage the tremendous 
benefits of the multicomponent Total Force and make the most of all 
available opportunities to preserve the investment in trained and ready 
soldiers and units. The Army cannot accomplish its mission without the 
Reserve component. Much of the support capability and critical 
specialties reside predominantly or exclusively in the Army Reserve. 
Such units include civil affairs, medical, transportation, engineer, 
and military information support operations. These are indispensable 
capabilities to the Total Force.

Strategic Agenda
    The Army Reserve Strategic Agenda reflects the most essential 
objectives the Army Reserve must achieve based on both Army and Army 
Reserve Leadership guidance and direction. Nested within the Army 
Reserve 2020: Vision & Strategy, the Army Reserve Strategic Agenda 
identifies specific priorities to optimize the application of 
collective effort and fiscal resources. The fiscal year 2012 Strategic 
Agenda focuses on key components of an operational force.

Access
    The Total Army Force relies on critical enabler capabilities 
provided by trained and equipped Army Reserve soldiers and units that 
are ready to respond to global and domestic requirements. An ongoing 
collaborative effort across the Department of Defense has resulted in 
the addition of expanded access to the Reserve components. New 
authorities contained within the 2012 National Defense Authorization 
Act allow for access to the Reserve component for missions other than 
war, with the proper planning, programming, and budgeting. With access, 
Army Reserve personnel can mobilize in support of specified missions, 
such as Theater Security Cooperation. This allows the Total Force to 
leverage the unique cost benefits of using a seasoned, exceptional 
Reserve Force in a sustained operational role.

Funding for Operational Reserve
    As military forces withdraw from Iraq and Afghanistan, and overseas 
contingency operations (OCO) funding is significantly reduced, 
continued use of the Army Reserve in an operational role is contingent 
upon adequate and assured funding in the base budget. With adequate and 
assured funding, the Army Reserve will continue to provide the required 
enabler capabilities to support the Army's ARFORGEN readiness cycle. 
Funding in the Base Budget is crucial for the required training events 
and supporting costs necessary for use of the Army Reserve operational 
capabilities. Without assured funding in the base budget, Army Reserve 
Forces cannot be a full participant in ARFORGEN--thus degrading 
readiness levels. Over time, the hard-won operational expertise of Army 
Reserve soldiers will be lost. The Army Reserve will not be ready for 
planned or contingency operations at home or abroad. As a result, 
critical Army Reserve enabler availability as part of the Total Army 
Force will be limited to use as a strategic Reserve. In today's 
security environment, the Army and the Nation cannot afford anything 
less than an operational force. Therefore, the Army Reserve will 
continue to work with the Army to ensure adequate and assured funding 
in the Army base budget and Program Objective Memoranda for planned use 
of Army Reserve operational capabilities.

Continuum of Service
    Continuum of Service (CoS) is an integrated Human Capital 
management strategy for the Total Army. The future of retaining the 
extraordinary capabilities and experience of our soldiers now resides 
in how well we can implement change in the way we manage our soldiers 
in the face of constrained resources. Creating a management strategy 
that facilitates and supports the transparent movement of individuals 
between the Active component, the Reserve components, and civilian 
careers is essential to preserving a cost effective, expansible 
foundation of talent and experience for the future.
    The intent of a continuum of service is to not just allow but to 
encourage and incentivize soldiers to continue serving the Army while 
preserving the Army's investment. We must offer and manage varying 
levels of participation from the Active component to the traditional 
Reserve or to the Individual Ready Reserve. It is a paradigm shift to 
attempt the management of one force across the Total Army. This will 
require considerable transformation to the current, rather inflexible, 
human capital management system in each component. However, this shift 
will poise us to best meet the impact of anticipated fiscal 
constraints. CoS provides an efficient and cost-effective solution to 
retaining the investment and experience of our best soldiers, building 
the foundation of expansibility and reversibility into our force in the 
future.
    There are many aspects to this initiative and it will require 
perseverance to change each institutional process that creates barriers 
or separation. This ranges from the creation of an Individual Ready 
Reserve (IRR) Affiliation Program and Army Transition Process 
transformation. These forward-thinking institutional policy changes 
will provide an underpinning to the best, most efficient practices in 
human capital management.

Institutionalize Army Force Generation
    Army Force Generation (ARFORGEN) is a cyclic process the Army uses 
to man, equip, and train all units to meet combatant commander 
requirements. ARFORGEN is designed to focus training, training support, 
and other limited resources for units in a timely, predictable manner 
as they prepare for operational employment using a common set of 
standards. Approximately one-half of Army capabilities are in the 
Reserve component. This includes the Combat Support and Combat Service 
Support units of the Army Reserve. The Total Army Force relies upon 
these Army Reserve enablers to be ready and fully integrated as part of 
an expeditionary force within the time frame when they are needed. To 
the Army Reserve, ARFORGEN goes beyond process and policy adaptation, 
it includes cultural change both within the Army and the Army Reserve.

Full-Time Support
    Full-time support (FTS) is an essential element of the Army 
Reserve's ability to conduct training, personnel, and administrative 
functions and leading Army Reserve units in the operational force. 
Historically, the Army Reserve has been under resourced in full-time 
support. This has been mitigated by the use of overseas contingency 
operation funding and leveraging the use of volunteers to bring 
operating units to required readiness levels. Despite the war time 
demands placed on our Nation's ground forces throughout the last 
decade, FTS manning levels in the Army Reserve have remained, on a 
percentage basis, the lowest among the service branches. To increase 
readiness of operational units in the future, assets and personnel 
policy will be shifted to direct support to the Operational Army 
Reserve. Note: FTS was compared by totaling all AGR, Military 
Technicians, and other civilian positions.

                        ARMY RESERVE COMMITMENTS

19,156 Army Reserve Soldiers are Currently Mobilized and Deployed 
        Around the World \1\
    \1\ As of February 24, 2012. Does not include Individual Ready 
Reserve and Individual Mobilization Augmentee Soldiers. (Source: MDIS 
Mobilization and Deployment Tracking Information System)
    The Army Reserve continues to provide critical enabling 
capabilities worldwide, supporting the Total Force across a range of 
military operations. Missions include theater security cooperation, 
humanitarian assistance, and contingency operations. Army Reserve 
Theater Commands are uniquely capable of providing global support--
addressing specific and emerging geographical and political issues as 
they arise. Missions include theater security cooperation, humanitarian 
assistance, and contingency operations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        THE FISCAL YEAR 2012 BUDGET REQUEST: WHERE WE ARE GOING
                             HUMAN CAPITAL

    ----------------------------------------------------------------

   CRITICAL HUMAN CAPITAL PROGRAMS THAT SUSTAIN AN OPERATIONAL ARMY 
                                RESERVE

  --Manning on Operational Army Reserve.
  --Medical Non-Ready Initiative.
  --Yellow Ribbon Reintegration Program.
  --Medical and Dental Readiness.
  --Medically Not-Ready Soldiers for Case Management/Referral.
  --Post Deployment Health Reassessments.
  --Strong Bonds.
  --Manpower for Family Programs Mission Requirements.
  --Communication and Outreach to Soldiers and Families.
  --Family and Soldier Support thru Responsive and Relevant Services.

    ----------------------------------------------------------------

Personnel Management

            Manning an Operational Army Reserve
    The mission of our incentives program, according to the Army 
Reserve Manning Strategy, is to focus our funds in support of the 
supply-based ARFORGEN. This will focus the use of incentives to ensure 
that ARFORGEN cycle Aim Points for unit required strength are met. We 
will tailor our incentives programs and priorities, as specified on the 
Selected Reserves Incentives Program (SRIP) List, to enable pinpoint 
manning in the Recruit Quota System (REQUEST). This occurs by 
diversifying types of incentives to meet a myriad of personnel 
requirements for the current Army Reserve operational environment. This 
will reduce overall costs and increase the readiness posture of the 
Army Reserve.

Healthcare
            Medical Non-Ready Initiative
    The Medical Non-Ready Initiative aggressively expedites medical 
board evaluations to minimize hardships to both soldiers and families 
and return our most valuable resources back to our formations. The 
Initiatives places emphasis on leader education and involvement, 
coupled with the processes to gain rapid, unconstrained, and inclusive 
treatment through the medical system for our wounded, ill, and injured 
soldiers. As for the way ahead, the Army Reserve will leverage the 
following medical readiness programs Reserve Health Readiness Program, 
Army Selected Reserve Dental Readiness System, The Psychological Health 
Program, Medical Management Activity, Reserve Component Soldier Medical 
Support Center (RCSMSC). We will also use case managers to monitor the 
medically non-ready population, coordinate with the soldier and the 
command for required/requested medical evaluations, and gather 
information for review by the Medical Management Activity or the 
Regional Support Command (RSC) Surgeons for appropriate profiling. 
Soldiers who have medical conditions that warrant permanent profiles 
are issued one, and then referred to the Regional Support Command 
Personnel Health Service Branch for medical boarding action.
            Medical and Dental Readiness
    The Army Reserve is an enduing operational force, and as such must 
be medically ready to respond to immediate global requirements across 
the full range of military operations. Sixty-three percent of the Army 
Reserve is medically ready; numbers have been increasing from 24 
percent since October 1, 2008. Seventy-four percent of Army Reserve 
soldiers are dentally ready; numbers that have been positively 
increasing from 52 percent on October 1, 2008. Programs such as the 
Army Selected Reserves Dental Readiness System (ASDRS) have made a 
difference in improving baseline dental readiness. The ASDRS program 
covers examinations and dental treatment cost to convert an Army 
Reserve soldier to a deployable status.
            Medically Non-Ready Soldiers
    The Army Reserve's fully medically ready status means that more 
than one-third of our soldiers are not medically ready, meaning they 
cannot deploy to support worldwide missions if needed and are deficient 
in 1 of 5 measures (dental, periodic health assessment, routine adult 
immunizations, no deployment limiting conditions, or medical 
equipment). Fifteen percent of these soldiers are available but must 
complete a periodic health assessment or a dental screening in order to 
be deemed medically ready, and 11.3 percent have a medical condition 
that renders them temporarily or permanently nondeployable and either 
need additional care or are awaiting medical board determination on 
their ability to continue to serve.
    In 2011, the Army Reserve moved aggressively to reduce the number 
of medically nondeployable soldiers. The Army Reserve Surgeon, working 
with members of the Office of the Surgeon General and the Department of 
the Army, implemented two initiatives to review medical profiles and 
prepare soldiers for medical evaluation boards. First, the Medical 
Management Activity was established on January 3, 2011, to support the 
rapid evaluation of permanent medical profiles and improve the 
identification process of those soldiers who are not ready through 
increased use of the Medical Protection System (MEDPROS) and the 
electronic profile. Since the inception of the Medical Management 
Activity in 2011, more than 6,000 medical profiles have been reviewed, 
of which 50 percent were amended and 20 percent were sent for an MOS 
administrative retention board, allowing these soldiers to remain in 
the Army Reserve. The number of profiles requiring review decreased 
from 16,758 in January 2011 to 9,913 in November 2011. The number of P3 
and P4 profiles not requiring a medical evaluation board has steadily 
increased from 2,065 in January 2011 to 3,298 in November 2011.
    Second, the RCSMSC was established January 18, 2011, to review 
Medical Evaluation Board Packets and improve the medical boarding 
process. Since the establishment of the RCSMSC in 2011, the Army 
Reserve has better visibility of soldiers entering the Medical 
Evaluation Board process, with more than 540 packets submitted to 
military treatment facilities.
            Post-Deployment Health
    Repetitive deployments have significantly increased the strain on 
the Army Reserve Force. To assess post-deployment needs and to protect 
the health and well-being of soldiers who have redeployed from combat, 
our soldiers complete the Post-Deployment Health Reassessment.
    The Army Reserve is moving out aggressively to mitigate the effects 
of persistent conflict and build a strong resilient force. On March 4, 
2011, the Army Reserve Psychological Health Program concept plan was 
approved, and four Directors of Psychological Health began working in 
2011 to better meet the behavioral health needs of Army Reserve 
soldiers. Our case management program is expected to begin within the 
Army Reserve this fiscal year as well.

Family Support
            Yellow Ribbon Reintegration Program
    The Army Reserve promotes soldier and family resiliency through the 
Yellow Ribbon Reintegration Program that proactively reaches out with 
information, education, services, and referrals through all phases of 
the deployment cycle to more than 22,400 soldiers and 25,500 family 
members. Our ability to provide services and support resources to the 
Total Army Reserve Family (soldiers, family members, retiree recalls, 
civilians, and wounded warriors) is challenging due to the Army Reserve 
geographic dispersion. Yellow Ribbon events, of which there were more 
than 550 in 2011, allow units to build cohesion, morale, and 
camaraderie. We strive to ensure each family is healthy while preparing 
for, during and after a deployment. Attendance at Yellow Ribbon events 
helps build the networking and communication opportunities for 
geographically dispersed families of those deploying Army Reserve 
soldiers, and it maintains contact between them and their unit rear 
detachment personnel. We can identify and assist any at-risk family 
members easier through this method of gathering them together during 
the deployment. Yellow Ribbon events also provide a platform to 
demonstrate the energy, enthusiasm, and impact of local, regional, and 
national community and businesses leaders' support of our commands and 
individual soldiers who deploy.

    ----------------------------------------------------------------

    Attendance at Yellow Ribbon events helps build the networking and 
communication opportunities for geographically dispersed families of 
those deploying Army Reserve soldiers and maintains contact between 
them and their unit rear detachment personnel.

    ----------------------------------------------------------------

            Manpower for Family Programs Mission Requirements
    Army Reserve families continue to bear the challenges of a nation 
at war and adjust to the realities of an operational force. Army 
Reserve Family Programs must maintain a baseline level of skilled and 
quality professionals to provide responsive services and mitigate the 
corollary effects of family separations due to ongoing conflicts, 
humanitarian missions, and theater security cooperation missions. A 
skilled and quality family programs force directly affects the ability 
to maintain the infrastructure of programs and services that support 
geographically dispersed soldiers and families. Our family programs 
workforce must be robust enough to provide program standardization and 
stability; adaptive, full-spectrum staffing support; and responsive 
services that meet the complexities of supporting Army Reserve soldiers 
and families.
            Strategic Communication Outreach to Soldiers and Families
    An important family programs function is disseminating information 
and timely alerts about programs and services available 24/7, closest 
to where soldiers and families reside. The overarching family programs 
communication strategy employs a ``top-down/internal-to-external'' 
model, which deploys clearly articulated, aligned messages to the 
appropriate audiences through multiple delivery systems and events. 
This strategy includes a suitable mechanism for measuring program 
efficiency, while gaining a heightened awareness of customers' needs 
through feedback via surveys, one-on-one exchanges, and social media. 
The endstate is a consistent method of determining success in 
delivering the services that mean the most to soldiers and families.
            Family and Soldier Support Through Responsive and Relevant 
                    Services
    Family Programs is synchronizing its requirements for staffing, 
resourcing, and training with the ARFORGEN model. Programs focus on the 
command/unit and family partnerships to support soldiers' readiness and 
mitigate risk. The intent is to proactively establish a collaborative 
readiness pattern focused on geographically dispersed soldier and 
family programs support, training, and services to ensure families are 
resilient and prepared to meet the challenges of an operational force.

Spiritual Care
    Strong Bonds provides relationship skills training for married 
couples, families, and single soldiers. The various events empower 
soldiers to more fully connect with their loved ones. It is a holistic, 
preventive program committed to the restoration and preservation of 
Army families, even those near crisis. Strong Bonds is an Army program 
led by Army chaplains. More than 90 percent of those who have attended 
the program rate it positively. As a direct result, soldier and family 
readiness, resiliency, and retention increases. Availability of Strong 
Bonds programs is a required part of deployment cycle support plan for 
soldiers and families. Currently OMAR funding in the President's budget 
will provide for training materials, sites, and travel costs for 
soldiers and family members. The Strong Bonds events are continually 
being updated to meet the needs of our soldiers and families throughout 
the ARFORGEN cycle. These programs and events are critical to soldier 
and family readiness during and long after current deployments.

The Employer Partnership of the Armed Forces
    The Employer Partnership of the Armed Forces (EPAF) connects 
capability with opportunity. Our skilled servicemembers bring skills, 
reliability, and capability to the civilian workplace while the 
program's Employer Partners provide career opportunities.
    The Program is operated and funded primarily by the Army Reserve 
but supports the civilian employment and career advancement needs of 
members of all seven Reserve components, their family members, wounded 
warriors, and the Nation's veterans. The Army Reserve has dedicated 
staff, continual maintenance and upgrading of the Career Portal: 
(www.Employerpartnership.org). Army Reserve funding supports the Career 
Portal as well as the program support managers dispersed across the 
United States who provide direct assistance to both employer partners 
and job seekers.
    Employers recognize the benefits of the EPAF program. The program 
now has more than 2,500 employers participating, and the number is 
steadily growing. These Employer Partners are military-friendly and 
value the skills, experiences, and work ethic of those who serve.
    The Reserve components also benefit. Best practices and experience 
with cutting-edge technology and medical procedures flow between 
military and civilian organizations through EPAF's training 
partnerships. Access to career opportunities and partnered training 
initiatives also provide tangible reasons for separating Active 
servicemembers to continue serving in a Reserve capacity.
    In the next few years, thousands of Army Reserve and National Guard 
soldiers will de-mobilize and tens of thousands of Active Duty 
personnel will leave the military. The program's ability to connect 
these imminent job seekers with employment can make a positive impact 
on unemployment rates among our newest veterans. Accordingly, the 
Program is working with both the Office of the Secretary of Defense and 
the Department of the Army to formally incorporate EPAF into transition 
programs for the Active and Reserve members of all branches of service. 
EPAF strengthens our military, our economy and--most importantly--
strengthens our servicemembers and their families.

    ----------------------------------------------------------------

Army Reserve Chaplains
    Army Reserve chaplains come from our neighborhoods and communities; 
they reflect the culture and demographics of our Army Reserve. They, 
too, are warrior-citizens bringing civilian-acquired skills to the Army 
from their parish, hospital, and prison ministries. Army Reserve 
chaplains truly enhance the spiritual care of their civilian 
congregations due to their military service and understand the demands 
of such service on themselves and their own families.
    The chaplaincy has made great strides in reducing the number of 
shortages within our battalions and brigades. A fully manned Army 
Reserve chaplaincy allows for more regular and timely spiritual support 
through unit and area coverage. Much of this can be attributed to the 
affiliation and accession bonuses available to new Army Reserve 
chaplains as well as to tuition-assistance monies that help pay for 
seminary schooling.

    ----------------------------------------------------------------

                          continuum of service

    ----------------------------------------------------------------

    Continuum of Service is a Human Capital Management strategy that 
facilitates the movement of soldiers between the Active and Reserve 
service and civilian employment.

Who is Involved?
    A Continuum of Service Working Group is pursuing numerous 
initiatives, including potential changes to current policies to allow 
for more flexible service options.

Why Now?
    The Continuum of Service initiative seeks to retain a pool of 
experienced, talented soldiers through continued service in the Reserve 
components, thereby allowing the Army to reserve and expand its end 
strength as required.

What is Being Done?
    The Army Reserve has identified those policies that impede the ease 
of movement between components and has embarked on a strategy of 
implementing a new personnel management paradigm that meets the needs 
of an enduring operational force.

    ----------------------------------------------------------------

Continuum of Service is right for:
  --The Army: Allows the Army to retain a pool of talented and 
        experienced soldiers to support potential expansibility of the 
        Army in the future.
  --The Soldier: Offers opportunity to continue serving with varying 
        levels of participation over the course of a lifetime of 
        service.
  --The Times: Provides a cost-effective personnel management system 
        for the Army.
The flexibility of the Continuum of Service Human Capital Management 
        Strategy will:
  --Help retain a reservoir of talent and experience through incentives 
        and access to transitioning Active component personnel.
  --Ease movement between components and civilian employment by 
        incentivizing transition to the Army Reserve and expanding 
        support for civilian career opportunities.
  --Flexible Service Options--IRR Affiliation to Reserve unit, 
        Volunteer Only IRR options or Traditional Reserve service.
Integrated Human Capital Strategy:
    Focus is on change to Army regulations, policies, and procedures 
that can be acted on now.
            Policy
  --Modifications to existing policy and directives to manage the Army 
        as a Total Force.
  --Joint education programs.
            Processes
  --Integrated processes and systems for seamless transitions, along 
        with portability of benefits.
            Culture
  --Requires a culture change in the way the Reserve component is used 
        as an indispensable part of the Total Force.
Varying Levels of Participation:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Acronyms:
RC = Reserve component  <bullet>  IMA = Individual Mobilization Augment  
<bullet>  IRR = Individual Ready Reserve  <bullet>  TPU = Troop Program 
Unit
                               readiness

    ----------------------------------------------------------------

Critical Readiness Programs That Sustain an Operational Army Reserve
  --Sustain an Operational Army Reserve.
  --Sustain modern training equipment, facilities, and installations 
        that support rapid mobilization capabilities.
  --Protect the force, physical security, management of the Physical 
        Security Program.

    ----------------------------------------------------------------

Sustain an Operational Army Reserve
    The Army Reserve provides operational capabilities and strategic 
depth to the Army to meet national defense requirements across the full 
range of military operations. The Army Reserve participates in a full 
range of missions that support force generation plans. Units and 
individuals participate in an established cyclic or periodic cycle of 
readiness that provides predictability for combatant commands, the 
Total Force, servicemembers, their families, and employers. In their 
strategic roles, units, and individuals train or are available for 
missions in accordance with the national defense strategy. This force 
provides strategic depth and is available to transition to operational 
roles whenever needed. Accordingly, it is critically important that the 
Army Reserve provide capabilities and generate a force that is 
available to support Army needs. Properly sustaining the Army Reserve 
as an operational force means success in ongoing operations in which 
the Army Reserve now plays a vital role, as well as in future 
contingencies in which it will play a critical role.
            Mandays To Support an Operational Reserve
    The Army Reserve was successful in obtaining an approved training 
strategy to provide trained companies and brigade and battalion staffs 
to combatant commanders upon mobilization.
            Homeland Operations
    Homeland Defense, Homeland Security and Defense Support of Civil 
Authorities: These important missions require the unique enabler 
capabilities resident in the Army Reserve. Today, the Army Reserve 
provides seven aviation units in support of the Defense Chemical 
Biological Radiological Nuclear (CBRN) Response Force (DCRF). These 
units work directly with their Active Duty counterparts as the initial 
title 10 response force for CBRN or terrorist incidents. The Army 
Reserve provides an additional 12 units as part of the Command and 
Control CBRN Response Element.
    Responding to Defense Support of Civil Authorities (DSCA) 
situations, the Army Reserve provides all of the Army Emergency 
Preparedness Liaison Officer (EPLO) capability. These soldiers conduct 
valuable operations at various Federal, State, and local emergency 
operations centers during all phases of incident management operations. 
The Army Reserve provides the potential for additional incident 
response forces including, but not limited to, the following types of 
units:
  --medical aviation;
  --transportation;
  --engineer;
  --communications; and
  --civil affairs.
    These capabilities can be packaged with the appropriate command and 
staff structure to facilitate assistance to civil authorities. This 
packaging also provides necessary command and control of title 10 
Department of Defense resources in a defined joint environment. With 
approval of NDAA 2012 the Army Reserve can provide significant 
resources to support civil authorities in domestic disasters and 
emergencies.
    The Army Reserve's fiscal year 2013 budget request properly funds 
the Operational Reserve to ensure the force structure required for 
homeland operations. The requirement to maintain a specific portion of 
our soldiers on orders to support DCRF mission response time is 
critical to mission accomplishment and success. National level response 
goals to save lives and conduct search and rescue operations in the 
first 72 hours of an incident, requires immediate access to Army 
Reserve forces for these critical missions. Resourcing to purchase and 
maintain specialized commercial off-the-shelf equipment allows 
interoperability between the Army Reserve forces employed at an 
incident location with Federal, State, and local first responders.

Sustain Modern Training Equipment, Facilities, and Installations That 
        Support Rapid Mobilization Capabilities
    Sustaining modern training equipment, facilities, and installations 
is critical to successful mobilization of the Army Reserve within 
established timelines when needed. Army Reserve soldiers and units need 
to train on the same modernized equipment the Army uses in the field as 
well as access to modern facilities designed and maintained to 
sustainable standards. Timely deployments of forces with the skills 
needed for success in 21st-century engagements depends on congressional 
support.
            Mission Training Complexes
    Mission Training Complexes (MTCs) provide the training for Army 
Reserve leaders and battle staffs in support of mobilization. This is 
essential to meet ARFORGEN readiness goals and metrics used to evaluate 
the readiness of the force. The Army Reserve successfully negotiated 
for upgrading three of our five MTCs and the new construction of one 
MTC.
            Simulations and Simulators
    Simulations and simulators (weapons and systems simulators) 
programs are critical in supporting an operational force as well as for 
collective and individual training. Training for the full range of 
military operations and for contingencies is evaluated using the aim 
points in ARFORGEN. To ensure the Total Force is properly trained, the 
Army Reserve has a simulation requirement and is programmed to maximize 
funding from the President's budget.
            Electronic-Based Distance Learning
    The Army is allowed to provide discretionary payments for selected 
Reserve soldiers, not in Active service or on Active Duty, who are 
directed by their commanders to complete Department of the Army-
approved training requirements by means of electronic-based distributed 
learning (EBDL).
            Equipment Fills for Training Unit Table of Distribution and 
                    Allowances
    The Army Reserve has Table of Distribution and Allowance (TDA) 
equipment funding, which is an area of risk within the strategy for 
training facilities. Modernized pieces of equipment are required to 
conduct training during various stages of the force generation model. 
The use of training simulators and equipment loans mitigates equipment 
shortages.
            Transient Training Facilities (Operational Readiness 
                    Training Complex) Fort Hunter Liggett
    Transient training facilities are critical for requirements for our 
Army Reserve platforms to support our units as they progress through 
the ARFORGEN cycle. These facilities provide the barracks, classroom, 
motor pool, and administrative space for units to conduct effective 
institutional and collective training on our installations. Sufficient 
resources are included in the Army Reserve's budget to ensure the 
construction and modernization of transient training facilities for an 
operational force.
            Protect the Force, Physical Security, Management of the 
                    Physical Security Program
    The Army Reserve faces unique challenges and vulnerabilities when 
it comes to Physical Security. The Army Reserve span of control 
includes personnel at more than 950 stand-alone facilities across the 
continental United States (CONUS). Physical security inspectors and 
antiterrorism assessment specialists in the field mitigate these 
challenges.
            The Army Reserve Manages the Risk of Damage, Destruction or 
                    Loss of Personnel, Weapons, or Equipment to 
                    Criminals or Terrorists by Having the Intrusion 
                    Detection System
    The intrusion detection systems (IDS) monitor arms rooms at Army 
Reserve facilities 24 hours a day. The monitoring program notifies 
authorities immediately should an arms room at a remote facility be 
breached. These systems require technology upgrades and maintenance 
because Army Reserve facilities are distinctive as stand-alone 
facilities in remote parts of the country.
            Provisioning for Antiterrorism Officers at All Major 
                    Subordinate Commands Enables Commanders To Protect 
                    the Force
    Antiterrorism assessment specialists are the key component to the 
Antiterrorism Program. They conduct vulnerability assessments and 
program reviews of Army Reserve commands and facilities across the 
Nation. Antiterrorism programs detect, deter, and defeat threats 
against Army Reserve personnel, equipment, and facilities. The scope of 
this mission has grown and requires capable individuals to manage and 
enact commanders' programs. Antiterrorism officers provide the 
expertise and ability to synchronize command protection-based programs, 
which further promotes unit readiness.
            Law Enforcement
    Adequate resources are required for law enforcement functions on 
all five Army Reserve installations:
  --Fort Buchanan;
  --Fort Devens;
  --Fort McCoy;
  --Fort Hunter Liggett; and
  --Camp Parks.
    Law enforcement focuses on protecting Army Reserve equities, both 
human and material, from criminal offenders, as well as assisting and 
serving the community. The resources provide installation commanders a 
fully trained and responsive cadre of Army civilian police, support the 
Military Working Dog (MWD) Program at Fort Buchanan, and provide 
support to missions in the Caribbean and South America. Funding also 
assures criminal deterrence, protection, and safety of soldiers, family 
members, and civilians who work, train, and live on Army Reserve 
installations.

                      SERVICES AND INFRASTRUCTURE

    ----------------------------------------------------------------

Critical Facilities Programs That Sustain an Operational Army Reserve
  --MILCON & MILCON Tails
  --Facility Sustainment, Restoration, and Modernization
  --Energy Security and Sustainability
  --Army Reserve Communications

    ----------------------------------------------------------------

Facilities
    The Army Reserve has completed its transition from a strategic 
Reserve to an operational force through reorganization, realignment, 
and closure of some organizations. With this came greater efficiencies 
and readiness but also the need for sufficient facilities to meet 
mission requirements at the least cost, with acceptable quality and 
quantity, and at the right locations. Therefore, Services and 
Infrastructure Core Enterprises (SICE) is poised to anticipate and 
respond appropriately to emerging requirements to provide training 
platforms, maintenance facilities, and enhanced capabilities to meet 
army mission requirements.
    Today's ARFORGEN is a supply-based rotational model. ARFORGEN 
builds a structured progression of readiness over time to produce 
trained, ready, and cohesive units. Last year's move to a supply-based 
model creates a cultural shift in the way we provide services and 
installation infrastructure at Reserve Centers and training sites. The 
``Reserve Center'' is no longer an administrative facility but an 
Operations Complex that supports preparation, training, maintenance of 
equipment and family support activities crucial to the health, welfare, 
and morale of soldiers and families.
    In today's economic environment--the Nation as well as the Army 
Reserve--is required to become even more efficient in the use of our 
scarce resources. The Army, in concert with the Army Reserve, is 
developing a Facility Investment Strategy, which focuses on 
incorporating the major acquisition of units and equipping programs, 
that serves to advise the Construction Requirements Review Committee 
and the overall Army Military Construction (MILCON) program 
prioritization and review process. More importantly, this strategy will 
ensure our planning is proactive, efficient, and capable of supporting 
long-term mission requirements in both CONUS and OCONUS.

    ----------------------------------------------------------------

THE ARMY RESERVE FACILITY INVESTMENT STRATEGY INCREASES EFFICIENCY AND 
                              REDUCES COST

Cornerstones
    Construct: Build out critical shortfalls.
    Sustain: Repair, improve, and sustain existing facilities.
    Dispose: Reduce inventory and cost through an aggressive disposal 
system.
    Enhance: Improve existing facilities.

    ----------------------------------------------------------------

MILCON and MILCON Tails
    Under Military Construction Army Reserve (MCAR), we have MILCON & 
MILCON Tails as our number one budget priority. Sufficient MILCON 
resources support new Organizational Readiness Training Centers (ORTCs) 
requirements. Older Reserve centers in the Northeast/Midwest areas of 
the country no longer support 21st-century recruiting markets, now 
burgeoning in the southern and western parts of the United States. 
While base realignment and closure (BRAC) facility construction efforts 
improved 17 percent of our facility portfolio, the average age remains 
at 40 years, down from an average age of 43 years prior to BRAC. With 
adequate resources for MILCON, we can avoid a continuous cascading 
effect of project implementation setbacks. Procurement and installation 
of fixtures, furniture and equipment, National Environmental Protection 
Act requirements, information technology and security equipment are 
additional costs that must be factored in.

Facility Sustainment, Restoration, and Modernization
    Sustainment, the cornerstone of facilities stewardship, inhibits 
deterioration, improves building systems quality and prevents 
sustainment migration. Continued support for sustainment activities 
helps us achieve the 60 years of average facility service life that 
supports Army Reserve future operational requirements. Restoration and 
modernization enhancements are increasingly advantageous for the Army 
Reserve as we anticipate increased efficiencies in military 
construction.
            Energy Security and Sustainability
    The Army Reserve included in its fiscal year 2013 budget request 
Energy security and sustainability funding to meet the minimum 
congressional and Federal energy sustainability mandates. This includes 
energy metering; green house gas emission reductions; energy 
consumption and security; expanding our use of renewable energy 
sources; achieving ``Net-Zero'' in water, waste and energy; and 
operational energy requirements to enhance the safety of our soldiers, 
family members, and Army Reserve civilians.

Army Reserve Communications
    The Army Reserve Network (ARNet) Management/Security/Defense 
encompasses three Management Decision Execution Packages (MDEPs):
  --Base Information Management Operations;
  --Defense/Information Assurance; and
  --Long Haul Communications.
    Army Reserve operations depend on ARNet functionality, agility, 
reliability, and security of critical mission information. ARNet 
defense denies adversaries and others the opportunity to exploit 
vulnerabilities. Long Haul Secure Communications are critical for 
mission command along with mobilization support.
    An uninterrupted information flow is a combat multiplier by 
synchronizing other joint capabilities. Continued funding included in 
the Army Reserve's budget request supports the information environment 
with global access, standard infrastructures and common policies that 
provide information services from the generating force to the tactical 
edge. Adequate resourcing allows normalization of ARNet defense, 
tactics, techniques, and procedures. Secure Internet Protocol Router 
Network (SIPRNet) and Secure-Video Teleconferencing (S-VTC) access for 
battalion and above are vital for pre-mobilization training and 
readiness requirements. Continued support for these programs permits 
secure communications and defends the ARNet from compromise.

                                MATERIEL

    ----------------------------------------------------------------

Critical Equipping Programs That Sustain an Operational Army Reserve
  --Equipment Refresh/Life Cycle Replacement.
  --Standard Army Management Information Systems and Logistics 
        Automation Systems.
  --Second Destination Transportation of Equipment.
  --Five-Year Reviews of Resource Management Manpower, Training, and 
        Hiring Practices.

    ----------------------------------------------------------------

Army Reserve Materiel
    The Army Reserve has reached a level of logistics readiness unseen 
in its history, enhancing its ability to execute assigned missions for 
the Army and the Nation. There are critical areas where the momentum 
must be maintained to sustain our current level of readiness and 
capability--Equipment Refresh/Life Cycle Replacement, Second 
Destination Transportation and Surface OPTEMPO Tactical Maintenance 
Shops.
            Equipment Refresh/Life Cycle Replacement
    The Army Reserve works closely with Software Engineer Center--Lee 
(SEC-Lee) to ensure that all systems migrating to the Global Combat 
Support System-Army (GCSS-Army) have the latest technology upgrades. 
This ensures that Army Reserve logistics information technology systems 
are replaced by GCSS-Army and are robust enough to operate the new 
system. GCSS-Army fielding does not have hardware associated with it so 
it is essential that legacy systems are capable of operating the new 
software platform. GCSS-Army is an Enterprise Resource Planning (ERP) 
solution that creates a single, integrated logistics information system 
across the Army. When finished, the Army will have a single logistics 
information and management system with an integrated data warehouse 
across all components. The system will provide management tools to 
enable the Army to implement and sustain the ARFORGEN model more 
efficiently.
            Second Destination Transportation
    Second Destination Transportation (SDT) is essential to 
implementing and sustaining ARFORGEN in the Army Reserve. First, it is 
needed to support the ``bridging'' strategy of moving equipment from 
units in Reset and the early years of the ARFORGEN cycle to units in 
the later years of ARFORGEN. Second, it is needed to execute the Army 
Reserve's equipping strategy of reducing fleet management and inventory 
costs by concentrating equipment where it is needed, with the prospect 
of later cost savings from reduced transportation costs and more 
efficient management of equipment and maintenance resources.
            Surface Operations Tempo Tactical Maintenance Shops
    The appropriate level of resourcing will allow Regional Support 
Commands to continue contract maintenance labor in their Area 
Maintenance Support Activities and Equipment Concentration Sites. 
Contract labor addresses manpower shortages in shops as they are 
currently manned at only 56 percent of requirements. Additionally, 
actions taken under Grow the Army have increased maintenance intensive 
equipment by more than 18 percent. Once the requirements are documented 
to maintain this increase in equipment, the maintenance structure of 
the Army Reserve will only be filled to 39 percent of requirements. As 
the Army continues to field more equipment to the Army Reserve, these 
shortfalls will continue to grow.
Resource Management
            Five-Year Periodic Reviews of Resource Management Manpower, 
                    Training, and Hiring Policies
    Funding for periodic reviews (every 5 years) and authority within 
available funding allows the Army Reserve to implement changes in 
Resource Management Manpower Authorizations, Training, Hiring Policies, 
and Procedures unique to the Army Reserve, execute fiduciary 
responsibilities, and support the Army Reserve mission. This review 
includes a comprehensive examination of the distinctive systems/
software used by the Army Reserve to conduct its core business 
processes (the Reserve Level Application System (RLAS), is one primary 
example) and provides the ability to fund changes necessary due to 
advances in technology.

                 CONCLUSION: THE FORCE IS IN GOOD HANDS

    The Army Reserve provides trained, cost-effective and ready units, 
that enable the Total Army Force to meet and sustain global and 
domestic requirements. As military force draw down and overseas 
contingency operations (OCO) funding diminishes, continued use of the 
Army Reserve in an operational role is contingent upon congressional 
support of the fiscal year 2013 base budget request.
    The greatest asset the Army Reserve has today is the high quality 
and devotion to country of our warrior-citizens. The skills they bring 
to the fight and the leadership they bring back to their jobs and their 
communities is remarkable. Establishing a continuum of service that 
enables soldiers to meet the needs of serving their Nation, their 
families, and their civilian careers is paramount. Their dedicated 
service to the Nation should never be hindered by outmoded bureaucratic 
complexity. We need to think in terms of cultivating a ``Soldier for 
Life'' to retain the quality, highly experienced soldiers needed to 
sustain the expansible/reversible Army Reserve as an enduring 
operational force.
    With the impending downsizing of Army strength in the coming years, 
the Army Reserve will focus on retaining mid-grade enlisted and 
officers in key specialties required by the Army Reserve. We will 
increase our presence at Active component transition points and reach 
out to soldiers well before they are due to transition to help them 
recognize the value of continued service to their Nation in the Army 
Reserve.
    We will promote the Army Reserve managed Employer Partnership of 
the Armed Forces program as a tool for transitioning Active component 
soldiers, leveraging the program to develop the careers of soldiers 
through extensive internship and externship programs with key 
organizations. A great example of this is the Army Reserve's 
partnership with GE Healthcare to provide civilian training and 
certification of our Army Reserve xray technicians. We see this part of 
the program expanding as we move to share training and resources with 
our industry partners to our mutual benefit.
    We seek continued funding of recruitment, retention, and transition 
incentives to allow us to shape the force with less reliance on cross 
leveling to offset our mid-grade strength imbalances. Future recruiting 
efforts will target incentives to more prior-service military 
personnel, who bring more experience than first-term soldiers into the 
Army Reserve. These experienced soldiers are critical in filling 
shortages among mid-level commissioned and noncommissioned officers.
    Realization of a 5-year supply-based ARFORGEN Cycle means all of 
our operational units now have an ``available force pool'' date, which 
will allow us to build progressive readiness throughout the cycle and 
tailor our manning, equipping and training strategies, and our soldier 
and family support programs to best sustain the force throughout 
deployment cycle.
    Why an enduring operational force? Army Reserve capabilities are 
well-suited to support and participate in security cooperation 
activities and peace operations worldwide. Security cooperation builds 
relationships that promote specified U.S. interests, develops allied 
and friendly and capabilities for self-defense and coalition operations 
and provides U.S. forces with peacetime and contingency access. The 
extensive operational experience and relevant civilians skill-sets 
resident within the Army Reserve are essential in meeting Combatant 
Command requirements for international engagement activities that 
improve infrastructure, security, and institutions within foreign 
nations of strategic interest to the United States.
    We take our commitments to our Nation, to our Army, and to our 
soldiers, families, and our employer partners seriously. We are 
effective stewards of our Nation's resources. America's sons and 
daughters serve with an unwavering commitment, willingly answering the 
call to duty in a time of war or national emergency. As we position 
ourselves as an essential provider of combat support and combat service 
support to the United States Army, we look to the Congress and our 
fellow citizens for strength and support as our partners in maintaining 
an enduring operational Army Reserve for the 21st century.

                           YOUR ARMY RESERVED

    The United States Army Reserve provides trained units and qualified 
soldiers available for Active Duty in the Armed Forces in time of war 
or national emergency, and at such other times as the national security 
may require. Throughout the United States, the Army Reserve has four 
Regional Support Commands that provide base support functions, and 13 
Operational and Functional Commands available to respond to homeland 
emergencies and expeditionary missions worldwide.

         ARMY RESERVE SOLDIERS AND ECONOMIC IMPACT BY THE STATE
                         [DOLLARS IN MILLIONS]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Economic impact consists of the payroll for Select Reserve Soldiers and 
Civilian support, Army Reserve military construction (MILCON) projects, 
leases, utilities, municipal services, engineering services, fire and 
emergency services, maintenance and repair, minor construction, 
environmental compliance, environmental conservation, and pollution 
prevention.

                         ARMY RESERVE SNAPSHOT

    Mission.--The Army Reserve provides trained, equipped, and ready 
soldiers and cohesive units to meet global requirements across the full 
spectrum of operations.
    Vision.--As an enduring operational force, the Army Reserve is the 
premier force provider of America's citizen-soldiers for planned and 
emerging missions at home and abroad. Enhanced by civilian skills that 
serve as a force multiplier, we deliver vital military capabilities 
essential to the Total Force.
Key Leaders
    Secretary of the Army: The Honorable John M. McHugh
    Army Chief of Staff: General Raymond T. Odierno
    Chief, Army Reserve and Commanding General, U.S. Army Reserve 
Command: Lieutenant General Jack C. Stultz
    Assistant Chief, Army Reserve: Mr. James Snyder
    Deputy Commanding General, (Operations): Major General Jon J. 
Miller
    Deputy Chief Army Reserve, Individual Mobilization Augmentee: Major 
General Marcia M. Anderson
    Deputy Chief Army Reserve/Human Capital Enterprise: Brigadier 
General James V. Young
    Deputy Commanding General (Support)/Chief of Staff: Major General 
Keith L. Thurgood
    Director for Resource Management/Materiel Enterprise: Mr. Stephen 
Austin
    Deputy Chief of Staff, G-3/5/7/Force Programs Division/Readiness 
Enterprise: Brigadier General Scott L. Donahue
    Chief Executive Officer/Director, Services and Infrastructure 
Enterprise: Mr. Addison D. Davis
    Command Chief Warrant Officer: Chief Warrant Officer 5 James E. 
Thompson
    Command Sergeant Major: Command Sergeant Major Michael D. Schultz
Army Reserve Basics
    Established: April 23, 1908
    2011 Authorized End Strength: 205,000
    Selective Reserve Strength: 204,647
    Accessions Goal for Fiscal Year 2011: 19,000
    Accessions Achieved Fiscal Year 2011: 19,608
    Accessions Goal for Fiscal Year 2012: 16,000
    Reenlistment Goals for Fiscal Year 2011: 10,990
    Reenlistment Goals Achieved for Fiscal Year 2011: 11,719
    Reenlistment Goals for Fiscal Year 2012: 13,106
    Soldiers Deployed Around the World: 19,156
    Soldiers Mobilized Since September 11, 2001: 200,148
    Number of Army Reserve Centers: 1,100
Distinctive Capabilities
    The Army Reserve contributes to the Army's Total Force by providing 
100 percent of the:
  --Theater Engineer Commands
  --Civil Affairs Commands
  --Training Divisions
  --Biological Detection Companies
  --Railway Units
  --Replacement Companies
. . . more than two-thirds of the Army's:
  --Medical Brigades
  --Civil Affairs Brigades
  --PSYOPS Groups
  --Expeditionary Sustainment Commands
  --Dental Companies
  --Combat Support Hospitals
  --Army Water Craft
  --Petroleum Units
  --Mortuary Affairs Units
. . . and nearly one-half of the Army's:
  --Military Police Commands
  --Information Operations Groups
  --Medical Units
  --Supply Units
Army Reserve Demographics

------------------------------------------------------------------------

------------------------------------------------------------------------
Ethnicity (in percent):
    Caucasian..............................................        57.9
    Black..................................................        21.9
    Hispanic...............................................        13.4
    Asian..................................................         4.0
    Pacific Islander.......................................         1.0
    Native American........................................         0.7
    Other..................................................         1.1
Average Age................................................        32.1
    Officers...............................................        40.5
    Enlisted...............................................        30.3
    Warrant................................................        43.0
Married (in percent).......................................        45.2
    Officers...............................................        66.2
    Enlisted...............................................        40.7
    Warrant................................................        73.3
Gender (in percent):
    Male...................................................        76.9
    Female.................................................        23.1
------------------------------------------------------------------------

Army Reserve Budget Figures

------------------------------------------------------------------------

------------------------------------------------------------------------
Total fiscal year 2012 enacted budget.................      $8.8 billion
    Operations and maintenance........................       3.3 billion
    Military Personnel................................       5.2 billion
    Military Construction.............................       281 million
------------------------------------------------------------------------

Army Reserve Installations
    Fort Buchanan, Puerto Rico
    Fort McCoy, Wisconsin
    Fort Devens, Massachusetts
    Fort Hunter Liggett, California
    Fort Dix, New Jersey
    Camp Parks, California

    ----------------------------------------------------------------

    I am an American Soldier.
    I am a Warrior and a member of a team. I serve the people of the 
United States and live the Army Values.
    I will always place the mission first.
    I will never accept defeat.
    I will never quit.
    I will never leave a fallen comrade.
    I am disciplined, physically and mentally tough, trained, and 
proficient in my warrior tasks and drills. I always maintain my arms, 
my equipment and myself.
    I am an expert and I am a professional.
    I stand ready to deploy, engage, and destroy the enemies of the 
United States of America in close combat.
    I am a guardian of freedom and the American way of life.
    I am an American Soldier.

    ----------------------------------------------------------------

    Chairman Inouye. Sergeant, thank you for your service to 
our Nation. We are very proud of you, so please be recognized. 
And I think an important partner is your wife.
    And I'll call upon the General of the Marines, General 
Hummer.

STATEMENT OF LIEUTENANT GENERAL STEVEN A. HUMMER, 
            DIRECTOR, RESERVE AFFAIRS, UNITED STATES 
            MARINE CORPS
    General Hummer. Thank you very much, Chairman Inouye, Vice 
Chairman Cochran, and members of this subcommittee.
    It's an honor and a privilege to speak with you here today 
on behalf of your United States Marine Corps Reserve.
    Mr. Chairman, we welcome your leadership and your support. 
The subcommittee's continued unwavering support for Marine 
Corps Reserve and its associated programs enables marines and 
sailors to professionally and competently perform in an 
operational capacity, and it is greatly appreciated.
    With me today, and I'd ask them to stand up, are my two 
senior enlisted advisers and leaders, Sergeant Major James E. 
Booker, and Command Master Chief Eric E. Cousin.
    These gentlemen epitomize the Navy-Marine Corps team, and 
proudly represent our services' enlisted marines and sailors 
who collectively form the backbone of Marine Forces Reserve.
    The Marine Corps is as strong today as ever in its 236-year 
history. Our marines have been doing what they have done best 
since 1775, standing shoulder-to-shoulder to fight our Nation's 
battles.
    I'm pleased to report to you today that today's Marine 
Corps attends to its commitments as a Total Force, and as such, 
the Marine Corps Reserve is integrated in all areas of the 
Marine Corps as never before.
    Since 2001, this great Nation required the Marine Corps 
Reserve to be continuously engaged in combat operations in Iraq 
and Afghanistan as well as in regional security cooperation and 
crisis prevention activities in support of various 
geographical, combatant commanders.
    Almost 80,000 reservists have been activated or mobilized 
since September 11. This operational tempo has built a momentum 
among our warfighters and a depth of experience throughout our 
ranks that is unprecedented in the generations of Marine Corps 
Reservists.
    This operational tempo has enabled the Marine Forces 
Reserve to evolve from a Strategic Cold War Reserve to an 
operational force capable of simultaneously filling both roles, 
both the strategic and the operational role.
    In the operational role, Marine Forces Reserve has sourced, 
pre-planned, rotational and routine combatant commander and 
service requirements across a variety of military operations.
    Marine Forces Reserve continues to perform its strategic 
role with combatant commander exercise involvement and focused 
readiness that coherently enables a rapid transition to 
operational roles or support to major contingency operations.
    As I sit here today, we have almost 1,500 marines and 
sailors deployed on five continents in support of six 
geographic combatant commanders, which includes conducting 
combat operations in Afghanistan, to theater security 
activities by a special Marine Air Ground Task Force in Eastern 
Africa.
    As the Active component Marine Corps reshapes from 201,000 
marines, to a force of approximately 182,100, the diverse depth 
and range of the Marine Corps Reserve will be leveraged to 
mitigate risk and maximize opportunities where available.
    I am highly confident that the authorized Marine Corps 
Reserve end-strength of 39,600 is appropriate for providing us 
with the personnel required to support the Total Force during 
Active component build down.
    Accordingly, our manpower bonus and incentive programs for 
Reserves are essential tools in achieving 100 percent of our 
authorized end-strength, and the continued use of these 
programs is critically important as we rebalance the Total 
Force.

                           PREPARED STATEMENT

    It's a privilege to serve during these very important and 
challenging times in our Nation's defense, especially as a 
leader of our All-Volunteer Reserve Component Force.
    With your continued support, I'm highly confident that your 
Marine Corps Reserve will remain a ready, relevant and 
responsive force that continues to be fully vested in the Total 
Force Marine Corps.
    Thank you for your demonstrated support for our reservists, 
their families and their employers, and from your Marines, 
semper fidelis.
    Chairman Inouye and distinguished members of the 
subcommittee, I look forward to your questions.
    [The statement follows:]

       Prepared Statement of Lieutenant General Steven A. Hummer

    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the subcommittee, it is my honor to report to you on the state of 
the Nation's Marine Corps Reserve and our reservists, who 
enthusiastically and professionally contribute to the balanced air-
ground-logistics team that underscores America's Expeditionary Force in 
Readiness--the U.S. Marine Corps. We are extremely grateful for your 
continued support of programs like tuition assistance and transition 
assistance, Manpower Retention Incentives, and the Yellow Ribbon 
Reintegration Program, as well as the recently approved section 12304b 
in chapter 1209 of title 10. These help to sustain us as an Operational 
Reserve and as a crucial part of the Total Force.

                              INTRODUCTION

    The Marine Corps is as strong today as ever in its 236-year 
history. That's a bold statement, but it's backed by equally bold 
Active and Reserve component marines who are experienced in taking the 
fight directly to the enemy. Our marines have been doing what they have 
done best since 1775--standing shoulder-to-shoulder to fight and win 
the Nation's battles. We don't differentiate; all marines--whether 
Reserve or Active component--are disciplined, focused, and lethal. We 
are a Total Force, and as such, the Marine Corps Reserve is integrated 
in all areas of the Marine Corps as never before.
    I continue to be humbled on a daily basis in my interactions with 
our magnificent reservists. Like their Active Duty brothers and 
sisters, they sacrifice so much of their time--and so much of 
themselves--to protect and serve this great Nation. The way they 
balance their family responsibilities, civilian lives, and 
occupations--and still stay marine--continues to amaze me. They do it 
with humility, without fanfare, and with a sense of pride and 
dedication that is consistent with the great sacrifices of marines of 
every generation. I am reminded daily about the seriousness of the 
environment in which we operate and the uncertain times that lay ahead 
in this fiscally constrained environment. That said, I remain highly 
confident in the ability of the Marine Corps Reserve to meet these 
challenges due to the tremendous talent that fills our ranks and the 
incredible support by this subcommittee and the American people who 
sustain us.
    The four priorities outlined by the Commandant of the Marine Corps 
in his 2012 Report to Congress on the Posture of the United States 
Marine Corps will continue to ensure the Total Force is able to meet 
the demands of the future. They are:
  --Provide the best trained and equipped marine units to Afghanistan. 
        This will not change and remains our top priority;
  --Rebalance our Corps, posture it for the future and aggressively 
        experiment with and implement new capabilities and 
        organizations;
  --Better educate and train our marines to succeed in distributed 
        operations and increasingly complex environments; and
  --Keep faith with our marines, our sailors, and our families.
    The priorities I've outlined for Marine Forces Reserve are nested 
within the Commandant's priorities to ensure today's Marine Corps 
Reserve is a nimble, fully engaged part of the Total Force that is 
necessary for modern combat. I believe Active component Marines and 
senior leadership at all levels appreciate a fully engaged Operational 
Reserve Force. As an integral element of the Total Force Marine Corps, 
our marines and sailors share the culture of deployment and 
expeditionary mindset that has dominated Marine Corps culture, ethos, 
and thinking since our service's beginning more than 2 centuries ago. 
Accordingly, the U.S. Marine Corps Reserve is organized, manned, 
equipped, and trained, like our Active Duty brethren, to provide a 
professionally ready, responsive, and relevant force as a Marine Corps 
solution to enable joint and combined operations. We are, and will 
remain, a key component in the Corps' role as America's Expeditionary 
Force in Readiness.

                         AN OPERATIONAL RESERVE

    Since 2001, this great Nation required its Marine Corps Reserve to 
be continuously engaged in combat operations in Iraq and Afghanistan as 
well as in regional security cooperation and crisis prevention 
activities in support of the various geographical combatant commanders. 
This operational tempo has built a momentum among our war fighters and 
a depth of experience throughout the ranks that is unprecedented in 
generations of Marine Corps Reservists.
    As of February 1, 2012, 61,123 marines from the Ready Reserve have 
executed a total of 79,420 sets of mobilization orders. This 
operational tempo has enabled Marine Forces Reserve to evolve from a 
strategic to an operational force, capable of simultaneously fulfilling 
both roles. In the operational role, Marine Forces Reserve has sourced 
preplanned, rotational, and routine combatant commander and service 
requirements across a variety of military operations. We have routinely 
supported operations in Afghanistan and Iraq while sourcing combatant 
commander requirements, such as Special Purpose Marine Air Ground Task 
Force in support of U.S. Africa Command (AFRICOM); Black Sea Rotational 
Force in support of U.S. European Command (EUCOM); Unit Deployment 
Program (UDP) in support of U.S. Pacific Command (PACOM); and Southern 
Partnership Station in support of U.S. Southern Command (SOUTHCOM). 
Additionally, Marine Forces Reserve continues to perform its strategic 
role with combatant commander exercise involvement and focused 
readiness that coherently enables a rapid transition to operational 
roles or support to major contingency operations.
    During the previous year, Marine Forces Reserve operations 
continued on a high-operational tempo as we supported all of the 
geographical combatant commanders across the globe. Our force-level 
units and major subordinate commands--the 4th Marine Division, 4th 
Marine Aircraft Wing, and 4th Marine Logistics Group--were called upon 
to provide 3,227 marines to support Operation Enduring Freedom (OEF) 
and plan to deploy 788 marines this fiscal year. Marine Forces Reserve 
also deployed marines to a multitude of theater-specific exercises and 
cooperative security efforts, which were designed to increase 
interoperability with our Partnership For Peace NATO allies as well as 
for developing Theater Security Cooperatives in countries such as 
Morocco, South Africa, Romania, Georgia, the Black Sea region and with 
our partners throughout the Pacific Rim.
    Marine Forces Reserve's operational focus will continue to directly 
support the geographical combatant commanders this year in various 
roles that includes multiple bilateral exercises, such as African Lion 
in Morocco, Key Resolve and Ulchi Freedom Guardian in South Korea, Cold 
Response in Norway, Tradewinds in Barbados, and Agile Spirit, which is 
an ongoing effort with the Georgian Army in and around Tbilisi. The way 
ahead for Marine Forces Reserve includes continued support to OEF while 
also maintaining a high operational tempo by deploying forces to meet 
high-priority combatant commander requirements. Principle among these 
deployments is the support to an AFRICOM Special Purpose Marine Air 
Ground Task Force, forward deploying an Artillery Battery to Okinawa, 
Japan, as part of the Unit Deployment Program, and the building of 
partner capacity in the Black Sea region on behalf of the geographical 
combatant commander by providing Marine Reservists to conduct 
operations of various sizes and complexities throughout the region to 
assure stability and sustainability in this high priority geopolitical 
region. Like our Active Duty counterparts, our training and exercise 
support will incorporate amphibious operations and a refocused 
concentration on our Naval heritage. During January, our personnel 
participated in Bold Alligator, the largest amphibious exercise the 
Navy and Marine Corps have conducted in more than a decade.
    In addition to operational requirements, Marine Forces Reserve 
personnel and units conduct community relations events nationwide. Due 
to the command's unique geographical dispersion, Marine Forces Reserve 
personnel and units are advantageously positioned to interact with the 
American public, telling the Marine Corps story to our fellow citizens 
who typically have little or no contact with the Marine Corps. 
Therefore, for the preponderance of the American public, their 
perception of the Marine Corps is informed by dialogue with our 
reservists during the myriad of community relations events that occur 
throughout the year across the country.
    During the previous year, Marine Forces Reserve supported more than 
10 significant community relations events, which included among others 
Marine Week St. Louis, Armed Forces Bowl in the Dallas/Fort Worth area, 
New York City Fleet Week, Baltimore Fleet Week, and Public Service 
Recognition Week and Joint Service Open House in the District of 
Columbia area. Marine Forces Reserve also supported more than 50 
community relations events of a lesser scale that included various air 
shows, memorials, and assorted flyovers across the Nation. 
Additionally, more than 380 community events of a routine nature were 
supported across the Nation, such as color guard details, vehicle and 
weapon static displays, and speaking engagements.
    The significant community relations events required a footprint of 
Marine Forces Reserve assets that mirrored an operational Marine Air-
Ground Task Force. Of note is the Marine Week concept, which is a 
Headquarters Marine Corps strategic engagement activity that was 
initiated during 2009. This strategic engagement initiative was created 
to articulate to the American public what the U.S. Marine Corps stands 
for, what we do, who we are, and what the Corps aspires to accomplish 
in the future. This week-long event generally encompasses a series of 
more than 60 smaller events, which may include formal ceremonies, 
various static displays of aircraft, vehicles and weapons, and other 
outreach events such as sports demonstrations, concerts, and tactical 
demonstrations. However, months prior to the event, key leaders from 
throughout the Marine Corps interact with the local community through 
leadership panels and discussion groups covering topics such as 
diversity, roles and opportunities for service by women, and general 
leadership principles. Marine Forces Reserve was the lead element for 
Marine Week since its inception, sourcing the Marine Air Ground Task 
Force command element and the preponderance of the subordinate units 
for Marine Week Chicago in 2009, and has done so for subsequent Marine 
Weeks: Boston in 2010 and St. Louis in 2011. Marine Forces Reserve will 
take the lead once again for Marine Week Cleveland this June and is 
likely to be the Force of Choice to form the command element on behalf 
of the Marine Corps for all Marine Weeks hereafter due to our national 
footprint, deep connection with local communities, and integration of 
Active and Reserve component personnel at our Reserve centers across 
this great Nation.
    I would be remiss if I didn't include veterans as key components to 
our continued success in communities across the country. Veterans 
provide our personnel, Active and Reserve, with unsurpassed support. 
Veterans often serve as a communication conduit between our marines and 
local leaders and business owners. They are also instrumental in 
assisting with community engagement, such as Marine Week and the Marine 
Corps Reserve Toys for Tots program.
    In addition to participating in operational requirements across the 
globe and in community relations events here at home, our Active Duty 
marines who are assigned to our Inspector--Instructor and Reserve Site 
Support staffs steadfastly and diligently execute the significant 
responsibility of casualty assistance. Continued operational efforts in 
Afghanistan have required that these marines remain ready at all times 
to support the families of our fallen marines in combat abroad, or in 
unforeseen circumstances at home. By virtue of our geographic 
dispersion, Marine Forces Reserve personnel are well-positioned to 
accomplish the vast majority of all Marine Corps casualty assistance 
calls and are trained to provide assistance to the families. 
Historically, our personnel have been involved in approximately 80 
percent of all Marine Corps casualty notifications and follow-on 
assistance calls to the next of kin. During calendar year 2011, our 
Inspector--Instructor and Reserve Site Support staffs performed 83 
percent of the total casualty calls performed by the Marine Corps (310 
of 375). There is no duty to our families that we treat with more 
importance, and the responsibilities of our Casualty Assistance Calls 
Officers (CACO) continue well beyond notification. We ensure that our 
CACOs are well trained, equipped, and supported by all levels of 
command. Once a CACO is designated, he or she assists the family 
members from planning the return of remains and the final rest of their 
Marine to advice and counsel regarding benefits and entitlements. In 
many cases, our CACOs provide a long-lasting bridge between the Marine 
Corps and the family while providing assistance during the grieving 
process. The CACO is the family's central point of contact and support, 
and he or she serves as a representative or liaison to the funeral 
home, government agencies, or any other agency that may become 
involved.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
Inspector--Instructor and Reserve Site Support staffs, with 
augmentation from their Reserve Marines, performed 91 percent of the 
total funeral honors rendered by the Marine Corps during calendar year 
2011 (15,366 of 16,943). We anticipate providing funeral honors to more 
than 16,000 marine veterans during calendar year 2012. Specific 
authorizations to fund Reserve Marines in the performance of military 
funeral honors have greatly assisted us at sites such as Bridgeton, 
Missouri, where more than 10 funerals are consistently supported each 
week. As with casualty assistance, we place enormous emphasis on 
providing timely and professionally executed military funeral honors 
support.
    The upcoming implementation of the Marine Corps' Force Structure 
Review (FSR) of the Total Force--Active, Reserve, and civilian--will 
not impede our operational excellence, community involvement, casualty 
assistance, or funeral honors. The FSR initiative evaluated and refined 
the organization, posture, and capabilities required of America's 
Expeditionary Force in Readiness in a post-OEF security environment. It 
was further informed by the Department of Defense budget that was 
developed and incorporated in the fiscal year 2013 President's budget. 
Throughout the implementation plan, Marine Forces Reserve is prepared 
to work with any personnel affected by this initiative to locate a 
suitable opportunity. In some cases, the servicemember may be afforded 
an opportunity for inactive duty training travel reimbursement or 
additional training to obtain a new military occupational specialty. I 
appreciate in advance your support as we move forward to seamlessly 
implement the FSR plan.

                             PREDICTABILITY

    Our Force Generation Model is one of the most important planning 
mechanisms for facilitating the operational use of the Marine Corps 
Reserve. The Model, which was implemented in October 2006, continues to 
provide long-term and essential predictability of future activations 
and deployments for our reservists. The Model provides our reservists, 
their families, and their employers, the ability to plan for upcoming 
duty requirements in their lives 5 or more years out. This empowers 
servicemembers and their families to achieve the critical balance 
between family, civilian career, and service to the Nation while 
enabling employers to plan for and manage the temporary loss of valued 
employees. The Force Generation Model also assists service and joint 
force planners in maintaining a consistent and predictable flow of 
fully capable Marine Corps Reserve units.
    The Force Generation Model is a simple management tool that is 
based on 1-year activations followed by 5 years in a nonactivated 
status. This allows for a continued and sustainable 1:5 deployment-to-
dwell ratio for our reservists as well as the ability to support 
unplanned requirements. In fact, the Marine Corps Reserve can 
potentially source 3,000 marines per rotation and 6,000 marines 
annually at a 1:5 deployment-to-dwell ratio as programmed in the Force 
Generation Model. Furthermore, projecting predictable activation dates, 
mission assignments, and geographical destination years in advance 
enables units to focus training on core mission requirements early in 
the dwell period, then transition the training to specific mission 
tasks when the unit is 12-18 months from activation.
    The fiscal year 2012 National Defense Authorization Act that was 
signed into law by the President on December 31, 2011, greatly advances 
this predictable employment of the Reserve component as an operational 
Force. Specifically, the Reserve involuntary activation authority 
delegated to the Service secretaries to order Reserve component members 
to Active Duty for not more than 365 consecutive days for preplanned 
and budgeted missions promotes our ability to proactively plan for and 
provide well-equipped, trained, and competent Reserve Forces to the 
various geographic combatant commanders to fulfill their Theater 
Security Cooperation requirements.
    Title 10, chapter 1209, section 12304b, provides the appropriate 
authorities to ensure Marine Forces Reserve's continued level of 
support to geographic combatant commanders' Theater Security 
Cooperation and Phase 0 shaping operations as well as maintain 
readiness across the Total Force. Of particular note, this authority 
facilitates a Total Force sourcing solution to meeting global 
requirements by allowing the Secretary of a military department to 
determine when to use the Reserve component. This amendment provides 
for the flexibility Service planners need to determine force sourcing 
solutions based on Force Generation Models and policies. Over the last 
decade, the Services have seen an increasing demand signal from the 
geographical combatant commanders to support their Theater Security 
Cooperation and Phase 0 shaping operations. We certainly expect this 
demand will continue to increase in the post-OEF environment as 
geographic combatant commanders increase engagement activities across 
the globe.

                               PERSONNEL

    Marine Forces Reserve consists of Force-level units, such as 
Intelligence Support Battalion and Civil Affairs Groups, and our major 
subordinate commands--4th Marine Division, 4th Marine Aircraft Wing, 
and the 4th Marine Logistics Group. Marine Forces Reserve comprises a 
large percentage of the Selected Marine Corps Reserve's authorized end-
strength of 39,600. Additionally, Marine Forces Reserve administers 
approximately 57,000 marines who serve in the Individual Ready Reserve. 
The Selected Marine Corps Reserve is comprised of marines in Reserve 
units and the Active Reserve program as well as Individual Mobilization 
Augmentees and those in initial training. The Selected Marine Corps 
Reserve and the Individual Ready Reserve form the Ready Reserve.
    We continue to enjoy strong accessions and an increase in retention 
over the historical norm, which greatly enhanced our ability to improve 
manning to our end strength during fiscal year 2011. Our bonus and 
incentive programs for Reserves were essential tools in achieving 100 
percent of our authorized end strength. The continued use of these 
programs is a critical enabler for us as we rebalance the Force during 
the upcoming implementation of the Force Structure Review. Our 
authorized end-strength of 39,600 is appropriate for providing us with 
the personnel we require to support the Total Force while achieving the 
Secretary of Defense's goal of a 1:5 deployment-to-dwell for Selected 
Marine Corps Reserve units.
    I am pleased to report that the Marine Corps/Navy Reserve team is 
as strong as ever. During calendar year 2011, the Navy ensured Marine 
Forces Reserve units were fully manned and supported with Program 9--
U.S. Navy personnel in support of Marine Forces--and Health Service 
Augmentation Program personnel during all deployment phases. Four 
hundred eighty-six U.S. Navy personnel were sourced to staff Marine 
Forces Reserve units that deployed to Iraq and Afghanistan, as well as 
numerous joint and/or combined exercises. These individuals focused 
almost entirely on providing medical, dental and religious services. 
The Navy Mobilization Office works with my headquarters, as well as 
with my major subordinate commands, to source 100 percent of all 
requirements.
    Manning to authorized end strength requires an institutional 
approach. The Marine Corps is unique in that all recruiting efforts 
fall under the direction of the commanding general, Marine Corps 
Recruiting Command. This approach provides tremendous flexibility and 
unity of command in annually achieving Total Force recruiting 
objectives. Like the Active component Marine Corps, Marine Corps 
Reserve units rely primarily upon a first-term enlisted force. Marine 
Corps Recruiting Command achieved 100 percent of its recruiting goal 
for nonprior service recruiting (5,730 enlisted marines and 96 
officers) and prior service recruiting (4,058) for fiscal year 2011. As 
of February 29, 2012, 2,216 enlisted nonprior service and 1,242 
enlisted prior service marines have been accessed, reflecting 38.8 
percent of the nonprior service and 49.7 percent of the prior service 
annual enlisted recruiting mission for the Selected Marine Corps 
Reserve. We fully expect to meet our Selected Marine Corps Reserve 
recruiting goals again this fiscal year.
    Officer recruiting remains our most challenging area. Historically, 
the Active component Marine Corps has been the exclusive source of 
senior lieutenants and captains for the Marine Corps Reserve, and it 
remains a source of strength in meeting our company grade requirements. 
Through our transition assistance and educational outreach programs, we 
continue to ensure that each transitioning Active component marine is 
educated on continued service opportunities in the Marine Corps 
Reserve. To compliment the Active-to-Reserve component company grade 
accessions, we continue to offer three Reserve commissioning 
initiatives that focus exclusively on the most crucial challenge of 
manning the Marine Corps Reserve with quality company grade officers. 
These Reserve commissioning initiatives are the Reserve Enlisted 
Commissioning Program (RECP), which was expanded to qualified Active 
Duty enlisted marines in addition to qualified Reserve enlisted 
marines; Meritorious Commissioning Program--Reserve (MCP-R), which is 
open to individuals of the Active and Reserve components who have 
earned an associate's degree or equivalent in semester hours; and 
Officer Candidate Course--Reserve (OCC-R). Since 2004, these three 
programs have produced a total of 456 lieutenants for the Marine Corps 
Reserve. The OCC-R program has been the most successful of the three 
Reserve commissioning initiatives, producing 422 officers. It focuses 
on ground billets with an emphasis on ground combat and combat service 
support within specific Reserve units that are scheduled for 
mobilization. Thus, the priority to man units with these officers is 
tied to the Force Generation Model. These programs, combined with our 
prior service recruiting efforts, are projected to provide at least 90 
percent manning of critical combat arms and engineer company grade 
officer billets by September 30, 2015.
    As the Marine Corps begins to draw down Active component end 
strength to 182,100, the option to continue to serve in the Reserve 
component will undoubtedly be increasingly appealing to young marines 
leaving Active Duty. Those approaching the end of their current 
contracts--Active or Reserve component--receive more focused counseling 
on the tangible and intangible aspects of remaining associated with, or 
joining, the Selected Marine Corps Reserve. All commanders and senior 
enlisted leaders across Marine Forces Reserve are tasked to retain 
quality marines through example, mentoring, and information and 
retention programs. This takes place across the marine experience, not 
just in the final days of a marine's contract. Your continued support 
regarding enlistment, affiliation, and re-enlistment bonuses along with 
other initiatives that promote service to this great Nation greatly 
influences my ability to gain and retain the very best servicemembers. 
I greatly appreciate the continuance of these programs, especially 
since they are most likely to prove instrumental in aligning the right 
people to the right place as we rebalance the Force.

                               EQUIPMENT

    The Commandant of the Marine Corps signed the Service's Ground 
Equipment Reset Strategy on January 1, 2012. This strategy resets the 
Force in support of the Commandant's reconstitution objectives. As the 
executive agent for the execution of this strategy, Marine Corps 
Logistics Command will ensure the timely and responsive reset of the 
Reserve component equipment to maintain a high state of readiness 
across the Force. The unique geographic dispersion of our Reserve units 
and their limited capacity to store and maintain the total war fighting 
equipment set onsite underscores the unique relationship between Marine 
Corps Logistics Command and our Reserve units. This relationship 
assures high training readiness by using a specific training allowance 
at Reserve Training Centers while maintaining the remainder of the war 
fighting requirement in enterprise-managed facilities. This strong 
relationship, which is necessary for a viable operational Reserve, is 
inherent in the service's reset strategy. I am confident that Marine 
Forces Reserve will continue to meet the Commandant's first priority--
provide the best trained and equipped Marine units to Afghanistan--
while protecting the enduring health of the operational Reserve.
    Although we have been engaged in combat operations for more than a 
decade, our equipment readiness rates remain above 97 percent. To be 
sure, this last decade has demonstrated the need to maintain a 
significant Reserve Force readiness posture, even during periods of no 
or low conflict. However, our current 97-percent readiness level has 
only been attained and sustained by the availability of contingency 
funding. As the contingency funding draws down and on-hand assets 
increase as a result of the Reset, we will rely solely on our 
Operations and Maintenance, Reserve appropriation. Additionally, 
equipment preventive maintenance and organizational maintenance 
programs have also become more developed due to increased training 
associated with mobilizations over the past decade. Thus, the 
requirement to maintain them will still exist as the contingency 
funding that supports these capabilities decreases.
    Several resources and programs combine to form the basis to the 
Marine Corps Reserve approach to maintenance. Routine preventive and 
corrective maintenance are performed locally by operator and organic 
maintenance personnel. This traditional approach to ground equipment 
maintenance was expanded to include an increasing reliance on highly 
effective contracted services and depot-level capabilities, which were 
provided by the Marine Corps Logistics Command. Over the past year, we 
experienced significant success with the Marine Corps Logistics 
Command's ``Mobile Maintenance Teams'' that have provided preventive 
and corrective maintenance support to all 183 Marine Corps Reserve 
centers across the United States. This maintenance augmentation effort 
has directly improved our equipment readiness as well as provided 
valuable ``hands on'' training to our organic equipment maintainers.
    Additionally, the Marine Corps Logistics Command's ``Enterprise 
Lifecycle Maintenance Program'' provides for the rebuilding and 
modifying of an array of principal end items, such as the light armored 
vehicle, the amphibious assault vehicle, and our entire motor transport 
fleet. Finally, we continue to reap significant benefits from the 
Marine Corps Corrosion Prevention and Control Program. Dollar for 
dollar, this program has proven highly effective in the abatement and 
prevention of corrosion throughout the Force. Collectively, these 
initiatives and the hard work and dedication of our marines and 
civilian marines across Marine Forces Reserve sustain our ground 
equipment readiness rates at or above 97 percent.
    The National Guard and Reserve Equipment Appropriation (NGREA) has 
been used to modernize and equip the Reserve component. It has funded 
equipment that provides both maximum interoperability and balance 
between the Active and Reserve components. Building on the $65 million 
and $45 million that we received in fiscal years 2009 and 2010 to 
supplement baseline procurement dollars and accelerate the fielding of 
various programs throughout the Marine Air Ground Task Force, fiscal 
year 2011's $70 million in NGREA support was used to procure 10 light 
armored vehicle logistics variants, which completed our light armored 
vehicles requirement. The funds were also used for the procurement of 
satellite network packages for command and control, Raven Unmanned 
Aerial Vehicle systems, various combat vehicle training and 
marksmanship systems, and virtual convoy trainers and simulators 
enhanced Reserve component modernization programs.
    As articulated in our fiscal year 2013 National Guard and Reserve 
Equipment Report (NGRER), the Marine Corps' Total Force fielding policy 
is accentuated by a methodology of horizontal fielding of equipment to 
enable the Service concept of ``mirror imaging'' between the Active and 
Reserve components. Accordingly, as the Marine Corps incorporates 
modernization programs to posture our capabilities to meet the ever-
changing character of current and future operations, we have identified 
five modernization priorities that could be funded with the fiscal year 
2012 NGREA that have been already provided.
    The first three priorities relate to the incorporation of aircraft 
flight training devices (FTDs) and their linkage via the Aviation 
Virtual Training Environment (AVTE). These devices will not only allow 
aircrews to conduct more sorties via the simulators/training devices 
but will also allow the Reserve component to train with other units and 
aircrews as a way to reduce costs in a resource-constrained 
environment. The first priority is to procure a CH-53E FTD, which will 
enable aircrew refresher and proficiency training along with AVTE 
linkage to other FTDs. The second and third priorities are to procure 2 
UH-1 and 1 MV-22 FTDs, respectively, allowing for both aircrew 
refresher and proficiency training, as well as conversion training 
prior to the UH-1Y and MV-22B aircraft delivery to the Reserve 
component.
    The fourth and fifth priorities involve the modernization of the 
KC-130T, which will remain in service in the Reserve component beyond 
the year 2020. Procurement of the Digital Engine Indicator Panels will 
mitigate parts obsolescence issues and the Electronic Prop Control 
Systems will increase the mean time between failures for the KC-130T 
community's top degrader. The modernization of the KC-130T will serve 
as a bridge to the KC130J, which may not be fielded to the Reserve 
component until 2020.

                                TRAINING

    For the fourth year in a row, Marine Forces Reserve will sponsor 
exercise Javelin Thrust stateside this July, which will focus on Marine 
Air Ground Task Force core competency training. Javelin Thrust 2012 
will be conducted aboard installations throughout the Western United 
States with both virtual and real world aspects to the exercise. This 
year, Javelin Thrust has been designated as Large Scale Exercise 1 for 
the Marine Corps and will serve as an aid-to-construct for future Large 
Scale Exercises. Javelin Thrust 2012 will be executed as a Marine Air 
Ground Task Force deployment vice a compilation of numerous annual 
training events, with units participating based on their future 
deployment schedule according to the Force Generation Model. Javelin 
Thrust will provide all elements of the Marine Air Ground Task Force 
with the opportunity to complete some of the training necessary to 
expeditiously forward-deploy in any operational environment. 
Additionally, individuals serving on the exercise's Marine Air Ground 
Task Force staffs will receive training that will enable them to 
competently perform as individual augments on a Marine Air Ground Task 
Force and/or joint staff overseas. The Large Scale Exercise will be an 
assessed Marine Air Ground Task Force exercise at the Marine 
Expeditionary Brigade level composed of Marine Forces Reserve units 
from Force-level units and all three major subordinate commands and an 
integrated Active and Reserve component headquarters. This aspect of 
the exercise is aimed at validating the Total Force approach with an 
emphasis on interoperability of Active component and Reserve component 
Marine forces.
    One of the most exciting areas where we continue to transform the 
depth and scope of our training remains the cutting-edge arena of 
Training Simulation. We continue to maximize our efficiencies by 
utilizing our training simulators wherever possible in order to 
preserve our fiscal resources. Marine Forces Reserve continues to field 
several immersive complex digital video-based training systems, 
complete with the sights, sounds and chaos of today's battlefield 
environments. These systems are particularly important, considering the 
limited training time and facilities available to our commanders. Last 
year, we completed the fielding and upgrading of the Indoor Simulated 
Marksmanship Trainer-XP. These simulators make it possible for the 
Marines to ``employ'' a variety of infantry weapons--pistol through 
heavy machinegun--in rifle squad scenarios.
    The Virtual Combat Convoy Trainer-Reconfigurable Vehicle System 
provides invaluable predeployment training for the drivers of all makes 
and models of tactical vehicles. This trainer provides various 
conditions of terrain, road, weather, visibility and vehicle condition 
as well as various combat scenarios, which includes routine movement, 
ambush, and IED, among others. The Virtual Combat Convoy Trainer-
Reconfigurable Vehicle System is a mobile, trailer-configured platform 
that utilizes a HMMWV mock-up, small arms, crew-served weapons, 360-
degree visual display with after-action review/instant replay 
capability. Incorporation of this training system is attributed with 
saving countless lives in Iraq and Afghanistan, and upwards of $37 
million a year in training dollars. We are now preparing to accept the 
fourth generation of this system and have doubled student throughput.
    The HMMWV Egress Assistance Trainer and the Mine-Resistant Armor 
Protected (MRAP) Egress Trainer are mechanical simulation trainers that 
familiarize Marines with the techniques and procedures to egress a 
HMMWV or a MRAP vehicle that has overturned. Both Trainers are training 
tools that provide Marines with the opportunity to experience vehicle 
roll-over conditions to enable them to rehearse actions and physically 
execute the steps necessary to survive a vehicle rollover. These 
systems support the U.S. Central Command requirement for all marines to 
complete vehicle roll-over training prior to deploying to designated 
combat zones.
    Language and culture training is available to all Marine reservists 
and is delivered via a variety of techniques from live instruction to 
portable media to Web-based tutorials and applications. Our Afghanistan 
culture training leverages academia, utilizes Afghan-American 
expertise, and includes Web-host detailed and tailored courses of 
instruction. These courses can be accessed by any computer and have the 
added functionality of being iPod compatible to download for 
transportability and accessibility by our marines. We beta-tested our 
first Pashtu language course for an infantry battalion that deployed to 
South Asia. This was an 18-week, 108-hour course that was a Webinar-
linked program, which allowed geographically separated marines and 
instructors to ``meet'' in a virtual classroom that consisted of using 
course-provided computing systems. It was synonymous with the program 
Special Operations Command has been running for a number of years. This 
course was directed to provide Pashtu language capability down to the 
squad level with participants at the rank of lieutenant, sergeant, 
corporal and below. In comparison to some of the resident training 
programs offered within the Joint and larger DOD community, this course 
yielded better results on the proficiency exam. Additionally, our 
marines also participated in introductory Pashto immersion training, 
which was conducted in 5- and 8-week blocks of instruction and was 
supported by the Partner Language Training Center Europe (PLTCE) 
Garmisch, Germany, and the Language Acquisition Resource Center at San 
Diego State University. Last, given that our Marines deploy throughout 
the globe, we access a variety of other sources of language and 
cultural training, such as the Marine Corps' Center for Advanced 
Operational Culture and Language, the Defense Language Institute, and 
Regional Language Centers. Your continued support of these enhanced 
language and culture learning opportunities critically enables our 
competence in the current fight in Afghanistan and global Theater 
Security Cooperation requirements.
    Last, Marine Forces Reserve has integrated safety programs in 
training to maximize Force preservation. Of particular note is our 
Center for Safety Excellence aboard Naval Air Station Joint Reserve 
Base New Orleans in Belle Chasse, Louisiana, where we address the 
current lead cause of death of our personnel--motor vehicle accidents. 
At the Center, personnel receive training in the safe operation of 
their motor vehicles, which includes both cars and motorcycles. I'm 
pleased to report that anecdotal evidence suggests this program was 
instrumental in the reduction of fatal motorcycle mishaps by 33 percent 
from fiscal year 2010 to 2011. Coupling these results with a renewed 
emphasis on personal responsibility, I directed leaders at all levels 
to establish a culture among our personnel that promotes making 
responsible choices.
    Responsible choices are the foundation of our Corps Values. In 
calendar year 2012, Marine Forces Reserve implemented the Culture of 
Responsible Choices program, which is really a change in mindset vice 
an actual new formal program. This mindset pertains to all Marines and 
people in Marine Corps organizations who are asked to rethink how they 
do business and conduct their lives to ensure their decisions lead to 
safe and healthy outcomes. The Culture of Responsible Choices program 
emphasizes personal responsibility and accountability for 
decisionmaking and behavior--not only within our fence lines and work 
centers but at home, in leisure activities, and in our personal lives. 
The program addresses a wide range of unhealthy and healthy human 
behaviors, such as alcohol misuse, drug use, tobacco use, physical 
fitness, sound financial management, vigorous suicide prevention, 
effective sexual assault response and prevention, and safe practices at 
work, at home, and on vacation. Alcohol misuse is our first target. 
Anecdotal evidence suggests alcohol misuse has been the common 
denominator for many poor choices and negative decision events across 
the behavioral health spectrum.

                               FACILITIES

    Marine Forces Reserve has facilities in 48 States, the District of 
Columbia, and Puerto Rico. These facilities include 32-owned sites, 151 
tenant locations, three family housing sites, and a marine barracks. 
Although some Reserve centers are located on major DOD bases and 
National Guard compounds, many of our centers are openly located within 
civilian communities. Therefore, the condition and appearance of our 
facilities informs the American people's perception of the Marine Corps 
and the Armed Forces throughout the Nation. Our facilities' efforts 
focus on maintaining the physical resources to support ideal 
operational training that enables Marine Forces Reserve to support 
Service and combatant command operational requirements. The largest 
part of the budget for facilities is used to maintain the existing 
physical plant at diverse sites.
    Ninety-three of our 183 Reserve centers are more than 30 years old 
and 54 are more than 50 years old. Through recent increases in Marine 
Forces Reserve facilities sustainment, restoration, and modernization 
(FSRM) support and $39.9 million in American Recovery and Reinvestment 
Act (ARRA) funding, we have improved the overall readiness of our 
facilities inventory and corrected facility condition deficiencies. The 
FSRM funding was used to complete more than 150 projects during fiscal 
year 2011. Eighty-four FSRM projects are scheduled for fiscal year 
2012. The ARRA funding was applied to 25 projects across 11 States, 
which accomplished much needed repairs and renovations, while enhancing 
energy efficiency. Eight of those ARRA projects are still under way. 
Projects funded by ARRA include upgrades to meet antiterrorism force 
protection standards as well as building access compliance requirements 
of the Americans with Disabilities Act of 1990.
    The Base Realignment and Closure (BRAC) 2005 enabled us to 
consolidate and replace Reserve centers across the country, which 
included replacement of 22 centers. Under BRAC 2005, Marine Forces 
Reserve executed 24 of the Marines Corps' 47 directed actions, and 
successfully completed all its remaining relocations during fiscal year 
2011. Of these 24 BRAC actions, 21 were shared with Army and Navy 
military construction projects. Our BRAC plans were tightly linked to 
those of other Services and government agencies as we developed 
cooperative agreements to share Reserve centers and joint bases. Marine 
Forces Reserve units are aboard 8 of the 12 joint bases that were 
created under BRAC 2005. The accomplishments of BRAC 2005 represent the 
largest movement and upgrade in memory for the Marine Corps Reserve 
with 17 projects completed in 2011.
    The Marine Corps' Military Construction--Naval Reserve (MCNR) 
construction program focuses on new footprint and recapitalization of 
our aging facilities. The construction provided by BRAC 2005 and the 
annual authorization of MCNR funding have been important factors in 
moving Marine Forces Reserve forward in its facilities mission and 
taking our number of inadequate or substandard-sized Reserve centers 
significantly below the 50-percent level. Continued annual funding for 
our MCNR program will keep us moving in a positive direction, which 
will enable Marine Forces Reserve to constantly improve the physical 
infrastructure that supports and reinforces the mission readiness of 
our units.
    To address the implementation of sustainable design principles, 
Marine Forces Reserve has adopted the U.S. Green Building Council's 
(USGBC) Leadership in Energy and Environmental Design (LEED) Green 
Building Rating System for New Construction and Major Renovation. LEED 
is a performance-oriented system based on accepted energy and 
environmental principles where credits are earned for satisfying 
criteria designed to address specific environmental impacts inherent in 
the design, construction, operations, and maintenance of buildings. 
During fiscal year 2011, we completed our first LEED Silver-certified 
rehabilitation project in Baltimore, Maryland.
    There are significant opportunities to improve the energy and water 
efficiency of Reserve facilities and expand the use of renewable 
resources. During 2010 and 2011, we completed energy assessments at our 
32-owned sites and are implementing the recommendations from those 
assessments, initially targeting the sites that are the biggest energy 
users nationally. In addition, we have a contract in place and are well 
on our way to having advanced meters installed at our 32-owned Reserve 
centers across the country to measure building electrical usage and are 
on track for completion by the October 1, 2012, deadline. Since 2010, 
eight solar/photovoltaic energy and lighting projects have been 
completed at Reserve centers in California and Louisiana, and we have 
three more projects scheduled for completion during fiscal year 2012. 
The 225kw Louisiana project that was completed in August 2011 is the 
largest photovoltaic project in State history. Four small wind turbines 
are scheduled for construction in fiscal year 2012 with at least three 
more planned for fiscal year 2013. Our investment in these technologies 
provides energy security, efficiency, and cost avoidance for our 
geographically dispersed sites.
    Our environmental program continues to excel. I consider 
environmental compliance a priority for the command, and reinforce 
environmental compliance by directing continual training for our 
Marines and Sailors at each unit and site. Furthermore, our 
environmental program supports our FSRM and MCNR programs by ensuring 
compliance with the National Environmental Protection Act for each 
project and action.
    Of special note, this year is the movement of my headquarters and 
consolidation of our major subordinate commands in New Orleans. This 
unique BRAC project, which integrated State, local and Federal efforts, 
was completed on time. The State of Louisiana provided construction 
dollars for the new headquarters facility, saving the Federal 
Government more than $130 million. The Department of the Navy provided 
the interior furnishings, information technology, and security 
infrastructure. This building incorporates multiple energy and 
environmentally friendly processes that meet LEED-certifiable 
standards. We were assisted by Department of Energy's Federal Energy 
Management Program in identifying future projects for maximizing the 
sustainability and energy efficiencies of the buildings and the 
compound. This building and its surrounding acreage is the newest 
Marine Corps Installation: Marine Corps Support Facility, New Orleans.
    Last, implementation of the Force Structure Review provides an 
opportunity to better align mission changes with facilities 
infrastructure capabilities. As the process moves forward, the total 
impacts will be analyzed to gain efficiencies and reduce the backlog of 
unfunded MCNR projects, allowing targeted investment in those sites 
that provide the best operational return on investment.

                 HEALTH SERVICES AND BEHAVIORAL HEALTH

    Our Marines, sailors, and their families remain our highest 
priority. Therefore, we remain keenly attentive to their health and 
resiliency. During dwell, our health services priority is to attain and 
maintain the DOD goal of 75 percent ``Fully Medically Ready.'' In 
fiscal year 2011, Marine Forces Reserve individual medical and dental 
readiness rates were 56 percent and 83 percent, respectively. We are 
aggressively working to improve the medical readiness of the Force to 
achieve the goal of 75 percent ``Fully Medically Ready.''
    Healthcare for the Reserve component integrates many diverse 
programs across the spectrum of the deployment cycle--premobilization, 
deployment, and postdeployment--and is categorized into two areas: unit 
medical readiness and behavioral health. Unit medical readiness 
programs include the Reserve Health Readiness Program and TRICARE 
Reserve Select. Behavioral health programs include the Post Deployment 
Health Reassessment and the Psychological Health Outreach Program.
    The Reserve Health Readiness Program is the cornerstone for 
individual medical and dental readiness. This program funds contracted 
medical and dental specialists to provide healthcare services to units 
not supported by a military treatment facility. During fiscal year 
2011, the Reserve Health Readiness Program performed 12,398 Periodic 
Health Assessments, 781 Post-Deployment Health Reassessments, and 7,685 
Dental Procedures. TRICARE Reserve Select, a premium-based healthcare 
plan, is also available to our marines, sailors, and their families.
    Behavioral health has increasingly become an integral part of 
medical readiness over the past few years. Navy medicine continues to 
address this complex issue through various independent contracted 
programs, such as the Post-Deployment Health Reassessment and the 
Psychological Health Outreach Program. The Post-Deployment Health 
Reassessment identifies health issues with specific emphasis on mental 
health concerns, which may have emerged since returning from 
deployment. The Psychological Health Outreach Program addresses 
postdeployment behavioral health concerns through a referral and 
tracking process. These programs have proven effective in the overall 
management of identifying those marines and sailors who need behavioral 
health assistance and have provided an avenue to those servicemembers 
who seek behavioral health assistance.
    The Commandant of the Marine Corps directed that we more fully 
integrate behavioral health services to help reduce redundancies and 
ultimately improve the overall quality and access to care. The Marine 
Corps integrated its behavioral health programs in order to provide an 
integrated service delivery of innovative, evidence-based practices to 
commanders, servicemembers, and their families. This service delivery 
will be woven into the larger support network of our command structures 
and health and human services across the Marine Corps to better build 
resilience and strengthen marines and families. This efficiency 
initiative successfully integrates our Combat and Operational Stress 
Control, Suicide Prevention, Sexual Assault Prevention and Response, 
Substance Abuse Prevention, and Family Advocacy Programs and will be 
instrumental in synchronizing our prevention efforts. In regard to 
Combat and Operational Stress Control, training for leaders on this 
program was incorporated throughout Marine Forces Reserve at all 
levels. The training provides knowledge, skills, and tools required to 
assist commanders to prevent, identify, and manage combat and 
operational stress concerns as early as possible. This training is 
provided to servicemembers of units that are deploying for more than 90 
days during predeployment training.
    Given that the signs of operational and combat stress and suicide 
can manifest long after a servicemember returns home from deployment, 
there are unique challenges posed for Reservists who can be isolated 
from the daily support network inherent in one's unit and vital medical 
care. Encouraging marines to acknowledge and vocalize mental health 
issues is also a ubiquitous challenge facing our commanders. We are 
actively combating the stigma associated with mental healthcare through 
the immersion of key programs in the demobilization and reintegration 
processes of our Reserve Marines following deployment, such as the 
Yellow Ribbon Reintegration Program. Your continued support of these 
programs is greatly appreciated.
    There are six suicide prevention initiatives that we leverage for 
our Reserve marines and sailors:
    In-Theater Assessment.--Reservists who exhibit or are struggling 
    with clinically significant issues should be seen by competent 
    medical authorities and evaluated for postdeployment treatment with 
    follow-up decisions made prior to their return home.
    Post-Deployment Health Reassessment.--It is important that if any 
    issues emerge during the Reservist's Post Deployment Health 
    Reassessment (PDHRA) that they are immediately evaluated and 
    referred for treatment by the clinician interviewer. This includes 
    referral recommendations based on the available local resources, 
    such as the Veterans Administration, MilitaryOneSource, or private 
    mental health providers.
    Psychological Health Outreach Program.--I enthusiastically 
    recommend continued delivery of the Psychological Health Outreach 
    Program (PHOP), which is an essential program for treatment 
    referral and follow up to ensure they are receiving the appropriate 
    behavioral health services.
    Care Management Teams.--This suicide prevention initiative includes 
    the Veterans Administration's OIF/OEF care management teams that 
    are a readily available resource for our reservists. The VA assigns 
    a Primary Care manager, who is responsible for referral and follow-
    up, to any Reservist who has a healthcare issue.
    Never Leave a Marine Behind Suicide Prevention Course.--We continue 
    to implement the Marine Corps' Junior Marine, Non-Commissioned 
    Officer, Staff Non-Commissioned officer, and Officer modules of the 
    Never Leave a Marine Behind (NLMB) Suicide Prevention Course. The 
    NLMB series provides the best skills and tools available to 
    marines, sailors, and their leaders so that they can better cope 
    with the challenges of combat and the rigors of life both deployed 
    and in garrison. Marine Forces Reserve has trained hundreds of 
    Marines who can deliver the Course at more than 130 different 
    Reserve sites around the country.
    Telemedicine.--Telemedicine initiatives enable us to ensure there 
    are effective mechanisms available to identify reservists in need 
    and a way to treat those who may sometimes be geographically 
    isolated from the TRICARE networks.
    Additionally, any Reservist and their family can access Marine 
Corps installations behavioral health programs through Marine Corps 
Community Services programming while they are on any type of Active 
Duty orders. When they are not on Active Duty orders, MilitaryOneSource 
provides counseling, resources, and support to Reserve servicemembers 
and their families anywhere in the world. The DSTRESS Line will also be 
available to all Reserve marines, sailors, and family members. The 
DSTRESS Line is a by-Marine-for-Marine anonymous counseling and 
referral line, manned by veteran Marines and licensed behavioral health 
counselors who have been specifically trained in Marine Corps culture 
and ethos. Its mission is to foster resilience and build coping skills 
and includes a Web site with chat capability and interactive resource 
directory.
    Another resource Marine Forces Reserve utilizes to ensure the 
health and resiliency of our marines, sailors, and their families is 
our Chaplain Corps, which is composed of Active and Reserve Component 
chaplains. Specifically, my chaplains deliver the Chaplain Religious 
Enrichment Development Operations (CREDO) Marriage Enrichment Retreats, 
which focuses on strengthening the wellness of the Force by addressing 
the stressors on a marriage that may result from military service. That 
is, these retreats offer an opportunity for marines and sailors 
throughout our 183 Reserve centers to enrich and enhance their marriage 
in the presence of high-operational deployment cycles and the 
corresponding challenges that may ensue due to family separation. 
During fiscal year 2011, 166 couples participated in these retreats. 
Anecdotal evidence suggests that these retreats were effective in 
strengthening their marriages, which in turn, enhanced the readiness of 
our Force.
    Sexual Assault Prevention and Response (SAPR) continues to be a 
priority throughout the Force. A Force-wide 24/7 Help Line is available 
to Reserve and Active component servicemembers. The Help Line is 
staffed by marines who are trained to discretely respond to victims of 
sexual assault and refer them to services available throughout the 
United States. The Help Line is periodically assessed by my SAPR 
office, as well as Headquarters Marine Corps and the Naval Audit office 
for process improvement. Every Marine Reserve center has a Uniformed 
Victim Advocate (UVA) who is readily available to assist a victim 
whenever necessary. Developing a functional 24/7 response in the 
Reserves has required that our leaders research and develop 
relationships with other military and civilian behavioral health 
resources. Accordingly, many of the site's UVAs have created networks 
with Rape Crisis centers in their local areas in order to provide the 
best care available to victims whenever required. Sexual assault 
prevention and response training has been updated and includes the 
``Take A Stand'' video-based, bystander intervention curriculum. This 
3-hour annual training requirement began in January and is mandatory 
for all noncommissioned officers. The objectives of the course are to 
reduce the number of sexual assaults and to increase reporting. The 
course stresses the responsibility of noncommissioned officers to one 
another, as well as to one of the Marine Corps' most at-risk 
populations--junior marines. ``Take A Stand'' also stresses the 
importance of stepping in to prevent sexual assault through bystander 
intervention. Similar training will be provided to all ranks during 
fiscal years 2013 and 2014. The command climate within Marine Forces 
Reserve and throughout the Marine Corps fully supports sustaining an 
environment where sexual assault is not tolerated in any capacity on 
any level, which is essential in eradicating interpersonal violence 
from the Marine Corps.

                            QUALITY OF LIFE

    We are devoted to ensuring an appropriate balance and effective 
performance of our quality-of-life programs and services to ensure our 
programs and services meet the needs and expectations of our Active 
Duty personnel and reservists, including those Reserve servicemembers 
in the Individual Ready Reserve (IRR). In doing so, we continue to 
operate Family Readiness Programs, revitalize services, and proactively 
reach out to and keep faith with our marines, sailors, and their 
families.
    To meet the challenge of deployments, and to maintain a constant 
state of readiness, the Marine Corps continues to enhance family 
support through our full-time Family Readiness Officer (FRO) program. 
This program is staffed by either civilians or Active Duty Marines and 
collateral duty uniformed Deputy FROs at the battalion/squadron level 
and above. Additionally, modern communication technologies, such as the 
recently launched e-Marine Web site, expanded our ability to better 
inform and empower family members--spouses, children and parents--who 
often have little routine contact with the Marine Corps and oftentimes 
live considerable distances from large military support facilities.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle by 
providing predeployment, deployment, postdeployment, and follow-on 
educational opportunities at unit Family Days, Pre-Deployment Briefs, 
Return and Reunion Briefs, and Post-Deployment Briefs. This is 
accomplished through unit-level Family Readiness programs that are the 
responsibility of the local commanding officer, and is managed by the 
full-time, nondeploying FRO who is supported by trained volunteers and 
Force-level programs that are provided by a professional staff at 
Marine Corps Family Team Building (MCFTB).
    The MCFTB programs provide educational resources and services to 
foster personal growth and enhance the readiness of Marine Corps 
families. The program's core training is available to marines and their 
families and consists of Readiness and Deployment Support Trainer 
(RDST); Family Readiness Program Training (FRPT); Lifestyle Insights, 
Networking, Knowledge, and Skills (L.I.N.K.S.); and LifeSkills. During 
fiscal year 2011, 176 MCFTB training events were conducted across the 
United States at various Marine Corps Reserve units, which resulted in 
7,710 marines, sailors, and family members receiving critical and vital 
information and support.
    The goals of RDST and FRPT are to prepare marines, sailors, and 
their families for the unique challenges of deployment, in addition to 
maintaining a constant state of readiness independent of deployment. 
Each Marine Corps installation and Marine Forces Reserve are staffed 
with trainers who coordinate and deliver program trainings, pre-, mid-, 
and post-deployment briefs and support at the unit level for 
servicemembers and their families.
    The L.I.N.K.S. program is a training and mentoring program designed 
by marine spouses to help participants thrive in the military lifestyle 
and adapt to challenges, which includes those challenges that are 
presented by deployments. The program offers an orientation to the 
Marine Corps lifestyle by helping spouses, marines, children, teens, 
parents, and extended family members understand and adapt to the unique 
challenges that military life often presents.
    The objective of our LifeSkills training and education initiatives 
is to offer an opportunity for our marines, sailors, and their families 
to grow both personally and professionally by participating in 
workshops that cover a broad spectrum of life competencies in areas 
such as communication, relationships, and wellness. Online versions of 
all MCFTB trainings are slated to be available this year, which should 
make these valuable tools more readily accessible to families of our 
geographically dispersed servicemembers who are not in close proximity 
to Marine Corps installations.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to servicemembers, families, retirees, 
and civilian employees. More than 1,700 Marine Forces Reserve personnel 
(Active and Reserve component) enjoyed the benefit of tuition 
assistance, utilizing more than $4.5 million that funded more than 
5,500 courses during fiscal year 2011. Tuition assistance greatly eases 
the financial burden of education for our servicemembers while enabling 
them to maintain progress toward their education goals. Additionally, 
our partnership with tutor.com offers our marines, sailors, and their 
families access to 24/7 no-cost, live online tutoring services for K-12 
students, college students, and adult learners.
    Our Semper Fit program is fully engaged to deliver quality, 
results-based education and conditioning protocols for our marines and 
sailors. The program includes hands-on strength and conditioning 
courses, online physical fitness tools and recorded webinars, and 
instruction on injury prevention, nutrition, and weight management. Our 
marines' and sailors' quality of life is also increased through various 
stress management and esprit de corps activities, such as unit outings 
and participation in competitive events. These programs are key to unit 
cohesion, camaraderie, and motivation. Also, through the DOD contract 
with the Armed Services YMCA, the families of our deployed Reservists 
enjoy complimentary fitness memberships at participating YMCA's 
throughout the United States and Puerto Rico. Our Active Duty marines 
and their families located at independent duty stations have the 
ability to access these services as well.
    The Marine Corps' partnership with the Boys and Girls Clubs of 
America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA) continues to provide a great resource 
for servicemembers and their families in selecting child care, before, 
during, and after a deployment in support of overseas contingency 
operations and planned deployments. The Boys and Girls Clubs of America 
provide outstanding programs for our Reservists' children between the 
ages of 6 and 18 after school and on the weekends. Under our agreement 
with BGCA, Reserve families can participate in more than 40 programs at 
no cost. Our off-base child care subsidy program helps families of our 
reservists locate affordable child care that is comparable to high-
quality, on-base, military-operated programs. This program provides 
child care subsidies at quality child care providers for our Reservists 
who are deployed in support of overseas contingency operations and for 
those Active Duty marines who are stationed in regions that are 
geographically separated from military bases and stations. 
Additionally, our marine families (Active and Reserve) who are enrolled 
in the Exceptional Family Member Program are offered up to 40 hours of 
free respite care per month for each exceptional family member. This 
allows our families the comfort that their family member will be taken 
care of when they are in need of assistance.
    Marine Forces Reserve has fully implemented the Yellow Ribbon 
Reintegration Program at each of the five stages of deployment to 
better prepare our servicemembers and their families for activation and 
return to civilian life after mobilization. During fiscal year 2011, we 
took proactive steps to maximize participation while minimizing costs 
by hosting Yellow Ribbon Reintegration events at Reserve centers. This 
step lowered the average cost per participant to $340 per training 
session and I anticipate additional cost savings this fiscal year 
because of these efforts. More importantly, this enables our units to 
proactively plan around the operational and unique individual needs of 
their marines, sailors, and families in addition to keeping unit 
leadership in the forefront of the issues that affect their 
servicemembers. In fiscal year 2011, we executed 155 events in which 
6,264 servicemembers--including marines in the Individual Ready 
Reserve--2,399 family members, and 3,673 nondependent family members 
and/or designated representatives participated for a total of 12,366 
persons served by our program. Additionally, we are particularly 
supportive of Military OneSource, which provides our marines, sailors, 
and their families with an around-the-clock information and referral 
service via toll-free telephone and Internet access on subjects such as 
parenting, childcare, education, finances, legal issues, deployment, 
crisis support, and relocation. Your support of these programs enables 
Marine Forces Reserve to keep faith with our servicemembers and their 
families.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. This unique program is designed to bring 
counselors on-site at Reserve centers to support all phases of the 
deployment cycle. Follow-up services are scheduled after servicemembers 
return from combat at various intervals to facilitate on-site 
individual and group counseling.
    Marines, sailors, and their families, who sacrifice so much for our 
Nation's defense, should not be asked to sacrifice quality of life. We 
remain a forceful advocate for these programs and services and continue 
to transition and align our programs and services to meet current and 
future challenges. The combined effect of these programs is critical to 
the readiness and retention of our marines, sailors, and their 
families, and your continued support of these programs is greatly 
appreciated.
  supporting our wounded, ill, and injured marines and their families
    The nonmedical needs of our wounded, ill, and injured (WII) marines 
and their families can be extensive and vary in type and intensity 
depending upon the phase of recovery. There is no ``one size fits all'' 
approach to WII care. The Marine Corps' Wounded Warrior Regiment (WWR) 
strives to ensure there is one standard of care for all WII marines--
whether they are Active component or Reserve component. The WWR holds 
high levels of subject matter expertise with regard to the unique 
challenges faced by Marine Reservists and has set up component of care 
accordingly. For example, the WWR has dedicated staff--the Reserve 
Medical Entitlements Determinations Section--to specifically maintain 
oversight of all cases of reservists who require medical care beyond 
their contract period for service-connected ailments. Additionally, the 
WWR has Recovery Care Coordinators who provide one-on-one transition 
support and resource identification required to support WII reservists 
and families who are often living in remote and isolated locations away 
from the support resident on bases and stations. Another significant 
support component of the WWR that makes a positive difference in the 
lives of our WII reservists is the Sgt. Merlin German Wounded Warrior 
Call Center. This 24/7 Call Center provides support on numerous issues 
that includes referral for psychological health matters, pay and 
entitlement questions, financial assistance resources, awards, and 
information on benevolent organizations. The WWR also uses the Sgt. 
Merlin German Wounded Warrior Call Center to conduct important outreach 
calls to various populations to check on their well-being and update 
them on changes in benefits and entitlements. Finally, the WWR has 
District Injured Support Coordinators (DISCs)--geographically dispersed 
Mobilized Marine Reservists--who assist Reserve Marines throughout the 
country, which includes face-to-face contact.

                               CONCLUSION

    Marine Forces Reserve is well-positioned to be the Force of Choice 
for augmentation to the Active component, reinforcement for Service 
priorities, and sustainment as a relevant force now and for the future. 
Aligned with the middle weight force of America's Expeditionary Force 
in Readiness, Marine Forces Reserve provides options to Active 
component leaders and combatant commanders, from being ready for 
immediate use in support of disaster relief to providing strategic 
depth through sustained augmentation for major contingency operations. 
We live in a world of increasingly complex security challenges and 
uncertainty. Marine Forces Reserve is a learning organization that has 
institutionalized training, personnel management, and the Force 
Generation process to effectively and efficiently mobilize and deploy 
combat ready forces. We are well-postured to meet the current 
operational requirements and rapidly respond to future emergent 
contingencies. Your continued unwavering support of the Marine Corps 
Reserve and its associated programs enables our marines and sailors to 
professionally and competently perform in an operational capacity and 
is greatly appreciated. Semper Fidelis.

    Chairman Inouye. All right. Thank you very much, General 
Hummer.
    Now, may I recognize General Stenner.

STATEMENT OF LIEUTENANT GENERAL CHARLES E. STENNER, 
            JR., CHIEF, AIR FORCE RESERVE, UNITED 
            STATES AIR FORCE
    General Stenner. Mr. Chairman, Senator Cochran, thank you 
for the opportunity to appear here before you today.
    And I'd like to introduce my newest Command Chief of the 
Air Force Reserve Command and have her stand, please, Chief 
Master Sergeant Kathleen Buckner.
    Sir, I strongly believe today's Air Force Reserve is an 
operationally essential component of the Total Force because of 
our capability, capacity, and accessibility as a title 10 
resource.
    Air Force Reserve airmen are seamlessly integrated into 
every service core function across the full spectrum of 
operations.
    The Air Force Reserve is responsive to national security 
needs and is an effective, efficient, and affordable component 
of your Air Force, a ready force deployable within 72 hours.
    The Reserve is able to do this because of the depth of 
experience among our citizen airmen. Our Air Force Reserve 
personnel, most of whom come to us from the Active Force, 
average 7 years of additional experience over our Active Duty 
counterparts, and our equipment mission capability rates 
reflects that every day.
    Without a doubt, the Reserve is uniquely positioned to 
retain the Air Force's vast investment in human capital and 
maintain a cost-effective hedge against unanticipated 
requirements.
    The Reserve has experience from over 20 years of continuous 
operational engagement in both combat and humanitarian 
missions, and we've balanced this operation tempo (OPTEMPO) 
while maintaining our Nation's critical, strategic, surge 
capability.
    Our Air Force Reserve succeeds at being operationally 
engaged and strategically prepared due to our focus on 
maintaining the right balance. The correct Reserve, Guard, and 
Active Force mix is adaptable to circumstances, and I believe 
today's fiscal and security environments require increased 
reliance on the Reserve, and that our Air Force resourcing 
priorities should reflect such.
    The President and Secretary of Defense are clear about the 
need for reversibility of resources. The Air Force Reserve is 
their leverage to make this happen. The Nation can trust that 
the Air Force Reserve will be there when called, prepared, 
trained, and equipped to the same standards of the Active 
component.
    But there are challenges to maintaining this capability. 
The Air Force Reserve is forecasted to reduce by 900 personnel. 
However, that figure is just the proposed fiscal year 2013 
President's budget request and is the tip of the iceberg.
    Our Reserve is losing trained personnel and taking on new 
missions. The personnel losses are in specialties that are 
still essential to the Total Force, and at the same time, don't 
easily transfer to newly assigned mission areas.
    For instance, an aircraft maintainer with 17 years of 
experience cannot become a cyber warrior, with 17 years of 
experience, overnight.
    With that perspective, the Air Force is actually losing the 
capability of 5,000 to 6,000 experienced and trained personnel, 
and that loss could seriously affect the strategic reserve 
posture.
    The alternative to these losses once again is to focus on 
the correct balance, to adjust all three components mix, to 
better suit reversibility and maintain crucial capacity. I 
believe the Active component should be an advance force that is 
reactionary in nature, globally fielded in smaller numbers and 
highly responsive.
    In addition to the advance forces, the Air Force Reserve 
should be a more robust Reserve component as a projection 
force, based on the predictability of steady state and surge 
operations.

                           PREPARED STATEMENT

    The Air Force Reserve is engaged today and poised for the 
future. With the right mix of Guard, Reserve, and Active 
components, we can support the President's reversibility plan, 
contribute to the Nation's economic recovery and ensure the 
security of our Nation and its interests.
    Mr. Chairman, members of the subcommittee, Senator Cochran, 
I am honored to have served the last 4 years as Chief of the 
Air Force Reserve and Commander of the Air Force Reserve 
Command.
    I sincerely appreciate this subcommittee's enduring support 
of our Nation's citizen airmen, and I stand ready to respond to 
your questions. Thank you.
    [The statement follows:]

    Prepared Statement of Lieutenant General Charles E. Stenner, Jr.

     We live in a time of increasingly limited resources, where 
efficiencies and reduced budgets will dominate the foreseeable future--
the Air Force Reserve is not immune from the implications of this 
issue; rather, we stand ready as an operationally effective and cost-
efficient solution. Today, your Air Force Reserve, partnering with the 
Active component and Air National Guard, is committed to providing a 
Total Force solution for the Nation that is second to none. Air Force 
Reserve airmen are seamlessly integrated into every service core 
function across the full spectrum of operations, supporting missions in 
every area of responsibility with the full flexibility that a title 10 
force provides. We carry out missions across the globe as an effective 
and cost-efficient solution for America's defense: 69,141 citizen 
airmen have deployed since September 11, 2001, and we currently have 
approximately 5,700 personnel serving on Active Duty.
    The Air Force Reserve of today is a ready force, deployable within 
72 hours. We train to the same standards on the same equipment as the 
Active and the Air National Guard; offering a plug-and-play capability 
that cannot be matched by any other service. The most recent large-
scale example was the Air Force response to coalition operations during 
Operation Odyssey Dawn. Within 45 hours of notification a blend of 
Active and Reserve personnel and equipment deployed and began executing 
missions with resounding success. We have not always been able to 
respond so effectively, and with the continued support of the Congress, 
we will never return to the days of a ``hollow force.''

        OPERATIONAL COMMAND WHILE MAINTAINING STRATEGIC RESERVE

    Sustained operational taskings over more than two decades, combined 
with recent policy changes, have institutionalized the operational 
capability of the Air Force Reserve. Our operational capacity supports 
growth, sustainability, and an affordable balance among the Active and 
Reserve components. This operational capability results in increased 
force readiness while ensuring our ability to provide strategic depth.
    The Air Force continues to leverage the skills and expertise of our 
citizen airmen as we grow in mission areas deemed vital to supporting 
our National Defense Strategy: Space Superiority, Cyber Superiority, 
Global Integrated Intelligence, Surveillance, and Reconnaissance, 
Special Operations, Nuclear Deterrence Operations, and Agile Combat 
Support. We offer a flexible method to rapidly increase these critical 
capabilities.
    In order to maintain our high level of support, Air Force Reserve 
Command (AFRC) must be adequately resourced and have the same 
authorities as our partner major commands (MAJCOMs). We have numerous 
steady-state missions requiring military personnel appropriations (MPA) 
execution. These include Reserve-specific missions like hurricane 
hunters, aerial firefighting, and aerial spraying as well as our 
baseline support of instructors and daily operations across the Air 
Force. We currently rely on our partner MAJCOMs to provide the MPA 
budget to fund these AFRC steady-state missions.
    Under the proposed force structure, the Air Force Reserve is 
forecast to retire 82 aircraft and reduce end-strength by 900 
personnel. This manpower reduction is misleading since we are losing 
trained personnel in legacy missions while taking on new missions where 
the experience does not easily transfer. For example, an experienced 
aircraft maintainer cannot become a cyber-warrior overnight. Based on 
this reality, the Air Force Reserve is actually losing a capability of 
5,000-6,000 personnel and risks breaking the Strategic Reserve.

                       COST-EFFECTIVE CAPABILITY

    National Guard and Reserve Equipment Account (NGREA) funds are 
critical for ensuring readiness through execution year funds. Our 
modernization strategy has consistently focused on providing our force 
with the most up-to-date systems possible, protecting airmen while they 
defend our Nation, equipping them for Irregular War Operations, and 
providing a common picture of the battlefield. Our strategy intends, 
first and foremost, to alleviate critical mission capability shortfalls 
that potentially cause mission failure or loss of life. Upgrade of 
defensive systems, communications equipment and data links, precision 
engagement capabilities to include target identification, and 
replacement of obsolete mission equipment are just a few examples of 
recent modernization efforts. All of this is due to the hard work of 
the members of this subcommittee and your staffs supporting the 
administration's budget requests.
    Military Construction (MILCON) is not a luxury; it is a necessity 
that impacts readiness. In addition to funding new facilities, we rely 
on MILCON as we repurpose existing buildings for use in new missions. 
The Air Force MILCON Program is based on mission-required construction 
priorities and distributes funds across installations based on their 
respective plant replacement value percentages. Using these 
calculations the Air Force Reserve should receive 4 percent ($17.7 
million) of the Air Force MILCON budget ($442 million); however, we are 
projected for only 2.5 percent ($11 million) of the program. The Active 
component and Guard both exceeded their equitable share at the expense 
of the Air Force Reserve.
    The Air Force Reserve provides our Nation cost-effective and 
efficient combat capability. We provide 3.5 combat-ready reservists for 
the cost of 1 Active-Duty airman. Our Air Force Reserve is rich with 
combat veterans and highly skilled reservists who average 4-5 years 
more experience than their Active Duty counterparts. In fact, more than 
56 percent of Air Force Reserve airmen have prior military experience--
representing an immense pool of talent that our Nation otherwise would 
have lost were it not for our Reserve component. The proposed Air Force 
Reserve budget is about 4.6 percent of the Air Force's $110.1 billion 
allocation. This includes more than $5 billion in funding for citizen 
airmen who fulfill title 10 or Federal roles and missions in time of 
war or national emergency. Our people and programs are created 
exclusively for the Nation's strategic capabilities that reach all the 
States as well as worldwide.
    In these times of constrained budgets, it is prudent to rebalance 
the force with a goal of maintaining to the fullest extent, the 
capability and professionalism that already exists in today's force to 
meet the challenges of the future. The American taxpayer has spent 
trillions of dollars training and equipping our airmen, and the Air 
Force Reserve is well-positioned to capture and preserve that 
investment. This is consistent with the principle of ``reversibility'' 
from the most recent strategic guidance.\1\ Assigning resources to the 
Air Force Reserve maintains the ability to generate capabilities that 
might be needed to meet future, unforeseen demands, maintaining 
intellectual capital and frontline experience that could be called upon 
when required.
---------------------------------------------------------------------------
    \1\ Presidential and Secretary of Defense strategic guidance, 
Sustaining U.S. Global Leadership: Priorities for 21st Century Defense, 
January 2012.
---------------------------------------------------------------------------
    Force rebalancing should be based on carefully considered analysis 
produced by all three of our components. As the Air Force works through 
this tough decisionmaking process, it is imperative that we ensure 
roles, missions, and force balance of all the components are 
appropriately considered. Trading away highly experienced Reserve 
personnel to invest in future Active component operations is a sub-
optimal choice that exchanges trained and available combat capability 
in the Air Force Reserve for recruiting and training new personnel in 
the Active component. A recent study found that Reserve component wings 
generally provide mission-ready aircraft, aircrews, and maintainers at 
lower annual cost when compared to the Regular Air Force.\2\ Operating 
characteristics of the Reserve, such as highly experienced aircrews 
that require fewer sorties to maintain proficiency, and lean 
infrastructure at many of our operating locations are contributing 
factors. This cost advantage means that Reserve resources provide surge 
capacity for less cost than other Air Force components.
---------------------------------------------------------------------------
    \2\ RAND Project Air Force, Comparing Costs: Active and Reserve 
Component Flying Units, PAF-1P-84, February 6, 2012, Al Robbert.
---------------------------------------------------------------------------
    Our force is agile and responsive to uncertainty and rapid changes 
in national priorities. We are ready, available, and accessible to 
fulfill operational requirements. And based on the force generation 
model, we can sustain operations at significantly lower cost than 
Active Forces.

                             CITIZEN AIRMEN

    In addition to their military obligation, citizen airmen balance 
the needs of their families and civilian employers--what we like to 
call ``The Reserve Triad.'' Our policies and actions must continue to 
support the viability of these relationships, especially as we adjust 
to meet the requirements of new strategic guidance. The Triad is 
foundational to our continued ability to provide a sustainable and 
effective fighting force. Openly communicating expectations, 
requirements, and opportunities provides predictability and stability 
within the Triad.
    The Air Force Reserve continues to recruit and retain the most 
qualified personnel available. We have met or exceeded our recruiting 
goals for the past 11 years and are able to select the best of the best 
by accessing just 26 percent of the qualified candidates. Similarly, 
our retention rates are at record highs, allowing us to maintain our 
depth of experience.
    The Air Force leverages the expertise of the Reserve component 
through associate constructs in which units of the three components 
share equipment and facilities to carry out a common mission. We have 
established a wide variety of associate units throughout the Air Force, 
combining the assets and manpower of all three components to establish 
Total Force units that capitalize on the strengths of each individual 
component. In 2011, the Air Force announced the stand up of three 
active Associations in the Combat Air Forces (CAF): one at Homestead 
Air Reserve Base, Florida; another at Naval Air Station Joint Reserve 
Base Fort Worth, Texas (formerly Carswell); and a third at Whiteman Air 
Force Base, Missouri. Today, the Air Force is leveraging more than 103 
associations and capitalizing on more than four decades of the 
associate experience, from which we have garnered countless successes.
    We thank this subcommittee for your continued support in funding 
our Yellow Ribbon Program. The Yellow Ribbon Reintegration Office 
provides support to military members and their families at a time when 
they need it the most, to ease the stress and strain of deployments and 
reintegration back to family life. Since the standup of the program in 
August 2008, more than 21,000 reservists and 15,000 family members have 
attended these events. From exit surveys and through formal and 
informal feedback, attendees feel ``better prepared, (and) confident 
following events.''

                               CONCLUSION

    I am honored to have served the last 4 years as Chief of Air Force 
Reserve and Commander of Air Force Reserve Command. I take pride in 
leading the world's best Air Force Reserve, one-third of a Total Force 
that is fully trained and ready to defend our Nation. In a time of 
constricted budgets, thorough analysis is required to prioritize our 
requirements and ensure we meet our assigned missions. We must do so 
while keeping in mind the importance of our role in supporting joint 
and interagency operations.
    My top priority is to ensure that we fulfill our commitments as the 
title 10 Reserve component of the Total Force. We recruit and retain 
reservists in every Air Force career specialty in order to fulfill the 
Nation's need for cost-effective and efficient daily operations as well 
as a ready global surge capability.
    We will concentrate our resources to ensure maximum return on 
investment, while providing our citizen airmen the tools they need and 
the predictability their families and employers deserve.
    I sincerely appreciate the enduring support of this subcommittee. I 
look forward to continuing our work and ensuring the Air Force Reserve 
remains the finest in the world.

      TRANSFORMATION OF ARMY RESERVE FROM STRATEGIC TO OPERATIONAL

    Chairman Inouye. Thank you very much, General Stenner.
    May I now call upon General Stultz. During your tenure as 
Chief of the Army Reserve, you were called upon to transform 
the Reserve from strategic to operational.
    Can you give us an update on where you are at this moment? 
And also, how do you think your Operational Reserve can be used 
in Afghanistan?
    General Stultz. Yes, Sir.
    Coming into this job 6 years ago, which I only planned to 
stay for 4, that was really the task I had at hand, is how can 
you transform the Reserve from a strategic footing to an 
operational footing, and put them on a rotational employment 
basis, and do that at the same time while we're trying to fight 
a war on two fronts, Iraq and Afghanistan, and lesser 
contingencies down in the Horn of Africa.
    I can report to you today, Sir, that that has been a 
success. Over the last 10 years, during the period of Operation 
Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF), the 
Army Reserve has mobilized more than 200,000 of our soldiers 
and put them into support missions, both in Iraq, Afghanistan 
and here at home.
    We have continually kept on Active Duty somewhere between 
20,000 and 30,000 soldiers every day since that inception. 
Those soldiers are doing critical missions.
    As I mentioned earlier, I say our force is an indispensable 
force because we are what we call the enablers for the Army. We 
are the engineers, the medical structure, the logistics, 
transportation, military policemen, all those kind of 
capabilities that the Army, over time, has shifted more and 
more into the Reserve component.
    As an example, today, if you look at the transportation 
capability, critical capability as we're looking at trying to 
reduce our force footprint in Afghanistan, that transportation 
ability to get soldiers and get equipment out of there, is 
critical.
    Eighty-five percent of that capability for the Army rests 
in the Guard and Reserve. Seventy percent of the medical 
capability rests in the Guard and Reserve. Eighty-five percent 
of civil affairs and psychological operations, like Sergeant 
Burgess here, rest in the Reserve.
    And so the Army can't do what they do without us. So that 
transformation has been hugely successful. And I'll tell you, 
in my opinion, why. It's not the leadership that I've given. 
It's the dedication our soldiers have given.
    The culture of the Army Reserve has changed. Soldiers that 
are in the Army Reserve today either have joined our force or 
re-enlisted to stay in our force while this Nation's at war. 
They know what they signed up for.
    And that culture says, I'm joining to go and do something 
to serve my country. I'm not joining to be a weekend warrior, 
the Strategic Reserve.
    The challenge we've got, Sir, is how do we keep them? And 
it's critical that we have the right training, the right 
equipping and all to make sure that we retain that force and 
keep them ready because we're not very good at predicting the 
future.
    We don't know where the next conflict will be, but there 
will be one, and the Army is going to have to call upon us on 
short notice to get there and to get into the theater of 
operations and to sustain combat operations.
    And that's why things like the NGREA that you give us is so 
critical to me. That allows me flexibility to buy equipment 
that I need now, that is not programmed yet. That allows me to 
go and buy simulations equipment that I can use to train our 
soldiers to maintain that edge and keep them ready.
    So the NGREA, the OCO to Base money that we're transferring 
around $200, $250 million to provide extra training days for 
these soldiers in their fourth and fifth year of that rotation 
cycle, is critical.
    But I can report to you today, Sir, the Army Reserve is an 
operational force. And it's highly successful, and it's 
successful because of soldiers like Sergeant Burgess and 
others.
    Chairman Inouye. We've been advised that you have equipment 
shortfalls. How does that impact upon your mission?
    General Stultz. What I can tell you, Sir, is if you look at 
the figures that says equipment on hand for the Army Reserves, 
we're better than we've ever been, 86 percent. However, we're 
66-percent modernized.
    The equipment we have, as was discussed earlier with the 
National Guard, in a lot of cases, is old equipment that is 
substitute items for the modern equipment.
    Now, as far as our soldiers being able to do their job in 
Afghanistan, Iraq, and other places, not an issue because we 
make sure they're using modernized equipment in those theaters. 
We give them the best training, the best equipment, before we 
put them in harm's way.
    Where it impacts me is back home. It impacts me back home 
because now, and especially now that we've drawn out of Iraq 
and we're going to start drawing down out of Afghanistan, I'm 
focusing on home station training.
    How do I keep these soldiers trained at home so they're 
ready to go when I need them? And I need that modernized 
equipment back here.
    It's a morale factor. If you're a young soldier and you've 
been trained and equipped to the best standards, and you come 
home and you go to your weekend drill in your Army Reserve 
unit, and there's a piece of old equipment that you know we 
don't use anymore in a war time environment, it does have an 
impact on a soldier saying, well, why aren't we training with 
what we just had in Afghanistan?
    And so to me, the modernization of that equipment is 
critical for our retention, and it's critical for our readiness 
because to be ready, I've got to train on the right equipment.

                       ARMY RESERVE MODERNIZATION

    Chairman Inouye. Are you satisfied that the pace of 
modernization is sufficient?
    General Stultz. Say again?
    Chairman Inouye. Are you satisfied that the modernization 
program, as we have now, is adequate?
    General Stultz. I have some concerns, Sir.
    My concern, I guess, would be that as the Army is going 
through restructure, and as the Army has already announced, 
they're drawing down their end-strength over a period of years, 
I think that's going to lead us to make some equipping 
decisions for the future that might say we can delay some 
modernization until we decide what the force structure looks 
like.
    And I can't afford to wait because my soldiers need 
equipment today. And it's probably a smart thing to do in some 
cases. If we're going to draw down units in the Active Force 
that have modern equipment, then it would cascade to me, and I 
would have that modern equipment.
    So the Army might say, we're not going to buy some more. 
We'll just give you what we have in the Active when we do away 
with those units. However, that's going to be several years 
down the road, and I can't afford to wait.
    That's why the NGREA funding that you give us is so 
critical, because if the Army says, we're not going to buy any 
more modernized trucks, for instance, because we're going to 
probably take some of the active trucks and give them to you in 
2016, I can go ahead and buy some today and put them in my 
units, and then when the other ones come, fill out the rest of 
the units.
    So I'm not satisfied that our modernization strategy is 
going to meet my needs for the immediate future, no, Sir.

   ACTIVE FORCE END-STRENGTH REDUCTIONS AND POTENTIAL TRANSITION TO 
                             RESERVE FORCES

    Chairman Inouye. I'd like to ask a question of all of you. 
The strategic plans for the next 5 years call for drastic 
reduction in end-strength, which gives you an opportunity to 
get Active Duty people transitioned into the Reserves.
    Do you have any plans to bring this about?
    Admiral Debbink. Chairman Inouye, we certainly do in the 
Navy.
    In our primary office that we've set up a couple of years 
ago, we call it the career transition office in Millington, 
that it now is handling all of these transitions.
    We're also very proud of the work that they've done to 
reduce the time it takes to make the transition, what used to 
literally be 4 to 6 months, down to somewhere 2 or 3 days by 
analyzing the process and making it smoother.
    We do believe that as we look forward here in the next 
couple of years that the Active component, a lane that's been 
so full and stayed full, just starts to transition, that we'll 
have an opportunity to bring those sailors into the Reserve 
component.
    And we want to make that transition as seamless as 
possible. And most of that we've discovered has been our 
regulations and policies within the department. There have been 
several things over the last several years that you all have 
been very helpful with in making that happen.
    I would say, the most important thing that we need to do, 
as I mentioned earlier, is to have what we call real and 
meaningful work for those sailors, soldiers, airmen, marines, 
coastguardsmen to do when they get to the Reserve component.
    And, again, that's why assured access and other provisions 
are going to be very important to us moving forward.
    Chairman Inouye. What about the Marines?

                         TRANSITION ASSISTANCE

    General Hummer. Thank you, Mr. Chairman.
    The commandant has recently, since he's taken over as the 
commandant, General Amos, has revamped the transition 
assistance program from the Active component.
    And he has various aspects. Used to be, it would be 
bringing the Marines together for a couple of days, give them 
some fast and furious education and training, and then, they'd 
be out the door.
    Now, there's a couple times in their transition, a year 
before they get out, right before they get out. And then, all 
this information is put on the Web so that they can get access 
to it, for that legendary marine who wants to get out and go 
surfing in Mexico for 6 months before we wants to get a job or 
go to school.
    In the meantime, along that, there's four tracks that are 
provided. One, is an educational track, so it's focused and 
customized for them. A trade skill track, if they're going to 
go to school, for a trade school.
    A business track, if they want to get into business, or if 
they want to start a business, there's an entrepreneurial 
track.
    With regard to the Reserves, we have room for them in our 
39,600 with our latitude. We do see the Individual Ready 
Reserve (IRR) increasing. Right now, we're about 57,000. An 
estimate would be up to perhaps 75,000.
    But those are marines that we also pay attention to and 
take care of as much as we can even though they're not drilling 
reservists. So, there is a plan.
    We are tightly integrated with the Active component in that 
continuum, in that Marine for Life program, that brings them 
in, trains them, and then gives them the opportunity to join 
the Reserves if they want to.
    And then continue to be valuable citizens throughout their 
life. Thank you.
    Chairman Inouye. Thank you. How about the Air Force?
    General Stenner. Mr. Chairman, we too have a robust 
program, and we have worked very closely with our Active 
component over the last couple of years, as they have worked 
aggressively to downsize.
    The critical skills that we're short in are the ones we're 
focusing on, and we have in-service recruiters that interview 
every single person that is leaving the Active Force and offer 
them the opportunity to continue to serve in those particular 
areas where we have the needs.
    We try to match the critical skills to where the needs are. 
We also offer cross training to the folks that might be 
interested in continuing to participate in a different career 
field.
    Just as importantly, I think the Active Force has used some 
very significant tools to include volunteer early retirement, 
and some of the other kinds of options to depart the Active 
Force, which does, in fact, put some folks into what General 
Hummer mentioned, in the Individual Ready Reserve.
    We're also working on musters inside those IRR members, 
once a year, at several different locations, very much 
targeting the skills that we need, and mustering folks in.
    Because we've found that within that first year after 
somebody leaves, they may not be just as satisfied as they 
thought they were going to be, and we have found a very 
lucrative recruiting ground from some of those folks who come 
back to us in the Reserve component out of the IRR.
    So we're working aggressively with our Active and Guard 
partners to keep the critical skills that have been trained. We 
can't afford to retrain, and we must keep that capacity and 
capability.
    Chairman Inouye. So you're satisfied with your program?
    General Stenner. Yes, Sir, we are.
    Chairman Inouye. General Stultz.

                 TRANSITION FROM ACTIVE TO ARMY RESERVE

    General Stultz. Yes, Sir.
    It is a critical part of our strategy for the future, our 
human capital strategy. And we have learned from my good 
friend, Steve Hummer, here in the Marine Corps, that the 
marine-for-life mentality needs to be in the Army also. A 
soldier for life mentality.
    We're doing several things, Sir. We are putting, I am 
putting manpower on the Active Duty installations to start 
working more aggressively with the transition process much 
further out than we have in the past.
    That soldier that decides he's going to leave the Army from 
an Active status, we're telling him he's not getting out. He's 
transitioning. He's transitioning into Reserve status. Whether 
it's Active or Inactive Reserve status, he's still going to be 
a soldier.
    But we need to start talking to him 6 to 9 months before he 
leaves, not 2 weeks. We need to start talking to him, first of 
all, about what he's going to do for civilian work. And we need 
to help him get a job.
    And so, one of the cornerstones of our program is our 
employer support program that we've developed over the last 4 
years, where we now have more than 3,000 employers across 
America that have partnered with us.
    We have 700,000 jobs on the Web portal that are available 
out there in those employers, and we have program support 
managers on the ground, contractors that we've hired, to help 
facilitate between the employer and that soldier.
    And we want to facilitate that before he ever leaves Active 
service. We want to have a smooth transition where he can come 
off of Active Duty, go right into a civilian job, if that's 
what he chooses to do. And we can also facilitate him coming 
into the Reserve whether he comes in an Active Reserve status 
or whether he says, I just want to take a break for a while and 
be in the IRR.
    Okay. Fine. You're still going to belong to us, and when 
you're ready to come back and start drilling with us, we'll 
bring you back.
    But it's that employer piece that's critical because if I 
bring a soldier into the Reserve, and he doesn't have a job, 
I'm at risk, because he's got to pay his mortgage. He's got to 
pay for the kids to go to college. He needs civilian employment 
and he needs a good, comfortable career.
    So we're putting forces on the installations. We're putting 
forces out there with the employers, and we're going to make 
that as a cornerstone of our program.
    I can tell you today, it's working. In the past couple of 
years, we've already put at least 1,000 soldiers that we know 
into civilian jobs in our force. There's many thousands others 
that we know have already, using the portal and the Web, gotten 
jobs.
    And the employers are telling us, and we didn't even know 
the soldier, because the soldier just used the technology 
themself to do it. But the program is working. Soldiers are 
happy. The employers are happy. We've got a good force.
    Chairman Inouye. Thank you very much.
    I'll be submitting a few other questions for your 
consideration, so expect that.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    General Stenner, I've given to your staff some questions 
about reassigning aircraft that are now based at Keesler Air 
Force Base, Biloxi, and I hope you can take a look at those and 
address a response to the subcommittee as soon as reasonably 
possible.
    What we're concerned about is the readiness, of course, of 
an Operational Reserve, and how that may be affected by the Air 
Force's restructure decisions.
    Do you have any comments that you can make as a way of 
introduction to what you're thoughts are on that subject?
    General Stenner. Senator Cochran, I can do that.
    And let me just refer to the previous panel's remarks, 
especially those of General Wyatt, as he was discussing some of 
the same kinds of issues as we look at downsizing some of the 
fleets that we have as a result of age, or as a result of 
requirements.
    And that's the tricky part of this is, how do we look at 
this across the systems, in the C-130s in this example, and 
ensure that we meet the requirements of the combatant 
commanders which, if we do that, will allow us to reduce the 
numbers that we currently have.
    We did have a very rigorous process that we went through, 
and there are four very major tenets of kinds of things that we 
looked at that include, no negative impact to the combatant 
commanders, make sure the movements don't create any new bills, 
increase mission capable rates as a requirement when we do 
this.
    And then, we need to look at all the locations that we've 
got out there, apply that criteria, and in some cases, there is 
judgment that needs to go into it at the end.
    But we will certainly come back to you very quickly with 
the questions that you've asked.
    I use that as a prelude, and we work that through our 
corporate structure that General McKinley and General Wyatt 
mentioned in their testimony, to come to the realization that 
we have in the fiscal year 2013 projection, that those are the 
kinds of things that need to be done to ensure we meet, and 
don't become hollow, in other parts of this force as well.
    So, we'll get back to you, Sir, soon.
    Senator Cochran. I'm looking forward to going down to the 
Mississippi gulf coast for the christening of the USS 
Mississippi, the newest submarine that will be joining the 
fleet. That will be an exciting occasion for all of our State.
    We identify very closely with the Navy's presence down 
there, and the shipbuilding capability along that gulf coast. 
And, personally, serving in the Navy, I'm a little biased about 
the importance of the U.S. Navy.
    But, what is the prospect for this budget if we approve the 
schedule for ship construction, and maintenance, and adding new 
ships to the fleet?
    Is it robust enough to take care of the responsibilities 
for national defense that falls exclusively onto the 
jurisdiction of the Navy?

                     SHIP BUILDING PROGRAM ADEQUACY

    Admiral Debbink. Yes, Sir.
    And I would respectfully like to defer that question, if I 
could, primarily because in the Navy Reserve, which is my 
responsibility, obviously, we do have a Navy Reserve fleet of 
now nine frigates.
    And as we're retiring those frigates, we're bringing active 
frigates into the Reserve Fleet to replace them until we then 
will retire all of our Navy Reserve frigates.
    As I look forward in the future, our involvement in the 
Navy Reserve, once those frigates are retired, will primarily 
be with littoral combat ship program, which as you know, is 
ramping up.
    And we're in very active discussions with the Navy on where 
we, in the Navy Reserve, will play into that.
    The larger question of the entire shipbuilding program, I 
think, is probably one that I would like to defer, obviously, 
to the Secretary and the CNO.
    I will say, from my own perspective, having been in the 
Navy for 35 years, that our fleet today, and the Mississippi is 
a great example of it, is far more capable than any fleet that 
we've ever had in the past, regardless of numbers.
    And, if we had to use that fleet, I would rather use the 
fleet that we have today in looking into the near future than 
any fleet we've had in the past, both for the capabilities of 
those platforms, as well as for the training and the dedication 
and the honor, courage, and commitment of the sailors that 
serve in that fleet today.
    Senator Cochran. Thank you very much.
    Mr. Chairman, thank you for conveying the hearing. And let 
me say to all of the panel, we appreciate your dedication and 
your commitment to helping strengthen and maintain the best 
Reserve components of our military establishment. Thank you 
very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. I'd like to join my Vice Chairman in 
thanking all of you for your testimony, and for the service to 
our country.
    I would also like to note, as General Stultz pointed out, 
the critical role that you play, and continue to play, in the 
Middle East. Most people in the United States don't realize 
this. They think it's just the Active components. But the role 
that the Reserves and Guards play is very, very important. This 
subcommittee appreciates that very much.
    [The following questions were not asked at the hearing but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to General Craig R. McKinley
            Questions Submitted by Chairman Daniel K. Inouye

              NATIONAL GUARD AND RESERVE EQUIPMENT ACCOUNT

    Question. General McKinley, this subcommittee recognizes the 
importance of providing the Guard funding for necessary new equipment 
and modernization of aging equipment and have consistently done so 
through the National Guard and Reserve Equipment Account (NGREA). How 
have these increases improved readiness, and what additional equipment 
challenges remain?
    Answer. NGREA is the life-blood of the National Guard and is 
critical to maintaining the operational force. NGREA is used to 
purchase dual-use equipment for both the Army and Air National Guard. 
According to the Fiscal Year 2012 National Guard and Reserve Equipment 
Report, Army National Guard (ARNG) Equipment On Hand (EOH) for 
Modification table of organization and equipment (MTOE) units is 
currently at 88 percent, an increase from 85 percent 2 years ago. ARNG 
Critical Dual Use EOH for MTOE units is currently at 92 percent, an 
increase from 86 percent 2 years ago. Currently 71 percent of ARNG EOH 
is considered modern. Similarly, the Air National Guard (ANG) has 92 
percent (595,324 pieces) of all authorized dual-use items on-hand 
within the Essential 10 categories. The 92-percent equipment 
availability rate is comparable to the overall Air Force availability 
rate.
    NGREA funding has performed, and will continue to perform, a 
critical role in improving the ARNG's interoperability, modernization, 
and overall equipment posture in support of domestic and contingency 
operations. The ARNG's tactical wheeled vehicle and helicopter fleets 
will continue to require a long-term investment of funding over the 
next 10 years to adequately address shortfalls and modernization 
requirements. The ANG also relies heavily on NGREA. Because the Air 
Force's emphasis is on long-term recapitalization NGREA is to vital 
increases modernizing legacy Air Guard aircraft.
    Question. General McKinley, what remaining equipment shortfalls are 
you most concerned about?
    Answer. Through the unprecedented efforts of the Congress and the 
Department of the Army, ARNG is equipped and modernized at levels 
commensurate with the Army's Active component. Interoperability and the 
continued modernization of ARNG equipment are essential to successfully 
provide both domestic support at home and maintain an operational force 
for Federal missions abroad.
    Despite the improvements to equipment-on-hand levels for the ARNG, 
equipment modernization levels for several key systems remain an area 
of concern. The ARNG continues to have critical shortfalls in our 
rotary wing aircraft fleet, high-mobility multipurpose wheeled vehicle 
(HMMWV) recapitalization and general engineering equipment. While the 
Army has made significant improvements to the ARNG rotary wing fleet, 
the ARNG would like to see further improvements made in the 
modernization of the AH-64 and the UH-60 fleets. The ARNG continues to 
pursue equipment modernization through Department of the Army 
procurement and NGREA funding.
    With regards to ANG, other than concerns about reductions in 
overall force structure, the ANG top ten equipment shortfalls are:
  --Large Aircraft Infrared Countermeasures (LAIRCM) for C-130H/J, EC-
        130J, KC-135;
  --A-10 Situational Awareness Data Link Upgrade;
  --C-130/KC-135 Real Time Information in the Cockpit (RTIC) data link 
        and comm;
  --F-16 Situational Awareness Data Link Upgrade;
  --F-15 Radar and Warning Receiver (RWR);
  --HC-130 Navigation and Sensor Upgrade;
  --HH-60 Situational Awareness Data Link Upgrade;
  --Battlefield Airman Combat Equipment;
  --Domestic Disaster Response Equipment; and
  --Advanced Simulators for F-16, C-130, and KC-135.
    Additionally, the ANG is short of aviation support equipment; 
command and control capabilities, including communications; civil 
engineering; logistics and maintenance; medical; security equipment and 
vehicles. These shortages are covered in the Fiscal Year 2012 National 
Guard and Reserve Equipment Report (NGRER).

             ARMY AND AIR GUARD--RESERVE COMPONENT COSTING

    Question. General McKinley, in its April 2012 report, Avoiding Past 
Drawdown Mistakes to Enhance Future Total Force Capabilities, the 
Reserve Forces Policy Board recommended that the Department determine 
the full costs of an Active and Reserve component member in order to 
maximize deployment ratios to achieve the most cost-effective mix. Is 
the Department working on any such costing framework?
    Answer. The Fiscal Year 2012 National Defense Authorization Act 
(Public Law 112-81) section 1080A required a report on the comparative 
costs of the Active and Reserve components. This report is due back to 
the Congress by the end of the year.
    Question. General McKinley, what metrics should be used to 
recognize the full costs of an Active and Reserve component member?
    Answer. There are many different methods to calculate the full 
costs of an Active and Reserve component member, one of which is to 
identify the peace time burdened cost and the life-cycle cost.
    The peace time burdened cost at the individual level may include 
the costs to man, train, and equip, and provide military members with 
benefits (example: commissaries, family support activities, and 
healthcare costs). Life-cycle costs include costs that span the career 
of a military member from initial entry to the end of survivor 
benefits. This methodology includes the burdened cost and cost elements 
covered by other agencies, including Veterans Affairs' benefits or 
expenses incurred after the completion of military service. Future year 
costs for medical and retirement benefits vary by member, and affect 
the overall costing. For example, ``gray area'' Traditional Drill 
Status Guard members who retire before age 60, also known as ``gray 
area'' retirees, are not eligible for retirement pay or TRICARE 
benefits until they reach age 60.
    Looking at a specific year of execution, one needs to consider the 
member's rank, years of service, duty status, dependent status, and 
career specialty to determine specific pay and entitlements. Certain 
career specialties--such as healthcare, pilots, and others--are 
entitled to special pays and bonuses.
    In addition, for National Guard members, duty status is important, 
as costs vary widely if a member is a Dual Status Military Technician, 
an Active-Guard Reservist, or a pure Drill Status Guardsman. The type 
of duty (Unit Training Assemblies, Annual Training, or Active Duty), 
and the length of time covered by orders directly impacts the costs of 
a Drill Status Guardsman.
    Finally, many Guard members serve on bases that do not have support 
functions regularly provided to Active Duty members, such as child care 
facilities, commissaries, exchanges, housing, and Morale Welfare 
Recreational facilities.
    For programming purposes, the National Guard uses cost models based 
on end strength, participation rates, and several of the factors 
mentioned above to develop future year budgets.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                   NATIONAL GUARD CIVIL SUPPORT TEAMS

    Question. General McKinley, can you tell the subcommittee what the 
cost savings are associated with the proposed reduction of two National 
Guard Weapons of Mass Destruction/Civil Support Teams (WMD-CSTs)? Is 
there any concern with the reduced response capability left available 
to the heavy populated areas of Florida and New York?
    Answer. The estimated savings to Department of Defense (DOD) by 
reducing the number of WMD-CSTs from 57 to 55 is $24 million over the 
Future Year Defense Program (FYDP).
    Regarding concerns about reduced response capability, some initial 
impacts will have to be addressed at the State and local level. 
Possible State concerns include longer in-state response times to 
support an immediate response mission, and a potential reduction in the 
number of State Special Security Events Stand-by missions that a single 
WMD-CST can conduct. The remaining WMD-CST will also have to 
reestablish liaison with local first responders, and habitual 
relationships developed overtime through various liaisons, training 
events, and actual operations will have to be re-established by the 
remaining WMD-CST. Some State-to-State interoperability and mission 
support issues will also have to be addressed, something which has not 
been a concern with two State WMD-CSTs. Also, once National Guard 
Bureau (NGB) implements the unit stand down process, the two designated 
WMD-CSTs will no longer be qualified to conduct operations and all 
equipment will be returned to the Consequence Management Support 
Center.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

    Question. What organization has directed the National Guard 
Bureau--Counter Drug Program (NG-CDP) to come up with a Threat Based 
Resource Model (TBRM)?
    Answer. NG-CDP established the TBRM in response to these 
recommendations and formal guidance from the Deputy Assistant Secretary 
of Defense for Counter Narcotics and Global Threats (DASD/CN&GT) in the 
Fiscal Year 2012 NG State Drug Interdiction and Counterdrug Activities 
Plan. Specifically the DASD/CN&GT directed that ``. . . the NGB shall 
provide to this office by March 1, 2011, a threat based resourcing 
model for approval to be implemented in fiscal year 2012. This model 
should balance OSD and national priorities, funding and existing 
threats in its recommendations for distributing counterdrug 
resources.''
    Question. Does this organization have a Threat Based Resource Model 
that it uses to justify its activities, as well?
    Answer. The Deputy Assistant Secretary of Defense for Counter 
Narcotics and Global Threats aligns resources based on combatant 
commander requirements which are based on threats. In the same way, the 
TBRM identifies threats then distributes funds accordingly.
    Question. How much of the DOD-Counter Narcotic budget cut did the 
NGB-CD bear?
    Answer. The National Guard Counter Drug Program bore 10.5 percent 
of the overall reductions to the Deputy Assistant Secretary of Defense 
for Counter Narcotics and Global Threats Central Transfer Account in 
fiscal year 2013.
    Question. What is the impact of the Threat Based Resource Model 
(TBRM) on the States that have the historically highest seizure 
amounts, such as the Southwest border States, Florida, and Puerto Rico?
    Answer. Deputy Assistant Secretary of Defense (DASD) guidance 
mandated a plus-up to the ``Big 6'' States from 2002-2010. These six, 
California, Arizona, New Mexico, Texas, Florida, and Puerto Rico, 
collectively received 39 percent of the annual Counterdrug budget, and 
an annual, OSD mandated, 2.8 percent cost-of-living increase, also 
resourced by the Counterdrug budget. Each of the remaining States in 
the Counterdrug program received less than 2 percent of the annual 
budget with no annual cost-of-living increase. In 2011, the DASD 
removed the mandatory plus-up to the Big 6 and instructed the National 
Guard Count Drug Program to implement a threat-based approach to 
funding.
    TBRM maintains 26 percent of funding in support of four States 
(California, Texas, Arizona, and New Mexico). Southwest border States 
garner 25 percent of the TBRM threat (California--10.8 percent, Texas--
8 percent, Arizona--4.95 percent, and New Mexico--1.71 percent). Adding 
the remaining Big 6 States (Florida at 7.75 percent and Puerto Rico at 
0.94 percent) brings the Big 6 total to 34 percent, just 5 percent less 
than the historical average. The Big 6 States' rank overall are 
California #1, Texas #2, Arizona #6, Florida #3, New Mexico #18, and 
Puerto Rico #33.
    Question. If more Counter Drug funding is directed to the NGB, will 
this restore these States to their manning levels of fiscal year 2012? 
Why, why not?
    Answer. Manning levels are dependent on the amount of additional 
funding received. The TBRM will continue to allocate funding to the 
greatest national threats. The NG-CDP must continue to allocate 
increasingly limited resources where they will best contribute to our 
national strategies. The foundation of TBRM funding is to identify 
threats, which drive requirements that are met with resources. The 
techniques, tactics and procedures of transnational criminal 
organizations have transformed since NG-CDP was founded in the 1990s. 
The TBRM process identifies emerging threats then assigns resources as 
necessary.
    Question. Is the original intent of the Joint Counter Drug Task 
Force's mission still being accomplished?
    Answer. Yes. The NG-CDP continues to provide unique military 
resources to Federal, State, and local law enforcement agencies that 
submit valid requests. The TBRM was developed with significant input 
from law enforcement agency partners to ensure NG-CDP support adapts to 
law enforcement requirements.
                                 ______
                                 
     Questions Submitted to Lieutenant General Harry M. Wyatt, III
            Questions Submitted by Chairman Daniel K. Inouye

                   AIR GUARD--FORCE STRUCTURE CHANGES

    Question. General Wyatt, in March, the Air Force announced force 
structure changes and end-strength reductions. The greatest reductions 
were proposed for the Air Guard with a net loss of 5,100 billets in 
fiscal year 2013. Were you consulted during the deliberations over 
these force structure changes, and what input were you asked to 
provide?
    Answer. The National Guard Bureau (NGB) level of participation in 
the selection of force structure changes was to offer advice and 
options to Air Force leadership. Throughout process the Air Force 
generally provided direction to the NGB on how many, which type of 
aircraft and/or unit to offset. The NGB offered recommendations and 
options within the parameters of the decision required.
    In developing options for Air Force consideration during the 
Corporate Process, the NGB followed a set of capstone principles agreed 
to by the Adjutants General. The capstone principles included specific 
boundaries the Adjutants General requested the NGB observe as it 
advocated on behalf of the Air National Guard (ANG). At the conclusion 
of the Corporate Process deliberations, the Secretary and Chief of 
Staff of the Air Force made the final decisions on the size, shape, and 
content of the ANG.
    Question. Where do the negotiations between the Air Force and the 
Council of Governors stand?
    Answer. NGB was tasked to support the Council of Governors with 
programmatic data (Manpower authorizations, flying hour costs/
requirements, and Primary Assigned Aircraft inventories). NGB 
involvement with the Council of Governors was limited to providing 
factual data only, and current status of negotiations between the Air 
Force and the Council of Governors is not known beyond open-source 
reporting.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                   NATIONAL GUARD CIVIL SUPPORT TEAMS

    Question. General Wyatt, could you describe for the subcommittee 
what capability is provided by the Weapons of Mass Destruction/Civil 
Support Teams (WMD-CSTs)? Does the reduction in manpower in the Air 
Guard impact the ability to support these missions?
    Answer. The proposed Air Guard manpower reduction will not impact 
the WMD-CST program. The National Guard WMD-CSTs provide high-priority, 
rapid response, full-time (title 32) National Guard units to civil 
authorities and local incident commanders. Our WMD-CSTs respond to 
actual--or suspected--terrorist WMD event/incidents, intentional, or 
unintentional releases of Chemical, Biological, Radiological, and 
Nuclear (CBRN) materials, or natural or manmade disasters in the United 
States. The WMD-CST enhances Local Incident Commanders emergency 
responder capabilities; do not replace the Incident Command System or 
functions normally performed by the civilian emergency first responder 
community.
    Currently, the National Guard has 57 WMD-CSTs, one in every State, 
one each in the territories of Guam, the Virgin Islands, Puerto Rico, 
one in the District of Columbia, and two each in California, Florida, 
and New York. Every National Guard WMD-CST is certified by the 
Secretary of Defense as ``operationally ready'' for their designated 
mission:
  --support civil authorities at domestic Chemical, Biological, 
        Radiological, Nuclear, and High Yield Explosive (CBRNE) 
        incident sites;
  --identify CBRNE agents/substances, assess current and projected 
        consequences, advise response measures; and
  --assist with State requests for additional support resources.
    Each WMD-CST is equipped with detection and identification 
equipment; a mobile analytical laboratory which can provide the 
complete characterization of chemical, biological, or radiological 
materials, as well as the ability to provide information to the 
Laboratory Response Network and the Centers for Disease Control. In 
addition, a sophisticated communications suite provides the WMD-CST 
with a broad spectrum of secure capabilities, allowing information 
integration between local, State, tribal, and Federal agencies.
    In fiscal year 2011, the Army National Guard (ARNG) WMD-CST units 
conducted 632 immediate response and stand-by missions to include 
response to the American Samoa Tsunami, stand-by operations during the 
Super Bowl in Texas, and operations to protect the homeland following 
the recent Tsunami in Japan. Through the first 8 months of fiscal year 
2012, WMD-CSTs conducted 433 immediate response and stand-by missions: 
numerous white powder and unknown substance missions, support to 
National and State political events, large sporting events, National 
Special Security Events, Special Event Assessment Rating activities, 
the 2011 Asia-Pacific Economic Cooperation meeting in Hawaii, the 2012 
State of the Union Address, and the 2012 NATO Summit.

                         AIR FORCE RESTRUCTURE

    Question. General Wyatt, the use of assets in title 10 status 
during hurricane relief in the homeland is well documented, but what 
about Air National Guard (ANG) efforts in a title 32 status? Can you 
tell us a little more about the Air Guard's aviation hurricane response 
which was in a title 32 status as compared to the response in a title 
10 status? Would the Air Guard be able to support title 32 missions in 
response to hurricane relief in the Gulf Region with the currently 
proposed Air Force budget submission?
    Answer. ANG has an inherent responsibility to support States and 
territories in their relief efforts during Homeland Defense and Defense 
Support to Civil Authorities (HD/DSCA) events; hurricane support being 
a historically significant piece of these efforts. ANG responses to 
hurricanes can happen under title 10, title 32, or State Active Duty 
(SAD) authorities. Often times, during a major catastrophic event, a 
state of Federal emergency is declared and once that occurs, Combatant 
Commands and Strategic Commands become heavily tasked. Reasons such as 
Active Duty capability gaps, Active Duty task saturation or closer 
proximity and quicker response times of ANG forces to the operating 
area deem it necessary for these commands to task ANG wings, units, or 
squadrons under title 10 authority. This usually occurs while ANG 
assets are already employed and responding to the affected states under 
title 32 and SAD. Regardless of the authority, it is important to 
realize that they are ANG assets being utilized to fill gaps, meet 
requirements and support demands.
    Air National Guard C-130s alone flew more than 2,500 domestic 
missions for hurricane relief during a span of 7 years that included 
Hurricanes Katrina, Rita, Wilma, Ike, and Gustav. The 136th Airlift 
Wing, a Wing in Texas and slated to move to Montana under the fiscal 
year 2013 budget submission, flew 400 of those missions. The Air 
National Guard has and will continue to provide support during 
hurricanes regardless of the situation. Through the development of the 
Emergency Management Assistance Compact (EMAC), States impacted by 
hurricanes can quickly and efficiently call upon Air National Guard 
resources from their neighboring States and across the country. While 
EMAC guarantees the Air National Guard will always be there, speed is 
critical to domestic response. Federal Emergency Management Agency 
Director Fugate emphasized this during a speech to the National 
Governors Association. It is his opinion that aviation assets must be 
organic to the National Guard, and that other options may not provide 
the same speed and capacity.

                         AIR OPERATIONS GROUPS

    Question. General Wyatt, seven additional Air Operations Groups 
were activated post-Base Realignment and Closure (BRAC) 2005 when the 
Chief of Staff of the Air Force Total Force Integration Phase IV memo 
recognized a need for additional augmentation units. Is there no longer 
a need for these units? If not, what has changed?
    Answer. The Air National Guard (ANG) is a force provider whose 
mission is to provide the best trained and equipped forces possible to 
cover Air Force directed mission requirements. Any specifics on Air 
Operation Center (AOC) augmentation requirements need to be directed to 
Headquarters Air Force (HAF).
    Although the ANG will retain fewer AOC augmentation units, the ANG 
has retained the necessary capacity to ensure that the Air Guard can 
fulfill surge requirements, and sustain and/or augment essential 
command and control structures. Manpower reductions will drive changes 
to the way our forces are trained and postured. The luxury to align 
individual AOC units to specific Geographic Air Operation Centers will 
no longer be viable. The ANG envisions a scenario in the near future 
where our AOC augmentation units will be primarily aligned to one AOC, 
while being secondarily aligned to an additional AOC. While this will 
drive significant training challenges, the ANG stands ready to face 
future requirements and provide the best trained command and control 
forces in the Air Force.

                      601ST AIR OPERATIONS CENTER

    Question. General Wyatt, how does the Air Force specifically plan 
to augment the 601st Air Operations Center and others without degrading 
the mission following proposed unit closures?
    Answer. ANG is a force provider whose mission is to provide the 
best trained and equipped forces possible to cover Air Force directed 
mission requirements. Any specifics on AOC augmentation requirements 
need to be directed to HAF.
    Critical missions exist throughout the Air Force and on-going 
missions, such as the one accomplished by the 601st, are always at the 
forefront of manning and augmentation decisions. During recent crises, 
a wide variety of talented individuals have augmented the 601st 
missions, and these individuals are drawn from across the spectrum of 
the Air Guard's Air Operation Groups (AOG). During the crisis in the 
Gulf of Mexico following the Deep Water Horizon oil rig explosion, the 
601st had volunteers from several different Guard Units, to include the 
152nd, 183rd, and 157th AOGs, manning critical positions. Specifically, 
the 101st AOG is the title 32 unit of the 601st and stands ready to 
address any crisis; no manpower reductions were proposed to the 101st 
AOG. Additionally, the ANG will have six fully qualified AOC 
augmentation units that are fully capable of augmenting the 601st AOC 
and any other geographic AOC.
    Although the ANG will retain fewer AOC augmentation units, the ANG 
has retained the necessary capacity to ensure that the Air Guard can 
fulfill surge requirements, and sustain and/or augment essential 
command and control structures. Manpower reductions will drive changes 
to the way our forces are trained and postured. The luxury to align 
individual AOC units to specific Geographic Air Operation Centers will 
no longer be viable. The ANG envisions a scenario in the near future 
where our AOC augmentation units will be primarily aligned to one AOC, 
while being secondarily aligned to an additional AOC. While this will 
drive significant training challenges, the ANG stands ready to face 
future requirements and provide the best trained command and control 
forces in the Air Force.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

    Question. I understand there are certain platforms that must be 
retired, aside from those exceptions, is the House language putting a 
1-year hold on the United States Air Force (USAF) plans for the Air 
National Guard (ANG) helpful?
    Answer. Delaying the USAF's fiscal year 2013 budget plans for the 
ANG would potentially afford all parties additional time to conduct 
further analysis, consider Council of Governors proposals, and review 
recent feedback from the Congress in greater detail. Without question, 
it is imperative that the USAF and ANG continue working together to 
ensure we make the most effective use of every U.S. tax dollar spent, 
especially given the Department of Defense's current fiscal 
environment.
    However, freezing any pre-fiscal year 2013 budget actions that 
require fiscal year 2013 funds to complete would have a negative impact 
to the USAF and ANG missions. The C-5 to C-17 conversion in Memphis, 
Tennessee and the F-15 transfer from Great Falls, Montana to Fresno, 
California are a few examples of such actions. If the Congress were to 
put a 1-year hold on the USAF's fiscal year 2013 budget plans for the 
ANG, the appropriation of fiscal year 2013 funds for previously 
approved pre-fiscal year 2013 actions would be essential to the ANG's 
combat readiness.
    Question. There was a C-130 Hurricane Season Exercise in Corpus 
Christi, Texas. Because hurricane season begins next month and Texas' 
C-130s are an integral part of the Gulf States' hurricane response, the 
Texas Guard is training to evacuate citizens to safety if need be. As 
you know those aircraft in the Texas Air Guard is so vital to the gulf 
coast region during natural disasters. If those Texas aircraft are not 
replaced, could title X aircraft have the same effect? In other words, 
could gulf coast regional governors call upon title X aircraft prior to 
a disaster at anytime and what is the criteria for those aircraft to be 
called up?
    Answer. The ANG is a sourcing option/solution to any title 10 
operation through United States Transportation Command (USTRANSCOM). 
For title 10 aircraft to be utilized, a Presidential Emergency Disaster 
must be declared. Without this declaration, title 10 status will not be 
granted and no military airlift will be used. If a State or regional 
request for Federal emergency assistance prior to or after a disaster 
is granted, USTRANSCOM would source title 10 status airlift through 
Active, Reserve, and Guard channels.
                                 ______
                                 
    Questions Submitted to Lieutenant General William E. Ingram, Jr.
            Questions Submitted by Chairman Daniel K. Inouye

                        ARMY GUARD SUICIDE RATES

    Question. General Ingram, 98 Army National Guard (ARNG) soldiers 
took their own lives in 2011. How is the Army Guard responding to this 
disturbing trend and addressing the mental health of soldiers beginning 
with recruitment and continuing throughout their entire service in the 
Guard?
    Answer. Suicide prevention, regardless of component, is a daunting 
challenge for leadership. For geographically dispersed ARNG forces, 
this is even more challenging. Unlike our Active component 
counterparts, traditional, part-time Guard unit leaders do not get the 
chance to interact with their soldiers on a daily basis. In calendar 
year 2011, the ARNG experienced 99 suicides. That number translates to 
14 fewer ARNG suicides than reported in calendar year 2010. 
Statistically, 47 percent of the ARNG suicide victims had never 
deployed, while 27 percent had deployed and committed suicide at least 
1 year after their deployment. In order to stem this disturbing trend 
and address the mental health of our soldiers throughout their entire 
service in the ARNG has a number of training and prevention programs.
    Suicide prevention is achieved by building resilient soldiers and 
families with well developed coping skills, providing a strong support 
network and accessible resources, supporting a process for post-
traumatic growth, and providing support through other times of crisis. 
The foundation of the ARNG suicide prevention program is the ARNG 
Resilience, Risk Reduction and Suicide Prevention (R3SP) Task Force and 
the State Councils. The R3SP Campaign Plan redefines suicide prevention 
as an integrated part of a broader based resilience and risk-reduction 
framework, and guides State efforts to promote resilience, develop and 
enhance leader abilities to recognize and mitigate high stress and at-
risk factors, and facilitate the long-term reduction in ARNG at-risk 
behaviors and suicidal actions.
    In support of the Chief of Staff of the Army's goal to have a 
Master Resilience Trainer (MRT) trained NCO in each line battalion, and 
an NCO and officer on each Brigade Combat Team staff, the ARNG 
established an MRT Training Center at Fort McCoy, Wisconsin in 2011. 
There, MRTs are taught proven resilience skills that they in turn 
provide to the Soldiers in their teams, squads, and platoons. These 
skills enhance both the individual and collective performance of a 
unit, and support increased resiliency. To date, the ARNG has trained 
1,372 MRTs.
    In addition, each State and Territory has a Director of 
Psychological Health to provide behavioral health support for Soldiers 
in crisis, develop the ARNG Leader's Guide on Soldier Resilience, and 
promote peer-to-peer programs in each State.
    The ARNG Recruit Sustainment Program (RSP) provides new soldiers 
with the skills required to successfully complete Basic Combat Training 
and return to their units fit, trained, and ready to deploy. The ARNG 
RSP resilience initiative compliments the current RSP curriculum and 
fosters a balanced, healthy, mentally tough, and self-confident soldier 
ready to succeed during initial entry training. Introducing resilience 
skills early in their training exposes new soldiers to the philosophy 
of how to ``bend, not break'' for the rest of their military careers.
    In fiscal year 2011, the ARNG also trained 387 trainers in the 
Applied Suicide Intervention Skills Training (ASIST) program and funded 
an additional 150 for fiscal year 2012. These trainers will train 
approximately 35,000 gatekeepers in advanced intervention skills. Other 
mitigation programs include Senior Review Group video teleconferences 
with State Adjutants General, sessions that allow the ARNG to work 
hand-in-hand with the States to develop best practices and participates 
in a review of each suicide and the lessons learned.
    Question. General Ingram, is the Army Guard properly training 
recruiters to evaluate not only the physical but also the mental 
fitness of new recruits?
    Answer. The Army National Guard Recruiting and Retention Non-
Commissioned Officers receive training to identify triggers or 
potential issues for both physical and medical conditions. Recruiters 
rely on answers to moral and security suitability questions as a 
required part of the application process; however, ARNG Recruiters are 
not licensed to evaluate the mental fitness of a potential applicant. 
Only licensed, Department of Defense-approved medical professionals 
evaluate physical and mental fitness, as part of the overall enlistment 
physical conducted prior to accession at a local Military Entrance 
Processing Stations.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

    Question. The Army Board for Correction of Military Records has 
since corrected the soldiers' records to include the Post-Deployment/
Mobilization Respite Absence (PDMRA) leave. The problem is that these 
soldiers are only allowed to use this leave after another deployment. 
If a soldier does not deploy again, they cannot access the paid leave 
that they have already earned.
    General Ingram, are you aware of this problem?
    Answer. Yes, I am aware of this problem.
    Question. Do you believe that soldiers who earn paid leave through 
the PDMRA program should be allowed to use this benefit?
    Answer. Yes. The Army National Guard wants every soldier to receive 
all the benefits to which they are legally entitled.
    Question. The House and Senate recently passed legislation (H.R. 
4045) authorizing payments of $200 for each day of PDMRA that 
servicemembers were not allowed to use because the rules were changed 
during their deployment. Previously, the Congress authorized similar 
payments for soldiers who came home from deployments after the PDMRA 
program had been announced, but before it was actually up and running, 
in section 604 of the National Defense Authorization Act for fiscal 
year 2010.
    Do you believe those payments that have already been authorized by 
the Congress were an appropriate way to handle cases where a soldier 
was unable to use the paid leave they earned through the PDMRA program?
    Answer. Yes. PDMRA program applies to all Army soldiers. Reserve 
component soldiers were most impacted by changes in the program, as 
individuals not on Active Duty are prevented from taking the extra 
leave days granted. Therefore, the cash payout provision was the only 
way to compensate this population. The Army National Guard published 
implementing guidance for all States and Territories to execute cash 
payments to soldiers denied PDMRA benefits due to the delay of 
implementing guidance for the program. As part of the coordinated plan 
to execute restitution under PDMRA, States/Territories developed an 
Action Plan.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                   NATIONAL GUARD CIVIL SUPPORT TEAMS

    Question. General Ingram, could you describe for the subcommittee 
what capability is provided by the Weapons of Mass Destruction/Civil 
Support Teams (WMD-CSTs)? Does the reduction in manpower in the Air 
Guard impact the ability to support these missions?
    Answer. The proposed Air Guard manpower reduction will not impact 
the WMD-CST program. The National Guard Weapons of Mass Destruction/
Civil Support Teams provide high-priority, rapid response, full-time 
(title 32) National Guard units to civil authorities and local incident 
commanders. Our WMD-CSTs respond to actual--or suspected--terrorist WMD 
event/incidents, intentional or unintentional releases of Chemical, 
Biological, Radiological, and Nuclear (CBRN) materials, or natural or 
manmade disasters in the United States. The WMD-CST enhances Local 
Incident Commanders emergency responder capabilities; do not replace 
the Incident Command System or functions normally performed by the 
civilian emergency first responder community.
    Currently, the National Guard has 57 WMD-CSTs, one in every State, 
one each in the Territories of Guam, the Virgin Islands, Puerto Rico, 
one in the District of Columbia, and two each in California, Florida, 
and New York. Every National Guard WMD-CST is certified by the 
Secretary of Defense as ``operationally ready'' for their designated 
mission:
  --support civil authorities at domestic Chemical, Biological, 
        Radiological, Nuclear, and High Yield Explosive (CBRNE) 
        incident sites;
  --identify CBRNE agents/substances;
  --assess current and projected consequences;
  --advise response measures; and
  --assist with State requests for additional support resources.
    Each WMD-CST is equipped with detection and identification 
equipment; a mobile analytical laboratory which can provide the 
complete characterization of chemical, biological, or radiological 
materials, as well as the ability to provide information to the 
Laboratory Response Network and the Centers for Disease Control and 
Prevention. In addition, a sophisticated communications suite provides 
the WMD-CST with a broad spectrum of secure capabilities, allowing 
information integration between local, State, tribal, and Federal 
agencies.
    In fiscal year 2011, ARNG WMD-CST units conducted 632 immediate 
response and stand-by missions to include response to the American 
Samoa Tsunami, stand-by operations during the Super Bowl in Texas, and 
operations to protect the homeland following the recent tsunami in 
Japan. Through the first 8 months of fiscal year 2012, WMD-CSTs 
conducted 433 immediate response and stand-by missions: numerous white 
powder and unknown substance missions, support to National and State 
political events, large sporting events, National Special Security 
Events, Special Event Assessment Rating activities, the 2011 Asia-
Pacific Economic Cooperation meeting in Hawaii, the 2012 State of the 
Union Address, and the 2012 NATO Summit.
                                 ______
                                 
           Question Submitted by Senator Kay Bailey Hutchison

    Question. As part of this year's budget, the Army has submitted a 
request for approval to enter into a second multiyear procurement 
contract for the CH-47 Chinook helicopter. This multiyear contract 
would last for 5 years and produce 155 aircraft. Many of these would be 
assigned to the Army Guard, including 12 aircraft to be located at 
Grand Prairie, Texas. We've already had experience with a 5-year, 
multiyear contract for Chinooks; the first one expires this year. Given 
this experience, what do you see as the biggest benefits for the Army, 
the taxpayer, and especially the Army Guard, that would come from a 
second multiyear contract?
    Answer. Multiyear contracts (MYCs) provide cost savings because 
they stabilize contractors and subcontractors over a longer period of 
time. The cost savings from the CH-47 MYC is expected to be about 10 
percent or $373 million. This cost savings means more aircraft will be 
produced and made available to the Army and Army National Guard if 
funding is constant. Additionally, MYCs ensure consistent production. 
Thus, the Army and Army National Guard will receive aircraft faster 
because there are fewer production breaks due to time spent negotiating 
new contracts. All these factors help solidify fielding plans for the 5 
years associated with the CH-47 MYC.
                                 ______
                                 
          Questions Submitted to Vice Admiral Dirk J. Debbink
            Questions Submitted by Chairman Daniel K. Inouye

                          CONTINUUM OF SERVICE

    Question. Gentlemen, in accordance with the new defense strategy as 
well as fiscal constraints, the Active components will significantly 
reduce their end strengths over the next 5 years. This seems to create 
an opportunity for the Reserve components to recruit servicemembers 
coming off of Active Duty to continue their military service in the 
Reserves. How are the Reserve components planning to leverage this 
opportunity to retain these skilled and experienced personnel?
    Answer. In addition to the reductions programmed for the Active 
component, significant end-strength reductions are planned at this 
point for the Navy Reserve over the next 5 years. Although there will 
be an increased pool of personnel leaving Active Duty, reduced Reserve 
end-strength may limit the opportunity for transition to the Navy 
Reserve for some sailors. In order to maximize this opportunity, the 
Navy Reserve has implemented the following programs to ensure desired 
skills and expertise are retained to the maximum extent:
    Career Transition Office.--The Career Transition Office (CTO) 
    supports rapid and seamless transitions across Active and Reserve 
    Components (AC/RC) that will encourage a lifetime of Navy service. 
    The CTO Transition Assistants provide NAVET Officers and Enlisted 
    with counseling and guidance on the benefits of the Navy Reserve, 
    and assists sailors transitioning from AC to RC. Through 
    centralized processing, CTO has reduced transition processing time 
    from months to days. The CTO has reduced the necessary paperwork 
    and time required to transition a sailor from AC to RC, and 
    increased direct transition rates to more than 50 percent.
    Perform-to-Serve With Selected Reserve Option.--Perform-to-serve 
    (PTS) gives enlisted Active component and full-time support sailors 
    the option of requesting a Selected Reserve (SELRES) quota, in-rate 
    or a rating conversion quota, as they approach their Expiration of 
    Active Obligated Service. PTS streamlines the application, 
    evaluation, approval and notification process for sailors 
    requesting SELRES affiliation. SELRES PTS quota approvals are 
    linked to the Career Management System/Interactive Detailer (CMS/
    ID), which further eases the AC-to-RC transition process.
    Career Management System/Interactive Detailer.--Career Management 
    System/Interactive Detailer (CMS/ID) allows sailors with approved 
    SELRES PTS quotas to select the Navy Operational Support Center 
    (NOSC) where they will conduct their Reserve drills after their 
    transition. PTS approvals are linked to the CMS/ID system, only 
    allowing approved sailors to access the system. CMS/ID gives 
    sailors greater predictability in their future Reserve career, and 
    is linked to the Assignment Information Systems that can generate 
    Intermediate Stop (I-Stop) Orders for sailors who request them.
    Intermediate Stop Orders Generation.--This process allows Active 
    component and full-time support sailors transitioning to the 
    Selected Reserve to receive funded separation orders that include a 
    3-day I-Stop at their requested Navy Operational Support Center 
    (NOSC). This intermediate stop during the critical 72-hour 
    transition period allows the sailor to complete their release from 
    Active Duty (separation) processing and Reserve affiliation at 
    their new drilling location. Under this process sailors affiliating 
    with a NOSC greater than 50 miles from their residence are 
    authorized up to 3 days per diem while completing their Active Duty 
    to SELRES processing at the NOSC. I-Stop orders smooth the 
    transition process, allowing the sailor to get familiar with their 
    new community sooner while facilitating immediate Navy Reserve 
    leadership engagement through Command Sponsorship and Command 
    Indoctrination.
    Mobilization Deferment Program.--Current policy allows all Navy 
    veteran (NAVET) and other Service veteran (OSVET) personnel who 
    affiliate with the Navy Reserve within 6 months (183 days) of 
    release from Active Duty to qualify for a 2-year deferment from 
    involuntary mobilization, commencing on the date they affiliate 
    with the Navy Reserve. All personnel who affiliate between 7 and 12 
    months (184-365 days) of release qualify for a 1-year deferment 
    from involuntary mobilization commencing on the date they affiliate 
    with the Navy Reserve. Members may still volunteer for 
    mobilization.
    Enlisted Early Career Transition Program.--Early Career Transition 
    Program (ECTP) provides opportunities for Active component (AC) and 
    full-time support (FTS) enlisted sailors to transition into the 
    SELRES more than 90 days prior to their Expiration of Active 
    Obligated Service (EAOS). Eligible sailors may submit requests up 
    to 15 months prior but no later than 3 months prior to desired 
    transition date (not EAOS). If approved, members will incur 
    mandatory drilling Reserve obligation equal to the remaining Active 
    portion of their current contract. The minimum obligation will be 
    for 1 year if remaining in-rate; 4 years if converting.
    SELRES Affiliation Bonuses.--Navy veterans and other service 
    veterans are eligible to receive affiliation bonuses when 
    affiliating with the Navy Reserve in targeted officer designators, 
    enlisted rates, and specialties. There are 16 officer designators 
    and 11 subspecialties that are eligible for affiliation bonuses of 
    up to $10,000; in fiscal year 2012 execution, 451 officers have 
    taken the affiliation bonus. There are 27 enlisted rates and 33 
    Navy Enlisted Classification codes that are eligible for 
    affiliation bonuses of up to $20,000; in fiscal year 2012 
    execution, 169 sailors have taken the initial affiliation bonus and 
    500 sailors will receive an anniversary bonus payment.
    Navy Reserve Support for Reserve Component Accessions.--SELRES are 
    conducting NAVET outreach and engagement in all Navy enterprises to 
    support Navy Recruiting Command (NRC) and the Career Transition 
    Office (CTO) efforts to meet RC accession goals. Navy Reserve 
    Sailors occupy a unique position by residing in communities all 
    across the country, and are leveraging this position as well as 
    their Navy and civilian experiences to communicate with and mentor 
    RC candidates and support recruiting. Through SELRES outreach at 
    all leadership levels (Flag Officer, Senior Officer, Junior 
    Officer), NAVETS will know that they are valued for their service 
    and will make better informed affiliation decisions based on 
    knowledge of Reserve benefits and pay, drilling requirements, NOSC 
    and billet locations. SELRES recruiting and mentorship helps RC 
    candidates understand better what a SELRES actually does and 
    answers questions that range from Reserve community missions and 
    capabilities to managing the AC to RC transition and associated 
    lifestyles changes. Better informed NAVET affiliation decisions 
    will help achieve Navy Reserve meeting accession goals, and also 
    have direct impact on reduced RC attrition and increased overall 
    Navy Total Force readiness through the retention of trained and 
    experienced sailors.
    Question. Have you developed programs to allow for ease in 
transition for servicemembers going from Active Duty to the Reserves?
    Answer. Yes. Navy has developed numerous programs, and continues to 
improve processes, to assist sailors transitioning from the AC to the 
RC. Specific initiatives include:
  --Updating Navy's automated reenlistment/career management tool to 
        facilitate affiliation in the SELRES and NOSC selection before 
        leaving Active Duty.
  --Intermediate Stop (I-Stop) program allows Sailor's affiliating with 
        the RC to transfer on Active Duty orders from their current 
        command to an approved NOSC.
  --Mobilization Deferment Program allows Navy Veteran (NAVET) and 
        other Service Veteran (OSVET) personnel affiliating with the RC 
        within 6 months of release from Active Duty to qualify for a 2-
        year deferment from involuntary mobilization.
  --Enlisted Early Career Transition Program (ECTP) provides 
        opportunities for AC enlisted sailors to transition to the 
        SELRES more than 90 days prior to Expiration of Active 
        Obligation Service (EAOS).
  --Career Transition Office (CTO) supports rapid and seamless 
        transitioning between AC and RC to encourage a lifetime of Navy 
        service while reducing costs and manpower hours associated with 
        recruiting NAVETS.
  --Navy Reserve Support for RC Accessions: SELRES are conducting NAVET 
        outreach and engagement in all Navy Enterprises to support Navy 
        Recruiting Command (NRC) and Career Transition Office (CTO) 
        efforts to answer questions and aid in affiliation.
  --SELRES affiliation bonuses: NAVETS and OSVETS in targeted officer 
        designators, enlisted rates, and specialties are eligible for 
        Navy Reserve affiliation bonuses.
  --Finalizing plans for a Delayed Affiliation Program (DAP) that will 
        allow AC enlisted sailors who desire a delay in affiliation, or 
        are unable to obtain a SELRES in-rate Perform to Serve (PTS) 
        quota, to delay in-rate affiliation through a quota reservation 
        system.

                      RESERVE EQUIPMENT SHORTFALLS

    Question. Gentlemen, over the last several years, the Reserve 
components have transitioned from a Strategic to an Operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. The 
Congress has consistently added money to the National Guard and Reserve 
Equipment Appropriation (NGREA) to try to alleviate this problem. How 
have these increases improved your ability to train and deploy?
    Answer. The additional funding appropriated through NGREA has given 
the Navy Reserve the ability to procure and upgrade technical systems 
such as the Night Vision Device ``Heads Up Displays'' and Forward 
Looking Infrared (FLIR) sensors on our helicopters. These advanced 
systems have given our helicopter crews the ability to search, detect, 
track, and engage surface vessels of interest in challenging night-
time, low-light conditions. Due to a shift in drug trafficking tactics 
to exploit the night regime, this new and enhanced capability has 
allowed our Navy crews and USCG Law Enforcement Teams to be more 
effective against narco-terrorists, smugglers, and pirates. Just 
recently, the USN-USCG team on board the USS Elrod has captured a 
record-breaking amount of narcotics, mostly attributable to these new 
equipment additions through NGREA funding. Additionally, the NVG-HUD 
and FLIR add another layer of safety for our crews and law enforcement 
while flying under difficult environmental conditions.
    Within our Fleet Logistics community, the Navy Reserve C-130Ts are 
currently undergoing Electronic Prop Control System (EPCS), GPS and 
Engine Instrument Display System (EIDS) modifications. The EPCS 
modification replaces a legacy hydro-mechanical prop control system 
with a more simple and reliable electronic system--addressing and 
mitigating one of the C-130's biggest maintenance degraders while 
increasing crew safety and aircraft reliability. The forecasted impacts 
of this modification are a 4-percent increase in mission capable (MC) 
rate, 15-percent decrease in propeller nonmission capable (NMC) hours, 
15-percent decrease in propeller maintenance man-hours (MMH), and a 7-
percent reduction in overall system cost. The ROI for this modification 
is 6 years and is 1:1 per aircraft. The Garmin GPS modification 
provides crews with a global navigation system certified for primary 
navigation and instrument approaches. This capability allows Navy C-130 
crews to fly more direct, efficient routes while complying with new, 
more stringent air traffic management mandates. Additionally, it 
provides crews with greater situational awareness and increases safety 
margins by reducing aircrew workload during critical phases of flight. 
As part of the GPS modification, the EIDS upgrade replaces the entire 
cluster of 36 mechanical engine gauges and replaces them with a single 
digital display and is expected to reduce maintenance man-hours and 
supply chain delays while providing crews greater engine status 
awareness. The result of these NGREA-funded modifications is a safer, 
more efficient airlift fleet that is reliable and postured for 
longevity.
    Additionally, the Navy Reserve has used NGREA to invest heavily in 
its Adversary Air Program. In an effort to provide Fleet Aviators with 
the most effective training possible, improvements to both the airframe 
and avionics suites of our aircraft have been necessary. The F-5 has 
undergone numerous structural sustainment and safety upgrades to ensure 
this low cost, but capable, airframe remains viable for the foreseeable 
future without sacrificing safety. Similarly, the incorporation of the 
Joint Helmet Mounted Cueing System (JHMCS) and external jamming pods 
bring enhanced tactical capabilities. JHMCS gives the Reserve F/A-18s 
additional capability to meet COCOM requirements when called upon. 
These enhanced capabilities also offer more dynamic air to air 
scenarios, and allow us to keep pace with the technological advances of 
potential threat aircraft. It is these upgrades which allow us to 
provide training that very closely mirrors what pilots can expect to 
see in any engagement around the world.
    NGREA has allowed the Navy Reserve Force to purchase expeditionary 
warfighting equipment for the Naval Expeditionary Combat Enterprise 
(NECE) in support of operations in Iraq and Afghanistan, essential 
training upgrades in support of the adversary mission, and warfighting 
and personal protection equipment for Navy Special Warfare units. For 
example, NGREA funding allowed for the procurement of 10 Surface 
Amphibious Navy Maritime Prepositioning Force Utility Boats (MPFUBs). 
These boats replaced the LCM-8s utilized for Joint Logistics Over the 
Shore (JLOTS) Navy Beach Group Surface Reserve training missions, 
providing an essential training upgrade. We augmented these purchases 
with additional OMNR funding to provide for spare parts and associated 
items for the boats life-cycle maintenance. Additional equipment 
purchases for NECE included loader vehicles, concrete mixers, cargo 
trucks, fork lifts, and rapid response kits to enhance the Navy's rapid 
engineering response capability. Naval Special Warfare units also 
benefitted from personal and squad level tactical equipment items such 
as night vision optics and dive gear. Unlike most other appropriations, 
NGREA provides important, in-execution year flexibility to address 
equipment needs of the Force, which makes it an invaluable resource.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. The current dollar amount of Navy Reserve equipment 
shortfalls is $5 billion and is published in table 8 of the National 
Guard and Reserve Equipment Report. Recent funding increases have 
bolstered recapitalization of critical RC equipment and enabled 
aviation modernization upgrades and table of allowance equipment buys 
that maintain our capability. The Navy Reserve's top equipment 
priorities continue to be aircraft procurement and the outfitting of 
special warfare units.

               FAMILY SUPPORT AND YELLOW RIBBON PROGRAMS

    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program (YRRP) are particularly important for guardsmen and their 
families who are geographically dispersed across the country. Please 
update the subcommittee on your Service's Yellow Ribbon efforts and 
their effectiveness.
    Answer. The YRRP has consistently received praise for its ability 
to smooth the process for Reserve servicemembers transitioning from 
mobilized service to the civilian sector. Specific programs under the 
Yellow Ribbon program include:
    Deployment Readiness Training.--Navy Reserve's Pre-Deployment 
    Yellow Ribbon and family readiness event, Deployment Readiness 
    Trainings (DRTs) provide our members and families with education 
    about the rigors of a deployment and the challenges of family 
    separation and accessing family programs. The Navy Reserve 
    Psychological Health Outreach Program (PHOP) teams of licensed 
    mental health professionals embedded in each Reserve Region are 
    also available for support and screening and to provide 
    psychological health training at these events.
    During-Deployment Support.--During-deployment support is provided 
    using the Ombudsman, family readiness programs, and U.S. Fleet 
    Forces' IA grams. Command Individual Augmentee Coordinators (CIAC) 
    have monthly contact with both the deployed sailor and his/her 
    family. The PHOP teams are also available to support the Ombudmen, 
    family readiness program staff, CIACs and families during 
    deployments.
    Post-Deployment Events.--Included in this category are the Warrior 
    Transition Unit in Kuwait, the CONUS Navy Mobilization Processing 
    sites (NMPS), Returning Warrior Workshop (RWW), and the Post-
    Deployment Health Reassessment Program (PDHRA). PHOP teams provide 
    training and support to the NMPS. RWWs are Navy's 60-day 
    Reintegration Event for sailors and their guests. RWWs provide 
    education, facilitate discussions, seek to improve psychological 
    health and resiliency, and honor sailors and their guest. The PDHRA 
    is the 90-day post-mobilization event and completes YRRP. PDHRAs 
    are conducted online, with follow up phone conversation with a 
    healthcare provider, and help to provide mental health distress 
    symptom warning and identification. The PHOP teams also make 
    contact with demobilized reservists to assess needs and provide 
    support to reservists and their families during reintegration. They 
    can also help to find local resources for any needs identified 
    during the PDHRA and the annual Periodic Health Assessments (PHA). 
    PHOP teams also support the Navy Operational Support Center (NOSC) 
    medical department representatives with Line of Duty (LOD) 
    determination packages, and the Reserve Force Surgeon, medical case 
    managers and Safe Harbor nonmedical case managers with finding 
    local care and resources for wounded warriors.
    Question. Are family support programs fully funded in the fiscal 
year 2013 budget request? From your perspective, are there programs 
that could be improved?
    Answer. Navy family support programs received funding for all known 
requirements in the fiscal year 2013 President's budget request. Family 
Support programs are continually evolving, so there is a possibility 
for growth or program expansion after the budget request is submitted. 
For example, the Veteran's Employment Initiative Program (VEIP) has 
grown in scope since submission of the fiscal year 2013 request. In 
some cases, family support programs are managed by the Active Force, 
but cover all eligible populations, Active and Reserve. In other cases, 
particularly those in which the needs of Active and Reserve component 
sailors differ, there are separate Active and Reserve programs. 
Regardless of the program management approach, Navy's goal is to ensure 
the needs of both Active and Reserve families are met.
    With regard to improving programs, Navy is using social media and 
virtual learning platforms to expand the knowledge base. While this has 
greatly extended awareness and support to most families, providing 
support to remotely located families remains a challenge and focus for 
improvement.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats

    Question. During your tenure as the Chief of Navy Reserves, what 
efforts have you initiated to increase the number of officers 
completing Joint Professional Military Education (JPME) Phase I? During 
your tenure by year, what were the number of Commanders and Captains 
who had completed JPME Phase I? How do these numbers and percentages 
compare to their Active Duty counterparts/running mates? Why the 
difference? What more can be done?
    Answer. Increasing the number of Reserve component (RC) officers 
who complete JPME has been a priority for the Navy Reserve since 2008. 
As the table below depicts, the number of RC officers with JPME 1 has 
doubled through increased in-residence opportunities and via distance 
learning.

----------------------------------------------------------------------------------------------------------------
                                                               Inventory    Percentage   Inventory    Percentage
                         Fiscal year                           of RC JPME  of RC CDRs/   of AC JPME  of AC CDRs/
                                                              I Graduates     CAPTs     I Graduates     CAPTs
----------------------------------------------------------------------------------------------------------------
Fiscal year 2008............................................          415          6.5        2,105         21.0
Fiscal year 2009............................................          568          9.0        2,398         23.5
Fiscal year 2010............................................          704         11.1        2,631         25.3
Fiscal year 2011............................................          793         12.5        2,732         25.6
Fiscal year 2012............................................          827         13.0        2,755         27.3
----------------------------------------------------------------------------------------------------------------

    From 2010 to 2012 Navy Reserve in-residence opportunities increased 
from 12 to 40, however, a majority of our officers must complete JPME 1 
via distance learning. Navy Reserve Officers are enrolled in every 
distance learning program offered by the services.
    The Active Duty Navy continues to offer resident and nonresident 
opportunities to our highly capable, board screened officers. We 
continue to publicize JPME opportunities by releasing ALNAVRESFOR 
messages and publishing on a dedicated Navy Reserve Web site JPME Web 
page and CNRFs Facebook Page.
    Question. During your tenure by year, what were the number of E-8 
and E-9 who had completed the Senior Enlisted Academy (SEA)? How do 
these numbers and percentages compare to their Active Duty 
counterparts/running mates? Why the difference? What more can be done?
    Answer. Please see the table below for year-by-year statistics. 
Approximately 20 percent of both the Reserve component (RC) and Active 
component (AC) Senior Enlisted population have attended the Academy.

----------------------------------------------------------------------------------------------------------------
                         Fiscal year                           Total RC SEA graduates    Total AC SEA graduates
----------------------------------------------------------------------------------------------------------------
Fiscal year 2008............................................                       90                       461
Fiscal year 2009............................................                       79                       382
Fiscal year 2010............................................                       54                       296
Fiscal year 2011............................................                       39                       300
Fiscal year 2012............................................                       38                       145
                                                             ---------------------------------------------------
      Totals................................................                      300                     1,584

                                                                   (21.7 percent of RC  E8/  (19.6 percent of AC  E8/
                                                                       E9 population)            E9 population)
----------------------------------------------------------------------------------------------------------------

    The Navy Reserve is committed to increasing Senior Enlisted Academy 
attendance by our eligible sailors who have not attended the Academy. 
Navy Reserve Force Senior Enlisted Leadership developed and implemented 
a Force-wide communication strategy employing Facebook, the Navy 
Reserve Web site, and Chief's Mess calls to emphasize the benefits of 
the Academy and encourage more Reserve component attendance. Since 
implementing this strategy in 2011, Reserve applications have doubled. 
Additionally, Navy Reserve leadership continuously reviews faculty 
assignments to ensure an appropriate amount of facilitators are 
available to meet fleet demand.
    Question. In 2015, the Navy Reserve will celebrate its 100th 
anniversary. What efforts are underway to capture and write of the 
history and contributions of the Navy Reserve over this 100-year 
period? How do you plan on commemorating this important anniversary? Do 
you have a full-time historian on your staff? If not, why not?
    Answer. Navy Reserve is coordinating with the Naval History and 
Heritage Command's Office of Commemorations in preparation for the 
100th anniversary of the Navy Reserve. The work of this joint effort 
will include a written history that identifies and illustrates notable 
contributions of the Navy Reserve to the Navy and Joint Forces during 
the last century. Although exact plans are not yet finalized, there 
will be a series of 100th anniversary recognition events and ceremonies 
throughout the year at Reserve units and facilities across the country.
    In lieu of a full-time historian on staff, Navy Reserve employs a 
full-time Public Affairs Officer, supported by a Strategic 
Communications team.
    Question. What are the unfunded requirements of the Fleet Historian 
program?
    Answer. The fleet historian program is currently staffed by Reserve 
sailors and covers 16 commands including numbered fleets, with the 
exception of the 4th fleet. As of early March 2012, 33 of the 35 
Reserve billets allocated were filled. Additionally, 12 civilian 
positions were approved in the fiscal year 2012 budget, and are 
currently being filled. The Navy is assessing the total requirement in 
order to ensure the Fleet Historian Program is adequately sized given 
current pressures in funding and personnel.
                                 ______
                                 
         Questions Submitted to Lieutenant General Jack Stultz
            Questions Submitted by Chairman Daniel K. Inouye

                          CONTINUUM OF SERVICE

    Question. In accordance with the new defense strategy as well as 
fiscal constraints, the Active components will significantly reduce 
their end-strengths over the next 5 years. This seems to create an 
opportunity for the Reserve components to recruit servicemembers coming 
off of Active Duty to continue their military service in the Reserves. 
How are the Reserve components planning to leverage this opportunity to 
retain these skilled and experienced personnel?
    Answer. The Army Reserve is setting the conditions early in order 
to be prepared for the Active Army drawdown and support of the 
continuum of service. In order to satisfy the force structure 
requirements established for the Army Reserve through the Total Army 
Analysis process, the Manpower Balancing Strategy is designed to:
  --Increase Prior Service Accessions;
  --Decrease reliance on Non Prior Service Accessions to fill 
        shortages;
  --Reduce Shortages in Mid-Grade Officers and NCOs; and
  --Make Space Available for Increased AC Transitions by removing 
        unsatisfactory participants from our rolls.
    Question. Have you developed programs to allow for ease in 
transition for servicemembers going from Active Duty to the Reserves?
    Answer. Yes. The U.S. Army Reserve is establishing 16 Transition 
Assistance Teams (TAT) located at various Army Active Duty installation 
transition points in the United States and overseas. The TAT consists 
of 2-3 full-time support soldiers from the Army Reserve Careers 
Division (ARCD) and 1 contract civilian employee from the Employer 
Partnership Officer at each transition point. The contractor will serve 
as the Transition Point Employment Liaison (TEL). The TEL will assist 
soldiers with registering on accepted jobs portal, resume development/
enhancement, application process, interview assistance, and jobs skills 
translation. The TEL will track soldiers' progress and assist soldiers 
as necessary. Together, the TAT will counsel soldiers considering a 
career in the Reserve component, find them a unit of assignment, and 
assist them in obtaining employment in the area/State of the soldier's 
choice. The TEL will assist soldiers in finding employment 
opportunities even if they decide not to affiliate with the Reserve 
component. Case management of a soldier is handed to another TEL or 
Army Career Employment Specialists (ACES) if a soldier chooses to 
relocate to an area or State outside of the current TAT's 
responsibility. All soldiers transitioning from Active Duty are 
provided briefings on the benefits of affiliation with the Reserves and 
they are also afforded an opportunity to actual sign-up prior to 
separation from Active Duty. All soldiers transitioning from Active 
Duty are provided briefings on the benefits of affiliation with the 
Reserves and they are also afforded an opportunity to actual sign-up 
prior to separation from Active Duty.

                      RESERVE EQUIPMENT SHORTFALLS

    Question. Gentlemen, over the last several years, the Reserve 
components have transitioned from a Strategic to an Operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. The 
Congress has consistently added money to the National Guard and Reserve 
Equipment Appropriation (NGREA) to try to alleviate this problem. How 
have these increases improved your ability to train and deploy?
    Answer. NGREA is an invaluable tool for the Army Reserve (AR). It 
enables the AR to procure modernized equipment not resourced in the 
Army's budget. NGREA assists with mitigating critical equipment 
shortfalls. NGREA helps fill the resourcing gap to meet the Army 
Campaign Plan objective of transforming to an Operational Army Reserve. 
NGREA greatly enhances the AR's ability to procure modern equipment to 
improve readiness and modernization capability.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. The funding shortfalls for fiscal year 2013 is $9 billion. 
This funding would support equipment modernization systems such as 
tactical wheel vehicles, general engineering and combat mobility, field 
logistics, liquid logistics. Our major equipping challenges include; 
equipment modernization for critical systems, critical dual use 
equipment for national response, and institutional training equipment 
requirements.

               FAMILY SUPPORT AND YELLOW RIBBON PROGRAMS

    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program (YRRP) are particularly important for guardsmen and their 
families who are geographically dispersed across the country. Please 
update the subcommittee on your Service's Yellow Ribbon efforts and 
their effectiveness.
    Answer. Army Reserve Soldiers will continue to mobilize, deploy, 
fight, and then return home to their loved ones. I cannot adequately 
express both the tangible and intangible benefits derived from the YRRP 
for our soldiers and their families. The Army Reserve's Yellow Ribbon 
program is an integral part of our efforts to build resilient families 
and Army Strong Soldiers who can endure the mobilizations, separations, 
and sacrifices we ask of them as part of their selfless service. We 
continue to work to provide the soldiers and families, their employers 
and the local communities where they live some stability and 
predictability. This allows our Reserve component soldiers 
opportunities to pursue both their military and civilian careers 
fulfilling their soldier-citizen role. The YRRP program provides 
deployment support and services never afforded to the Reserve component 
before 2009. Participation in Yellow Ribbon events provides attendees 
with sufficient information and services, opportunities for referral 
and proactive outreach from our commands and our communities build 
self-reliant and resilient families and soldiers. Our events rely on 
the support and involvement of command staffs, employers, community 
partners, and a host of volunteers. Yellow Ribbon events also provide a 
platform for and rely on the energy, enthusiasm, and impact of local, 
regional, and national community leaders and businesses (employers, 
educational institutions, Veterans' organizations, community 
healthcare, and so on) who are rallying to support our commands and 
individual soldiers who deploy. There is nothing else like a Yellow 
Ribbon event to help soldiers and families prepare for and endure the 
challenges of their deployment and reintegration. We help families 
network together, connect with each other and keep the families in 
touch with their unit/command and Family Programs' Office/staff during 
the deployment of their soldiers. This has been important to get 
soldiers and families connected and keep them connected despite their 
geographical dispersion. Family members get to understand the 
sanctioned military benefits, entitlements and the resources available 
to them. The Reserve components' ``new normal'' battle rhythm for pre-
deployment, deployment, redeployment, and reintegration have recurring, 
yet different stress points for both the soldier and their family 
members. We are committed to providing our soldiers and families a 
level of benefits and quality of life that is commensurate with their 
service to the Nation. The geographic dispersion and numbers of Army 
Reserve families and soldiers, combined with the challenges that may 
exist with a civilian employer or educational pursuits, is unparalleled 
by any other service or service component.
    Question. Are family support programs fully funded in the fiscal 
year 2013 budget request? From your perspective, are there programs 
that could be improved?
    Answer. Army Reserve Family Programs are fully funded in fiscal 
year 2013 budget request to deliver the baseline programs and services 
designed to sustain soldiers and families through the soldier's 
lifecycle. The funding supports the both the Family Programs and the 
Child, Youth and School Services delivery models that reach the 
geographically dispersed. Yellow Ribbon Program: Yellow Ribbon 
Reintegration Program (YRRP) funding is separate from family readiness/
family support funds. The Yellow Ribbon program has been funded to meet 
the mission expected in fiscal year 2013. Overseas contingency 
operations (OCO) funding has been used to perform all tasks associated 
with program execution. The Army Reserve continues to be able to put 
soldiers and family members on travel orders to attend appropriately 
conducted events and receive access to services and resources that help 
prepare each for and through a deployment; as well as, receive reunion 
and reintegration assistance and support. The Army Reserve supports 
full implementation of the YRRP and is actively involved with the 
Department of Defense, other Services, the Army National Guard, and AR 
staffs at all levels of command to provide the most effective and 
efficient program for soldiers and their families.

                   UTILIZING THE OPERATIONAL RESERVE

    Question. General Stultz, during your tenure as Chief of the Army 
Reserve, you have led the effort to transform the Army Reserve from a 
strategic to an Operational Reserve. As you prepare to retire, can you 
update the subcommittee on how this transition is going and how you 
think this new Operational Reserve can be best utilized as we draw down 
the mission in Afghanistan?
    Answer. Given our extensive participation in the conflicts in Iraq 
and Afghanistan, as well as our active preparation for homeland defense 
missions and to exercise our new authority from the 2012 Authorization 
Act to assist with disaster response, I would say that the Army Reserve 
is already fully functioning as an Operational Reserve. As the mission 
in Afghanistan draws down we will be seeking new opportunities and 
predictable, recurring missions to leverage the rich skills of the 
citizen-soldiers of the Army Reserve and hopefully forestall the need 
for robust deployments like those that we are just completing. In this 
regard we hope to be able to actively utilize the newly enacted 10 
U.S.C. 12304b authority to support preplanned missions of our combatant 
commanders.
    Question. General Stultz, do you believe the Army is adequately 
resourcing the Reserve to make this transition?
    Answer. Yes. The current level of resourcing is acceptable and does 
not require us to assume undue levels of risk. That might not be the 
case should resourcing drop, for example, should we have to contend 
with sequestration. We are actively engaged to ensure that any 
essential resources that flow from overseas contingency operation 
funding find their way into the base budget. We are monitoring reset 
and retrograde operations closely to make sure that they fully take our 
equipping needs into account and will be prepared to advise the 
Congress how this is going. We are ready and available to augment the 
Force when required as authorized by U.S.C. 12304b.
                                 ______
                                 
       Questions Submitted to Lieutenant General Steven A. Hummer
            Questions Submitted by Chairman Daniel K. Inouye

                          CONTINUUM OF SERVICE

    Question. Gentlemen, in accordance with the new defense strategy as 
well as fiscal constraints, the Active components will significantly 
reduce their end strengths over the next 5 years. This seems to create 
an opportunity for the Reserve components to recruit servicemembers 
coming off of Active Duty to continue their military service in the 
Reserves. How are the Reserve components planning to leverage this 
opportunity to retain these skilled and experienced personnel?
    Answer. The Marine Corps intends to leverage opportunities to 
retain qualified servicemembers leaving the Active component over the 
next 5 years with a number of programs designed to recruit skilled and 
experienced personnel. One such program is the fiscal year 2012 pilot 
program dubbed ``Active Component (AC) to Selected Marine Corps Reserve 
(SMCR) Direct Affiliation.'' The Direct Affiliation Program focuses on 
highly qualified candidates recruited to fill available Reserve 
assignments with grade and military occupational specialty (MOS) 
matches at a Select Marine Corps Reserve unit. The program will begin 
with marines on their initial contract and company grade officers. 
Affiliation bonuses or prior-service MOS retraining (if requested and 
available) can also be offered through direct affiliation. The marine 
leaves Active Duty but ``stays Marine'' by joining the new Reserve unit 
within 60 days of their end of Active service (EAS) date, without a 
break in service. Upon affiliation, the Reserve unit welcomes and 
sponsors the new direct affiliate and assists in the marine's 
transition. One benefit associated with this program is an automatic 6-
month extension of existing TRICARE medical coverage, to include 
dependents, for participation as a direct affiliate.
    Another retention tool is the 60 Composite Point Bonus Program. 
Active component and Reserve component corporals can elect to receive 
60 points towards their promotion cutting score for a 12-month 
commitment to a Selected Marine Corps Reserve (SMCR) unit. This bonus 
is intended to incentivize prior service corporals to affiliate with a 
Selected Marine Corps Reserve unit and aid in the retention of existing 
Reserve component corporals. Released earlier this fiscal year, more 
than 240 Corporals have accepted this bonus and roughly one-half have 
been promoted as of June 1, 2012.
    Finally, each month, Marine Corps Reserve Affairs communicates via 
email with all Active component Marines approaching their EAS date. 
This email communication provides a summary of Reserve opportunities 
and key Reserve transitional points of contact. Reserve Transition 
Coordinators at Camp Lejeune, Marine Corps Air Station New River, Camp 
Pendleton and Okinawa provide ongoing education on Reserve 
opportunities to Active component career planners. These educational 
engagements inform career planners so that the career planner community 
can better counsel transitioning marines on service in the SMCR.
    Question. Have you developed programs to allow for ease in 
transition for servicemembers going from Active Duty to the Reserves?
    Answer. Our transition assistance programs will be integrated into 
the lifecycle of a Marine from recruitment, through separation or 
retirement, and beyond as veteran Marines. Once implemented, this will 
assist marines as they transition from the Active Duty ranks back to 
their civilian lives, which may include time in the Marine Corps 
Reserves.
    Our first step is our revised Transition Readiness Seminar (TRS), 
which now gives Marines a choice of focusing on one of four pathways 
during this program:
  --College/University education;
  --Employment;
  --Vocational or technical training; or
  --Entrepreneurialism.
    Marines receive information on the Reserves during TRS that 
highlight the benefits of a Reserve career including educational 
opportunities, promotions, and certain commissary and exchange 
privileges. This revised seminar requires marines to complete 
assignments beforehand in order to maximize the seminar's efficiency 
and effectiveness. This tailored approach reduces information overload, 
targets individual needs of the marine and the Marine Corps, and 
promotes effective military skills translation.
    The Marine for Life Program, with its nationwide network of 
Hometown Links, will support improved reach-back and outreach support 
for those veteran marines who require localized support in their 
hometowns with information, opportunities, or other specific needs. 
These assets help veterans develop and maintain local networks of 
marine-friendly individuals, employers, and organizations.

                      RESERVE EQUIPMENT SHORTFALLS

    Question. Gentlemen, over the last several years, the Reserve 
components have transitioned from a strategic to an Operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. The 
Congress has consistently added money to the National Guard and Reserve 
Equipment Appropriation (NGREA) to try to alleviate this problem. How 
have these increases improved your ability to train and deploy?
    Answer. Reserve equipment inventory levels continue to rise to meet 
Reserve training and deployment requirements. The NGREA remains a 
significant force multiplier for the Reserve component (RC), allowing 
the Marine Corps flexibility to balance requirements based on a Total 
Force perspective. Affording the Marine Corps the ability to purchase 
or accelerate the fielding of mission essential items for the Reserves 
directly impacts the RC's ability to train. The RC has been able to 
ensure units augmenting and reinforcing the Active component (AC) are 
as proficient as their AC counterparts. The NGREA has been a critical 
resource solution towards training and readiness for the RC in the 
following areas:
    Training and Simulators.--The Marine Corps Reserve strives to 
    incorporate the latest technological innovations to create cost-
    effective training and education opportunities for Reserve Marines, 
    increasing their ability to perform at the same level as their AC 
    counterparts. Fielding modern, state-of-the-art training systems is 
    part of this effort. Through the use of NGREA, the Marine Corps has 
    procured the Medium Tactical Vehicle Replacement--Operator Driving 
    Simulator (MTVR-ODS), Virtual Combat Convoy Trainer--Marine (VCCT-
    M), Deployable Virtual Training Environment--Reserves (DVTE-R), and 
    other training systems. Additionally, the incorporation of aircraft 
    Flight Training Devices (FTDs) and their linkage via the Aviation 
    Virtual Training Environment (AVTE) will not only allow aircrews to 
    conduct more sorties via the simulator/training device but the FTDs 
    will also allow the RC to train with other units and aircrews as a 
    way to reduce costs in a resource-constrained environment. The 
    Marine Corps continues to evaluate new training and simulation 
    technologies to identify cost-effective training options.
    Combat Equipment Procurement and Modernization.--The Marine Corps' 
    various combat equipment modernization programs funded with NGREA 
    are providing the RC with the latest generation of warfighting 
    capabilities. These programs include the Logistics Vehicle System 
    Replacement (LVSR), M1A1 tank suspension upgrades, and the A2 
    upgrade to the Light Armored Vehicle (LAV) family. The majority of 
    the Marine Corps' modernization programs are already in the 
    fielding phase or within the final phases of acquisition. NGREA 
    funds were also utilized for the procurement of Support Wide Area 
    Network (SWAN) satellite network packages for command and control, 
    and RQ-11B Raven unmanned aerial vehicle systems
    Aviation Modernization.--The RC is also included in the Marine 
    Corps Aviation Plan. During this Future Year Defense Program 
    (FYDP), Reserve squadrons will begin transition from the KC-130T to 
    the KC-130J, the CH-46E to the MV-22B, and the UH-1N to the UH-1Y. 
    The RC has used NGREA funding to provide upgraded capabilities to 
    existing aircraft.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. As discussed in the fiscal year 2013 National Guard and 
Reserve Equipment Report (NGRER), the projected fiscal year 2013 delta 
between the on-hand quantities of the RC and the wartime requirements 
is $819 million. Excluded from this requirement is the fielding of the 
KC-130J airframe. While the KC-130J has been fielded to the Active 
component Marine Corps, the first Reserve component KC-130J is not 
scheduled for delivery until 2015, and currently only 5 of the 28 
airframes are programmed within the FYDP. The cost to procure the 
remaining 23 KC-130J airframes is $2.1 billion.

               FAMILY SUPPORT AND YELLOW RIBBON PROGRAMS

    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program are particularly important for guardsmen and their families who 
are geographically dispersed across the country. Please update the 
subcommittee on your Service's Yellow Ribbon efforts and their 
effectiveness.
    Answer. We continue to ensure our geographically dispersed 
Reservists and their families are cared for through our various 
outreach efforts, which includes the Yellow Ribbon Reintegration 
Program. Marine Forces Reserve has fully implemented the Yellow Ribbon 
Reintegration Program at each of the five stages of deployment to 
better prepare our servicemembers and their families for activation and 
return to civilian life after mobilization. During fiscal year 2011, we 
took proactive steps to maximize participation while minimizing costs 
by hosting Yellow Ribbon Reintegration events at Reserve centers. This 
step lowered the average cost per participant to $340 per training 
session, and we anticipate additional cost savings this fiscal year 
because of these efforts. More importantly, this enables our units to 
proactively plan around the operational and unique individual needs of 
their marines, sailors, and families in addition to keeping unit 
leadership in the forefront of the issues that affect their 
servicemembers. In fiscal year 2011, we executed 155 events in which 
6,264 servicemembers, which include marines in the Individual Ready 
Reserve, 2,399 family members, and 3,673 nondependent family members, 
and/or designated representatives participated for a total of 12,366 
persons served by our program. We'll continue to build these events 
around the operational needs of our units as well as the individual 
needs of our marines, sailors, and their families by giving unit 
leadership flexibility in selecting venue, resources, and agenda in 
accordance with current Department of Defense policy and guidance.
    Question. Are family support programs fully funded in the fiscal 
year 2013 budget request? From your perspective, are there programs 
that could be improved?
    Answer. The Marine Corps family support portfolio focuses on 
sustaining and enhancing essential programs that support the health, 
welfare, and morale of our marines and their families. We continually 
seek improvement and have been working hard to ensure our family 
support programs properly address the needs of our marines and 
families.
    In the fiscal year 2013 President's budget, the Marine Corps 
ensures that family support programs are efficient while meeting all 
mission-critical needs. The Marine Corps family support budget reflects 
a balanced approach that is designed to enhance those elements of 
support that are the most critical to marines and their families. 
Funding for Marine Corps family programs in the fiscal year 2013 
President's budget maintains the required level of family support 
throughout the Marine Corps (Active Duty and Reserves). On the whole, 
it provides the necessary funding to ensure the health and well-being 
of our marines and their families. There were no significant 
programmatic reductions to family support programs in fiscal year 2012. 
Some aspects of Morale, Welfare and Recreation and family support 
programs are reduced in fiscal years 2013-2016, but these reductions 
are primarily a function of the drawdown in Marine Corps end strength. 
The fiscal year 2013 budget has increased funding in several family 
support areas in order to enhance essential programs that support our 
marines and their families.
    The fiscal year 2013 President's budget is designed to preserve and 
enhance the quality of life for marines and their families and 
continues to provide the appropriate level of services in this mission 
critical area.
                                 ______
                                 
   Questions Submitted to Lieutenant General Charles E. Stenner, Jr.
            Questions Submitted by Chairman Daniel K. Inouye

                          CONTINUUM OF SERVICE

    Question. Gentlemen, in accordance with the new defense strategy as 
well as fiscal constraints, the Active components will significantly 
reduce their end strengths over the next 5 years. This seems to create 
an opportunity for the Reserve components to recruit servicemembers 
coming off of Active Duty to continue their military service in the 
Reserves. How are the Reserve components planning to leverage this 
opportunity to retain these skilled and experienced personnel?
    Answer. The Air Force Reserve's first choice to fill our ranks are 
those members leaving Active Duty. We have In-Service Recruiters at 
nearly every base personnel office to catch and educate members 
separating from Active Duty on the benefits of serving in the Air Force 
Reserve. While Active Duty Force shaping provides a great opportunity 
to add to our ranks, several factors influence an airman's decision 
including location, position availability, and career field. Another 
hindrance is that the career fields where the preponderance of our 
shortages exists are usually those career fields not targeted during 
force shaping thus, the career fields being downsized are usually not 
what we need. Nonetheless, we strive to place every eligible member to 
allow for continuum of service and retain these experienced airmen in 
the Air Force inventory.
    Question. Have you developed programs to allow for ease in 
transition for servicemembers going from Active Duty to the Reserves?
    Answer. Accessing separating Regular Air Force Active Duty members 
is a vital part of the Air Force Reserve strategic plan to meet end 
strength each year. In fact, approximately 30 percent of all Air Force 
Reserve gains over the last 5 years have been transitioning Regular Air 
Force members. Our success can be attributed to an aggressive, fully 
integrated In-Service Recruiting program that focuses on helping 
transitioning Airmen wade through their continuum of service options. 
In-Service Recruiters work with members once a date of separation is 
projected to provide briefings on Air Force Reserve membership and 
benefits, assist with assignments, and ensure transition processing is 
complete.

                      RESERVE EQUIPMENT SHORTFALLS

    Question. Gentlemen, over the last several years, the Reserve 
components have transitioned from a strategic to an Operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. The 
Congress has consistently added money to the National Guard and Reserve 
Equipment Appropriation (NGREA) to try to alleviate this problem. How 
have these increases improved your ability to train and deploy?
    Answer. The Congress has been extremely generous in allocating 
greater amounts of NGREA over the last several years. Without these 
funds, modernization of Air Force Reserve systems would have clearly 
been inadequate. The Air Force Reserve uses these resources to not only 
modernize its systems but to procure equipment and vehicles needed to 
sustain the readiness of our Operational Reserve Force. Our 
modernization strategy focuses on upgrading defensive systems, 
communication and data links, and precision engagement capabilities. 
Continuing to upgrade our legacy systems provides not only the ability 
to train alongside our Active Duty counterparts but also enables the 
interoperability so vital in today's fight. Air Force Reserve Security 
forces and Civil Engineers have received the equipment and training 
needed to deploy with minimum spin-up time and be ready to operate 
immediately in the area of operations. Air Force Reserve aircraft are 
continuing to receive upgrades like C-130J large Aircraft Infrared 
Countermeasures, C-130H Secure Line-of-Sight/Beyond Line-of-Sight, and 
F-16 Helmet Mounted Integrated Targeting which provide the combatant 
command with capabilities to complete the mission and keep our forces 
safe. In addition to the needs of the combatant command, NGREA is 
currently being used to purchase new modular area spray system 
equipment for Air Force Reserve C-130's that proved so vital in the 
Gulf of Mexico oil spill and are the only spray-capable aircraft in the 
Department of Defense.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. The Air Force Reserve is currently scheduled to lose up to 
82 aircraft in fiscal year 2013 due to force structure reductions. As 
good stewards of the Nation's dollars, we are currently re-shaping our 
modernization strategy so no funds are wasted on aircraft scheduled for 
removal from the inventory while preserving options pending final 
congressional action on force structure levels. Pending congressional 
action, our backlog of equipment requirements to support the current 
force structure is approximately $2.2 billion, excluding re-
capitalization. The Air Force Reserve requires a minimum of $100 
million a year to fully equip and modernize its forces, exclusive of 
re-capitalization costs. These funds will be used to upgrade the 
systems we have remaining as well provide units with modern equipment. 
Air Force Reserve vehicles are some of the oldest in the Department of 
Defense and need to be replaced along with a great deal of support 
equipment and infrastructure. We also continue to focus on 
modifications to increase aircraft survivability, improve precision 
engagement and enhance interoperability with our Active Duty partners.

               FAMILY SUPPORT AND YELLOW RIBBON PROGRAMS

    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program are particularly important for guardsmen and their families who 
are geographically dispersed across the country. Please update the 
subcommittee on your Service's Yellow Ribbon efforts and their 
effectiveness.
    Answer. The Air Force Reserve has conducted 51 Yellow Ribbon 
Reintegration Program events at 17 venues during fiscal year 2012. 
There are 27 additional events planned at 9 venues for this fiscal 
year. From our postevent surveys, we are experiencing a satisfaction 
rating of 4.5 points on a 5-point scale with 92 percent of attendees 
agreeing that the event information was useful to the member and their 
families. Approximately 52 percent of attendees submitting surveys 
decide they will seek further financial counseling after hearing the 
information presented at the program.
    The Air Force Reserve Yellow Ribbon Reintegration Program is funded 
through overseas contingency operations funding. Our fiscal year 2013 
requirement is $25.5 million.
    Question. Are family support programs fully funded in the fiscal 
year 2013 budget request? From your perspective, are there programs 
that could be improved?
    Answer. The Yellow Ribbon Reintegration Program is funded 100 
percent through the overseas contingency funds (OCO). Air Force Reserve 
has requested $25.5 million for fiscal year 2013. We are concerned that 
if OCO funding goes away, sustaining the Yellow Ribbon Program would be 
extremely difficult. As for improving current programs, we are 
reviewing funding of Air Force Reserve family programs as the demands 
have traditionally increased during harsh economic times. However, at 
this point, there are no significant deficiencies in Air Force Reserve 
family programs.

               AIR FORCE RESERVE--FORCE STRUCTURE CHANGES

    Question. General Stenner, in March, the Air Force announced force 
structure changes and end strength reductions. The Air Force Reserve 
was impacted far less than the Air Guard in these proposed changes, 
which reduce Reserve end strength by 900 billets in fiscal year 2013. 
What input were you asked to provide during the deliberations over 
these force structure changes?
    Answer. To say the Air Force Reserve was impacted far less than the 
Air National Guard is misleading. Although 900 manpower billets is the 
net amount of the force structure reduction, the actual drawdown of 
Selected Reserve equals 1,800 positions in fiscal year 2013, which is 
offset by a pre-programmed growth of 900 positions from fiscal year 
2010. In fact, the total programmed reduction for the future years' 
defense program is 3,000 positions. The Air Force Reserve is certainly 
taking its fair share of reductions relative the Active Duty and Air 
National Guard.
    The Air Force leveraged our Total Force Enterprise proportionately 
to present our enduring capabilities to the Joint warfighter and we 
have successfully met the demand of increased operations tempo over the 
last two decades through a combination of volunteerism, selective 
mobilization, and the creation of Active, Reserve, and Guard 
Associations. Over the years, we have adjusted the mix between Active 
and Reserve components to ensure we maintain a ready and sustainable 
force and can meet our surge and rotational requirements.
    Senior leaders from each component worked closely together to 
submit a budget that:
  --Shifts focus toward Asia-Pacific region, continues presence in 
        Middle East, and maintains the ability to adapt to evolving 
        strategic posture in Europe;
  --Establishes an Active component/Reserve component mix based on 
        readiness, rotational requirements and sustainable deploy-to-
        dwell ratios;
  --Retains required Active component seasoning base to sustain Total 
        Force;
  --Provides an Operational Reserve component engaged in enduring and 
        evolving missions;
  --Meets required budget reductions while seeking to avoid a hollow 
        force--prioritized readiness over force structure; and
  --Produces a smaller, but flexible, agile, and ready force.
    Maintaining an appropriate and equitable Active/Reserve mix will 
remain critical to sustaining Air Force capabilities for forward 
presence and rapid response and meeting overseas rotational demands 
with a smaller force. We were driven to consider reductions in fiscal 
year 2013 as a Total Force, and I carefully considered the ratio 
between the Active and Reserve components and made choices that:
  --Ensures the Total Force could fulfill the Air Force's surge 
        requirements as directed by the force sizing construct of the 
        new strategic guidance;
  --Maintains the balance between Active and Reserve components 
        required to fulfill continuing rotational requirements at 
        deployment rates and personnel tempos that are sustainable for 
        both the Active and Reserve components;
  --Makes sure the Active component retained the recruiting, training, 
        and operational seasoning base required to sustain the Active 
        Air Force, Air National Guard, and Air Force Reserve into the 
        future; and
  --Ensures the Reserve component remains relevant and engaged in both 
        enduring and evolving missions.
    The Air National Guard and Air Force Reserve Chiefs were involved 
in all analysis and decisions, and I employed the following realignment 
strategies in selecting specific locations for aircraft reductions and 
re-missioning plans:
  --Ensure aircraft reductions do not negatively impact operational 
        support to the Combatant Commands;
  --Ensure force structure movements do not create any new Air Force 
        bills;
  --Ensure risk is minimized by optimizing crew ratios to exploit 
        expected increase in mission capability rates; and
  --Consider locations that continued to have an Air Force mission due 
        to the presence of another Air Force component.
    Question. Is the Air Force Reserve well-positioned to drawdown 900 
billets in fiscal year 2013, and how will this affect readiness?
    Answer. To clarify, 900 manpower billets is the net amount of force 
structure reduction in fiscal year 2013. The actual drawdown of 
Selected Reserve equals 1,800 positions, but is offset by a pre-
programmed growth of 900 positions from fiscal year 2010 augmenting new 
and emerging missions, including new associations.
    Air Force Reserve manpower reductions that are included in the 
fiscal year 2013 President's budget request are almost completely tied 
to the retirements in primary assigned aircraft. Wherever C-130, A-10, 
or KC-135 airframes were programmed for retirement, the corresponding 
aircrew, operations staff and maintenance manpower that will no longer 
be utilized were drawn down. Our new strategy requires us to balance 
risk across force structure, modernization, readiness, and people 
programs across all mission areas. Since the reduction of the aircraft 
is deemed congruent to the strategy, there is no offset to readiness. 
The reduction in manpower is excess to need and aligned with primary 
assigned aircraft reductions. The Air Force Reserve will continue to 
maintain the manpower necessary to ensure readiness does not suffer.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will reconvene on 
Wednesday, June 6 at 10 a.m. to receive testimony from outside 
witnesses.
    And now we will stand in recess subject to call of the 
Chair.
    [Whereupon, at 11:56 a.m., Wednesday, May 23, the 
subcommittee recessed, to reconvene at 10 a.m. on Wednesday, 
June 6.]

</pre></body></html>
